No.

In the Supreme Court of the United States
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
PETITIONERS

v.
YASSIR FAZAGA, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
JONATHAN Y. ELLIS
Assistant to the Solicitor
General
SHARON SWINGLE
JOSEPH F. BUSA
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Section 1806 of the Foreign Intelligence Surveillance
Act of 1978 (FISA), 50 U.S.C. 1801 et seq., governs the
“[u]se of information” obtained or derived from electronic surveillance for foreign-intelligence purposes under FISA. 50 U.S.C. 1806. Section 1806(c) and (d) require the federal or a state government to provide notice to an aggrieved person whenever it intends to introduce such information as evidence in any proceedings against that person. Section 1806(e) affords the aggrieved person the opportunity to move to suppress any
such information that was not obtained in compliance
with FISA. And Section 1806(f ) establishes special in
camera and ex parte procedures to determine the admissibility of such evidence, if the Attorney General attests that a typical adversarial hearing would harm the
national security of the United States. The question
presented is as follows:
Whether Section 1806(f ) displaces the state-secrets
privilege and authorizes a district court to resolve, in
camera and ex parte, the merits of a lawsuit challenging
the lawfulness of government surveillance by considering the privileged evidence.

(I)

PARTIES TO THE PROCEEDING

Petitioners are the United States of America, the
Federal Bureau of Investigation (FBI); Christopher A.
Wray, in his official capacity as the Director of the FBI;
and Kristi K. Johnson, in her official capacity as the Assistant Director of the FBI’s Los Angeles Division, each
of whom is a defendant in the district court.
Respondents are Yassir Fazaga, Ali Uddin Malik,
and Yasser Abdelrahim, each of whom is a plaintiff in
the district court; as well as Paul Allen, Kevin Armstrong, Pat Rose, J. Stephen Tidwell, and Barbara
Walls, each of whom is a defendant in the district court
sued in his or her individual capacity.
RELATED PROCEEDINGS

United States District Court (C.D. Cal.):
Fazaga v. FBI, No. 11-cv-301 (Aug. 14, 2012)
United States Court of Appeals (9th Cir.):
Fazaga v. FBI, No. 12-56867 (July 20, 2020)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
A. Legal background ............................................................. 2
B. The present controversy................................................... 7
Reasons for granting the petition ............................................. 14
A. The court of appeals’ decision is incorrect .................... 16
B. The court of appeals’ decision warrants further
review ............................................................................... 30
Conclusion ................................................................................... 34
Appendix A — Court of appeals order and amended
opinion (Feb. 28, 2019) ............................... 1a
Appendix B — District court order granting defendants’
motion to dismiss based on the state
secrets privilege (Aug. 14, 2012) ........... 136a
Appendix C — District court order granting in part
defendants’ motion to dismiss plaintiffs’
FISA claim (Aug. 14, 2012) ................... 181a
Appendix D — Statutory provisions ................................... 196a
TABLE OF AUTHORITIES

Cases:
Bivens v. Six Unknown Named Agents of Fed.
Bureau of Narcotics, 403 U.S. 388 (1971) .......................... 9
Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682
(2014) .................................................................................... 32
Chicago & S. Air Lines, Inc. v. Waterman S.S.
Corp., 333 U.S. 103 (1948) .................................................. 28
Clapper v. Amnesty Int’l USA, 568 U.S. 398 (2013) .... 32, 33
Department of the Navy v. Egan, 484 U.S. 518
(1988) .............................................................................. 28, 29
(III)

IV
Cases—Continued:

Page

FNU Tanzin v. Tanvir, 140 S. Ct. 550 (2019) .................... 32
Fitzgerald v. Penthouse Int’l, Ltd., 776 F.2d 1236
(4th Cir. 1985) ...................................................................... 23
Franchise Tax Bd. v. Hyatt, 139 S. Ct. 1485 (2019) .......... 28
General Dynamics Corp. v. United States,
563 U.S. 478 (2011).................................................. 2, 3, 4, 31
Gustafson v. Alloyd Co., 513 U.S. 561 (1995)...................... 21
Halkin v. Helms, 598 F.2d 1 (D.C. Cir. 1978) .................... 28
Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d 1070
(9th Cir. 2010), cert. denied, 563 U.S. 1002 (2011)....... 4, 19
Nielsen v. Preap, 138 S. Ct. 1279 (2018) ............................. 32
Public Citizen v. United States Dep’t of Justice,
491 U.S. 440 (1989).............................................................. 29
Sterling v. Tenet, 416 F.3d 338 (4th Cir. 2005),
cert. denied, 546 U.S. 1093 (2006) ..................................... 32
Tenet v. Doe, 544 U.S. 1 (2005) ............................................. 30
Totten v. United States, 92 U.S. 105 (1876) .................... 2, 28
Trump v. Hawaii, 138 S. Ct. 2392 (2018) ............................ 32
United States v. Belfield, 692 F.2d 141
(D.C. Cir. 1982) ................................................................... 24
United States v. Burr, 25 F. Cas. 187 (C.C.D. Va.
1807) ....................................................................................... 2
United States v. Nixon, 418 U.S. 683 (1974)................... 3, 28
United States v. Reynolds, 345 U.S. 1 (1953) ..... 3, 15, 24, 28
United States v. Texas, 507 U.S. 529 (1993) ....................... 28
Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338 (2011) ........ 32
Constitution, statutes, and regulation:
U.S. Const.:
Art. II ............................................................................... 13

V
Constitution, statutes, and regulation—Continued:

Page

Amend I:
Establishment Clause ................................................. 8
Free Exercise Clause .................................................. 8
Amend. IV .......................................................................... 8
Amend. V (Due Process Clause) ...................................... 8
Federal Tort Claims Act, 28 U.S.C. 1346(b), 2671
et seq. ...................................................................................... 8
Foreign Intelligence Surveillance Act of 1978,
50 U.S.C. 1801 et seq. .................................................. 4, 196a
50 U.S.C. 1801(f )(4) ............................................. 4, 201a
50 U.S.C. 1801(g) ................................................. 23, 201a
50 U.S.C. 1801(h) ................................................... 5, 201a
50 U.S.C. 1803(a) .............................................................. 4
50 U.S.C. 1804(a) .............................................................. 4
50 U.S.C. 1805 .................................................................. 4
50 U.S.C. 1805(a)(2) ......................................................... 5
50 U.S.C. 1805(a)(3) ......................................................... 5
50 U.S.C. 1805(c)(2)(A) .................................................... 5
50 U.S.C. 1806 ................................. 5, 16, 17, 20, 22, 204a
50 U.S.C. 1806(a)-(e) ............................................ 17, 204a
50 U.S.C. 1806(c) ............................... 5, 6, 10, 18, 20, 205a
50 U.S.C. 1806(d) ........................................6, 10, 20, 206a
50 U.S.C. 1806(e) .............................................. 6, 20, 206a
50 U.S.C. 1806(f ) .......................................... passim, 207a
50 U.S.C. 1806(g) ........................................7, 17, 21, 207a
50 U.S.C. 1809(a) .................................................... 5, 210a
50 U.S.C. 1809(a)(1) ............................................... 4, 210a
50 U.S.C. 1810 ............................... 5, 8, 9, 10, 21, 26, 212a
50 U.S.C. 1812(a) ............................................................ 26
Privacy Act, 5 U.S.C. 552a ...................................................... 8

VI
Statute and regulations—Continued:

Page

Religious Freedom Restoration Act of 1993,
42 U.S.C. 2000bb et seq. ....................................................... 8
Exec. Order No. 13,526, 3 C.F.R. 298 (2009 Comp.):
§ 1.1(d), 3 C.F.R. 298 ....................................................... 33
§ 6.1(s), 3 C.F.R. 323 ....................................................... 33
Miscellaneous:
H.R. Rep. No. 1283, 95th Cong., 2d Sess. Pt. 1 (1978) ....... 21
Intelligence Activities and the Rights of Americans:
Book II, S. Rep. No. 755, 94th Cong., 2d Sess.
(1976) .................................................................................... 26
Stephen M. Shapiro et al., Supreme Court Practice
(10th ed. 2013) ..................................................................... 32
S. Rep. No. 604, 95th Cong., 1st Sess. (1977)...................... 21
S. Rep. No. 701, 95th Cong., 2d Sess. (1978)........... 20, 25, 26

In the Supreme Court of the United States
No.
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
PETITIONERS

v.
YASSIR FAZAGA, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the federal
parties, respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Ninth Circuit in this case. 1
OPINIONS BELOW

The amended panel opinion of the court of appeals
(App., infra, 5a-98a), the order denying rehearing en banc
(App., infra, 3a), and opinions regarding the denial of rehearing en banc (App., infra, 98a-135a) are reported at
965 F.3d 1015. The opinion of the district court (App., infra, 136a-180a) is reported at 884 F. Supp. 2d 1022. A related opinion of the district court (App., infra, 181a-195a)
is reported at 885 F. Supp. 2d 978.
This petition is filed on behalf of the official-capacity and agency
defendants. The individual-capacity defendants are separately represented by private counsel at governmental expense.
1

(1)

2
JURISDICTION

The judgment of the court of appeals was entered on
February 28, 2019. A petition for rehearing was denied
and an amended panel opinion was issued on July 20, 2020
(App., infra, 1a-135a). On March 19, 2020, this Court extended the time within which to file all petitions for a writ
of certiorari due on or after that date to 150 days from the
date of the lower court judgment, which, in this case, is
December 17, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

The pertinent statutory provisions are set forth in the
appendix to the petition. App., infra, 196a-212a.
STATEMENT
A. Legal Background

1. The Executive’s power and responsibility to safeguard the national security and to protect state secrets
from exposure in litigation have been recognized since
the earliest years of the Republic. In the 1807 treason
trial of Aaron Burr, Chief Justice Marshall recognized
that a court must afford “all proper respect” to the President’s judgment that, in response to a trial subpoena,
the public interest required certain documents “be kept
secret.” United States v. Burr, 25 F. Cas. 187, 192
(C.C.D. Va. 1807) (No. 14,694). In Totten v. United
States, 92 U.S. 105 (1876), this Court held that, “as a
general principle,” “public policy forbids the maintenance of any suit in a court of justice, the trial of which
would inevitably lead to the disclosure of matters which
the law itself regards as confidential,” including state
and military secrets. Id. at 107. Most recently, in General Dynamics Corp. v. United States, 563 U.S. 478
(2011), the Court observed that it had long “recognized

3
the sometimes-compelling necessity of governmental secrecy by acknowledging a Government privilege against
court-ordered disclosure of state and military secrets.”
Id. at 484.
The state-secrets privilege is deeply rooted in both
“the law of evidence,” United States v. Reynolds, 345
U.S. 1, 6-7 (1953), and the Executive’s “Art[icle] II duties” to protect “military or diplomatic secrets,” United
States v. Nixon, 418 U.S. 683, 710 (1974). Even if a litigant makes a “strong showing of necessity” for discovery or use of information, the privilege applies whenever
“there is a reasonable danger that compulsion of the
evidence will expose military [or other] matters which,
in the interest of national security, should not be divulged.” Reynolds, 345 U.S. at 10-11. And where it applies, the privilege is absolute: “[E]ven the most compelling necessity cannot overcome the claim of privilege
if the court is ultimately satisfied that [state] secrets are
at stake.” Id. at 11.
To invoke the state-secrets privilege, “[t]here must
be a formal claim of privilege, lodged by the head of the
department which has control over the matter, after actual personal consideration by that officer.” Reynolds,
345 U.S. at 7-8 (citation omitted). Following a formal
claim, “[t]he court itself must determine whether the
circumstances are appropriate for the claim of privilege
* * * without forcing a disclosure of the very thing the
privilege is designed to protect.” Id. at 8. As with any
other evidentiary privilege, if the court upholds the government’s claim of state-secrets privilege, the privileged information is entirely removed from the case.
See id. at 10-11; General Dynamics, 563 U.S. at 485
(“The privileged information is excluded.”).

4
Sometimes, when the privilege is invoked, the case
may proceed without the state secrets. See General Dynamics, 563 U.S. at 485. “[T]he assertion of the privilege will require dismissal,” however, where “litigating
the case to a judgment on the merits” even without introducing the privileged evidence “would present an unacceptable risk of disclosing state secrets.” Mohamed
v. Jeppesen Dataplan, Inc., 614 F.3d 1070, 1079 (9th
Cir. 2010) (en banc), cert. denied, 563 U.S. 1002 (2011).
In such a case, where the privilege precludes adjudication of the merits, this Court has recognized that “neither party can obtain judicial relief.” General Dynamics, 563 U.S. at 486.
2. The Foreign Intelligence Surveillance Act of 1978
(FISA or the Act), 50 U.S.C. 1801 et seq., regulates the
government’s collection of electronic surveillance for
foreign-intelligence purposes.
a. FISA defines “[e]lectronic surveillance” as the acquisition of wire, radio, or other communications within
the United States in various contexts. As relevant here,
when electronic surveillance is conducted through the
“installation or use of an electronic, mechanical, or
other surveillance device in the United States” for the
purpose of “acquir[ing] information, other than from a
wire or radio communication,” where “a person has a
reasonable expectation of privacy and a warrant would
be required for law enforcement purposes,” 50 U.S.C.
1801(f )(4), the Act typically requires that, before the
government conducts the surveillance, it must obtain an
order from the Foreign Intelligence Surveillance Court.
50 U.S.C. 1805, 1809(a)(1); see 50 U.S.C. 1803(a), 1804(a).
To obtain such an order, the government must establish, inter alia, probable cause to believe that the “target of the electronic surveillance” is a foreign power or

5
an agent thereof and that “each of the facilities or
places” at which the surveillance is directed is being
used, or is about to be used, by a foreign power or its
agent. 50 U.S.C. 1805(a)(2). The government must also
establish that the “minimization procedures” it will employ are reasonably designed to minimize the acquisition, retention, and dissemination of nonpublic information concerning “United States persons.” 50 U.S.C.
1801(h), 1805(a)(3), and (c)(2)(A).
FISA imposes criminal penalties on any person who
intentionally engages in unauthorized electronic surveillance “under color of law” or intentionally “discloses
or uses information obtained under color of law” by
unauthorized electronic surveillance, “knowing or
having reason to know that the information was obtained through” unauthorized electronic surveillance.
50 U.S.C. 1809(a). FISA also provides a private claim for
damages to any “aggrieved person, other than a foreign
power or [its] agent,” who has been subjected to electronic surveillance, or about whom information obtained
by electronic surveillance has been disclosed or used, in
violation of the criminal prohibition. 50 U.S.C. 1810.
b. Section 1806 of FISA regulates the government’s
“[u]se of information” obtained or derived from electronic surveillance conducted under the Act. 50 U.S.C.
1806. As most relevant here, any person subject to surveillance pursuant to FISA must be afforded notice and
an opportunity to be heard before information obtained
or derived from that surveillance may be used in any
court or agency proceeding against that person.
Section 1806(c) provides that, “[w]henever the Government intends to enter into evidence or otherwise use
or disclose in any * * * proceeding * * * , against an
aggrieved person, any information obtained or derived

6
from an electronic surveillance of that aggrieved person
pursuant to [FISA],” the government must “notify the
aggrieved person and the court * * * that the Government intends to so disclose or so use such information.”
50 U.S.C. 1806(c); see 50 U.S.C. 1806(d) (imposing the
same notice requirement on States and their political
subdivisions ). Section 1806(e) authorizes an aggrieved
person “against whom [such] evidence * * * is to be, or
has been, introduced or otherwise used or disclosed” to
“move to suppress the evidence” on the ground that
(1) “the information was unlawfully acquired” or
(2) “the surveillance was not made in conformity with an
order of authorization or approval.” 50 U.S.C. 1806(e).
Section 1806(f ) provides, in turn, a mechanism for in
camera and ex parte resolution of the admissibility of
such evidence if “the Attorney General files an affidavit
under oath that disclosure or an adversary hearing
would harm the national security of the United States.”
50 U.S.C. 1806(f ).
Specifically, Section 1806(f ) authorizes the Attorney
General to invoke the in camera and ex parte procedures
[w]henever a court or other authority is notified pursuant to subsection (c) or (d), or whenever a motion
is made pursuant to subsection (e), or whenever any
motion or request is made by an aggrieved person
pursuant to any other statute or rule of the United
States or any State before any court or other authority of the United States or any State to discover or
obtain applications or orders or other materials relating to electronic surveillance or to discover, obtain, or suppress evidence or information obtained or
derived from electronic surveillance under [FISA].
50 U.S.C. 1806(f ).

7
When the Attorney General invokes Section 1806(f ),
the district court in which the aggrieved person’s motion was filed—or, “where the motion is made before another authority,” the district court “in the same district
as the authority”—“shall, notwithstanding any other
law, * * * review in camera and ex parte the [FISA]
application, order, and such other materials relating to
the surveillance as may be necessary to determine
whether the surveillance of the aggrieved person was
lawfully authorized and conducted.” 50 U.S.C. 1806(f ).
Review under Section 1806(f ) proceeds ex parte unless
disclosure to the aggrieved person “is necessary to make
an accurate determination of the legality of the surveillance,” in which case the court “may disclose to the aggrieved person, under appropriate security procedures
and protective orders, portions of the application, order,
or other materials relating to the surveillance.” Ibid.
If the district court determines “pursuant to subsection (f )” that “the surveillance was not lawfully authorized or conducted,” it “shall, in accordance with the requirements of law, suppress the evidence which was unlawfully obtained or derived from electronic surveillance of the aggrieved person or otherwise grant the
motion of the aggrieved person.” 50 U.S.C. 1806(g).
Conversely, “[i]f the court determines that the surveillance was lawfully authorized and conducted, it shall
deny the motion * * * except to the extent that due
process requires discovery or disclosure.” Ibid.
B. The Present Controversy

1. Respondents are three members of Muslim communities in Southern California. App., infra, 140a.
They brought this putative class action in 2011 against
the United States, the Federal Bureau of Investigation
(FBI), former FBI Director Robert Mueller and former

8
Assistant Director of the FBI Los Angeles Field Office
Steven Martinez in their official capacities, and five
FBI agents in their individual capacities. Id. at 141a,
146a. Respondents allege that, from 2006 to 2007, the
FBI used a confidential informant, Craig Monteilh, to
covertly gather information about Muslims in their
communities based solely on their religion. Id. at 139a,
142a, 145a.
Respondents allege that the FBI directed Monteilh
to engage in various forms of investigation, including
non-electronic and electronic surveillance. For example, they allege that Monteilh was directed to “seiz[e]
every opportunity to meet people” by “attend[ing] lectures by Muslim scholars,” “attend[ing] classes and
dawn prayers at mosques,” and “work[ing] out with
Muslims he met at [the] gym.” App., infra, 10a, 144a.
They allege that Monteilh gathered personal information, like phone numbers and email addresses,
through face-to-face encounters at such gatherings. Id.
at 11a-12a, 144a-145a. They also allege that he collected
video recordings capturing the interiors of mosques,
homes, and businesses, and audio recordings of conversations, lectures, classes, and other events. Ibid. And,
finally, respondents allege that FBI agents separately
planted audio-listening devices in one respondent’s office and another’s home. Id. at 12a, 34a.
Based on these allegations, respondents assert claims
under the Establishment Clause, the Free Exercise
Clause, the Fourth Amendment, the equal protection
component of the Due Process Clause, the Federal Tort
Claims Act (FTCA), Section 1810 of FISA, the Religious
Freedom Restoration Act of 1993, the Privacy Act, and
California law. App., infra, 147a-148a. They seek dam-

9
ages from the FBI agents sued in their individual capacities under Bivens v. Six Unknown Named Agents
of Federal Bureau of Narcotics, 403 U.S. 388 (1971),
and Section 1810 of FISA; damages from the government under the FTCA and California law; and an injunction ordering the government “to destroy or return
any information gathered” through or derived from unlawful surveillance. App., infra, 58a (citation omitted);
see id. at 148a & n.6.
2. Before the district court, the government formally invoked the state-secrets privilege, through a
declaration of the Attorney General, over information
concerning whether any particular individual, including
each of the respondents, was the subject of an FBI
counterterrorism investigation, the reasons for any
such investigation, and the particular sources and methods used (including any undisclosed electronic surveillance). App., infra, 163a. The government submitted
classified declarations explaining in detail why disclosure of that information could reasonably be expected
to harm the national security. Id. at 163a-164a.
On August 14, 2012, the district court upheld the
privilege and dismissed the claims against the government and the official-capacity federal defendants. App.,
infra, 136a-180a. The court determined that disclosure
of the privileged evidence “would significantly compromise national security.” Id. at 165a. And it concluded
that “litigation of this action would certainly require or,
at the very least, greatly risk disclosure of secret information, such that dismissal at this stage of the proceeding is required.” Id. at 165a-166a. 2

The district court also dismissed the claims against the individualcapacity defendants on state-secrets grounds with the exception of
2

10
3. The court of appeals reversed. App., infra, 1a98a. As relevant here, the court held that “the procedures established under FISA for adjudicating the legality of challenged electronic surveillance replace the
common law state secrets privilege with respect to such
surveillance to the extent that privilege allows the categorical dismissal of causes of action.” Id. at 37a-38a.
Without addressing the district court’s determination
that further litigation would require the disclosure of
state secrets, the court of appeals held that the district
court erred in dismissing respondents’ claims, instead
of relying on Section 1806(f ) of FISA as the means to
adjudicate respondents’ claims on the merits based on
the privileged evidence. See id. at 37a-67a.
The court of appeals determined that Section 1806(f )
was triggered in two ways. First, it construed the Attorney General’s declaration invoking the state-secrets
privilege to exclude certain information—including
whether there was any undisclosed electronic surveillance
—as constituting notice under Section 1806(c) of the
government’s intent to use or disclose information obtained or derived from electronic surveillance against
respondents’ claims. App., infra, 57a-58a; see 50 U.S.C.
1806(d), (f ) (providing for in camera and ex parte review “[w]henever a court or other authority is notified
pursuant to subsection (c) or (d)” of the government’s
intent to “enter into evidence or otherwise use or disclose” the information in a legal proceeding). Second,
the court concluded that a prayer for relief in respondents’ complaint—for an order requiring the destruction
or return of information gathered in the alleged investigations—constituted a “motion or request * * * to
respondents’ claims for damages under FISA Section 1810. App.,
infra, 178a-180a, 195a.

11
discover, obtain, or suppress evidence or information
obtained or derived from electronic surveillance” under
FISA. App., infra, 57a (quoting 50 U.S.C. 1806(f )); see
id. at 58a.
The court of appeals further held that, when the Section 1806(f ) procedure applies, it “displace[s] the common law dismissal remedy created by the Reynolds state
secrets privilege as applied to electronic surveillance
within FISA’s purview.” App., infra, 47a; see id. at 46a55a. The court reasoned that “[t]he state secrets privilege may have a constitutional core or constitutional
overtones, but, at bottom, it is an evidentiary rule rooted
in common law” that can be abrogated by any statute
that “speak[s] directly to the question addressed by the
common law.” Id. at 47a, 48a-49a (citations and internal
quotation marks omitted). The court concluded that the
text of FISA and its legislative history indicated that
Congress intended to make Section 1806(f )’s in camera
and ex parte procedure “the exclusive procedure for
evaluating evidence that threatens national security in
the context of electronic surveillance-related determinations.” Id. at 50a; see id. at 49a-55a.
The court of appeals accordingly reversed the district court’s dismissal based on the Attorney General’s
assertion of the state-secrets privilege and remanded
for further proceedings. App., infra, 92a-98a. The
court instructed that, on remand, to the extent plaintiffs
are “aggrieved persons” within the meaning of FISA,
the district court “should, using § 1806(f )’s ex parte and
in camera procedures, review any ‘materials relating to
the surveillance as may be necessary,’ including the evidence over which the Attorney General asserted the
state secrets privilege, to determine whether the elec-

12
tronic surveillance was lawfully authorized and conducted.” Id. at 92a-93a (citation omitted). “As permitted by Congress,” the court continued, “ ‘[i]n making
this determination, the court may disclose to [respondents] * * * portions of the application, order or other
materials relating to the surveillance’ ” if “ ‘necessary to
make an accurate determination.’ ” Id. at 93a (quoting
50 U.S.C. 1806(f )) (first set of brackets in original).
The court of appeals further held that, once the district court used the Section 1806(f ) procedures to determine the lawfulness of the electronic surveillance in resolving the merits of respondents’ claims, “it c[an] rely
on its assessment of the same evidence * * * to determine the lawfulness of the surveillance falling outside
FISA’s purview.” App., infra, 95a. The court reasoned
that “[i]t would stretch the privilege beyond its purpose
to require the district court to consider the state secrets
evidence in camera and ex parte for one claim, but then,
when considering another claim, ignore the evidence
and dismiss the claim.” Ibid. The court of appeals
stated that, if its “prediction of the overlap between the
information to be reviewed * * * to determine the validity of FISA-covered electronic surveillance and the
information pertinent to other aspects” of the claims
turned out to be inaccurate, the government would be
“free to interpose a specifically tailored, properly raised
state secrets privilege defense.” Ibid.
4. The court of appeals denied rehearing en banc by
a deeply divided vote. App., infra, 3a.
a. Judges Gould and Berzon, both members of the
original panel, concurred in the denial of rehearing en
banc, joined by three other judges. App., infra, 98a108a. In their joint concurrence, Judges Gould and Berzon reiterated the reasoning of the panel opinion, and

13
stated that, in their view, the panel decision deprives
the government “only” of the dismissal remedy “that
sometimes follows the successful invocation of the statesecrets evidentiary privilege,” not the state-secrets
privilege itself. Id. at 102a. In a footnote, they stated
that if a district court, in following the Section 1806(f )
procedures, were to order the disclosure of state secrets
to opposing counsel under that provision to facilitate the
court’s adjudication of the merits of respondents’
claims, “nothing in the panel opinion prevents the government from invoking the state secrets privilege’s dismissal remedy as a backstop at that juncture.” Id. at
100a n.1.
Senior District Judge Steeh, the third member of the
panel, filed a brief statement respecting the denial of
rehearing en banc, “agree[ing] with the views expressed
by Judges Berzon and Gould in their concurrence.”
App., infra, 108a.
b. Judge Bumatay, joined by nine other judges, dissented from the denial of rehearing en banc. App., infra, 109a-135a. Judge Bumatay observed that the Executive’s authority “to prevent the disclosure of information that would jeopardize national security” has been
recognized “[f ]rom the earliest days of our Nation’s history.” Id. at 108a. He explained that this authority “lies
at the core of the executive power” vested in the President by Article II and in the “President’s authority as
Commander in Chief.” Ibid. And he noted that, when
this Court “confronts a legislative enactment implicating [such] constitutional concerns,” “it has commonly required a clear statement from Congress before plowing
ahead * * * out of a due respect for those constitutional
concerns.” Id. at 110a. In his view, Section 1806(f )
“fall[s] pitifully short of th[at] standard.” Id. at 121a.

14
Judge Bumatay explained that, on its face, Section
1806(f ) does not apply in these circumstances and does
not displace the state-secrets privilege. Instead, Section 1806(f ) provides procedures to determine the limited issue of the admissibility of electronic-surveillance
evidence when the government seeks to use such evidence against an aggrieved person in litigation. App.,
infra, 108a, 127a-134a. He explained that, contrary to
the panel’s opinion, the government’s invocation of the
state-secrets privilege to remove evidence from the case
did not trigger Section 1806(f )’s procedures because it
did not provide notice of an intent to use that evidence
against respondents. Id. at 128a-130a. He likewise concluded that respondents’ prayer for relief to destroy or
return any information obtained or derived from government surveillance did not qualify as a motion or request “ ‘to discover, obtain, or suppress evidence or information’ ” that would trigger Section 1806(f ), reasoning that that language applies only to motions to suppress or other similar procedural requests, not “substantive requests for relief.” Id. at 132a (citation omitted); see id. at 131a-134a.
REASONS FOR GRANTING THE PETITION

This case raises exceptionally important questions
concerning the Executive Branch’s responsibility under
the Constitution to protect the national security of the
United States. The court of appeals’ decision has the
startling consequence of transforming a limited provision of FISA that was designed to safeguard nationalsecurity information into a mechanism for overriding
the Executive’s invocation of the state-secrets privilege
and for adjudicating the merits of private-party claims
for substantive relief on the basis of state secrets. The
court of appeals’ decision conflicts with this Court’s

15
clear admonition that courts should not endanger national security by allowing state secrets to be used in
litigation, “even by the judge alone, in chambers.”
United States v. Reynolds, 345 U.S. 1, 10 (1953). It is
deeply misguided and warrants this Court’s review.
As the ten judges who dissented from the denial of
rehearing en banc correctly recognized, Section 1806(f )
of FISA creates a limited, government-protective procedure for resolving questions of admissibility or suppression when the government affirmatively seeks in
litigation to use electronic-surveillance evidence against
a person who was subject to the surveillance. It does
not create a freestanding in camera and ex parte mechanism for resolving the merits of a case brought against
the government or its officers on the basis of evidence
that the government seeks, on state-secrets grounds, to
exclude—much less for resolution of the lawfulness of
non-electronic surveillance. Nor, even more fundamentally, does Section 1806(f ) silently displace the longstanding and constitutionally rooted state-secrets privilege, which enables the Executive to fulfill its constitutional duty to protect national-security information.
The Ninth Circuit’s decision to the contrary poses a
substantial risk that state secrets will be disclosed on
remand in this case. And it has already formed the basis
for requests by inventive litigants in other pending
cases brought against the government to “dodge the
state secrets privilege” by invoking Section 1806(f ).
App., infra, 111a (Bumatay, J., dissenting from denial
of rehearing en banc). If left undisturbed, the panel’s
opinion threatens to leave the government “powerless
to prevent the disclosure of state secrets” in defending
itself against such claims. Ibid. And “[m]ost alarming[ly],” it could “lead to the disclosure of state secrets

16
to the very subjects of the foreign-intelligence surveillance.” Id. at 110a. Before such results are permitted,
this Court’s review is warranted.
A. The Court Of Appeals’ Decision Is Incorrect

The court of appeals held that the in camera, ex
parte procedures under Section 1806(f ) may be triggered whenever the government invokes the statesecrets privilege to exclude evidence that was allegedly
obtained by or derived from electronic surveillance or
whenever a plaintiff files suit challenging the legality
of alleged electronic surveillance and requests an order
to destroy or return information gathered through such
surveillance. App., infra, 57a-58a. The court further
held that, where Section 1806(f ) applies, it permits
the district court to adjudicate the merits of substantive claims for relief by considering the very evidence
over which the government asserted the privilege. Id.
at 47a. Both holdings are incorrect and warrant this
Court’s review.
1. a. Section 1806, titled “Use of information,” regulates how the government may use or disclose evidence
obtained or derived from electronic surveillance conducted under FISA. 50 U.S.C. 1806. Subsection (a) requires that such information “may be used” only in compliance with privacy-protective minimization procedures; subsection (b) provides that such information
“may only be used” with the advance authorization of
the Attorney General; subsections (c) and (d) require
that, if a government entity seeks to “use or disclose”
such information “against an aggrieved person” in a legal proceeding, the government must “notify the aggrieved person”; and subsection (e) provides that an aggrieved person against whom the electronic-surveillance
information is to be “used or disclosed” may “move to

17
suppress” the information “on the ground[ ] that” it was
“unlawfully acquired.” 50 U.S.C. 1806(a)-(e). The provision at issue here is subsection (f ).
In keeping with the rest of Section 1806, subsection
(f ) creates a procedure for determining whether the
government can introduce evidence obtained or derived
from electronic surveillance against an aggrieved person, or whether such evidence must be suppressed, in
circumstances when a typical adversarial hearing on the
question of such use by the government would “harm
the national security.” 50 U.S.C. 1806(f ). When the Attorney General attests to such harm, a district court reviews the underlying FISA application, order, and related materials in camera and ex parte to determine
“the legality of the surveillance,” and may disclose the
relevant materials to the aggrieved person only where
“necessary to make an accurate determination.” Ibid.
If the court “determines that the surveillance was not
lawfully authorized or conducted, it shall * * * suppress the evidence [that] was unlawfully obtained or derived from electronic surveillance of the aggrieved person or otherwise grant the motion.” 50 U.S.C. 1806(g).
Conversely, “[i]f the court determines that the surveillance was lawfully authorized and conducted, it shall
deny the motion * * * except to the extent that due
process requires discovery or disclosure.” Ibid.
By its terms, Section 1806(f )’s procedures are available only in three circumstances: first, when the government provides notice under subsections (c) and (d)
of its intent to “use or disclose” electronic-surveillance
evidence against an aggrieved person in a legal proceeding; second, when an aggrieved person against
whom electronic-surveillance evidence has been, or is to
be, used or disclosed files a motion to suppress under

18
subsection (e); or, third, “whenever any motion or request is made by an aggrieved person pursuant to any
other statute or rule of the United States” to “discover
or obtain applications or orders or other materials relating to electronic surveillance or to discover, obtain,
or suppress evidence or information obtained or derived
from electronic surveillance under [FISA].” 50 U.S.C.
1806(f ). Because the government has no intention of using or disclosing any FISA-obtained or FISA-derived
evidence in this case and respondents have not filed any
motion to suppress or similar procedural motion in an
effort to preclude such (non-existent) use or disclosure
of any FISA-obtained or FISA-derived evidence, Section 1806(f ) does not apply.
b. The court of appeals concluded that Section
1806(f ) provides the exclusive procedure for resolving
respondents’ claims on the merits and permits the court
to rely on such evidence, notwithstanding the Attorney
General’s invocation of the state-secrets privilege. The
court reasoned that the first and third grounds for invoking those procedures are satisfied here. Both conclusions are incorrect.
i. As to the first ground, the court of appeals concluded that the government’s assertion of the statesecrets privilege with respect to certain categories of
information in this case constituted notice under Section 1806(c) of the government’s intent “to enter into evidence or otherwise use or disclose” FISA-obtained or
FISA-derived information against respondents in this
lawsuit, 50 U.S.C. 1806(c). See App., infra, 57a-58a.
The court reasoned that it was “because the Government would like to use this information to defend itself
that it * * * asserted the state secrets privilege.” Id.
at 57a. That reasoning is misguided.

19
The government invoked the state-secrets privilege
for the same reason that any party asserts any evidentiary privilege: to prevent the introduction or disclosure
of the privileged information. As the declaration of the
Attorney General explained, disclosure of the privileged
information—including whether or not there was any
electronic surveillance—“could reasonably be expected
to cause significant harm to the national security.”
Holder Declaration, D. Ct. Doc. 32-3, at 2 (Aug. 1, 2011).
The government sought to avoid that result by precluding its use. By the panel’s reasoning, a litigant who asserts the attorney-client privilege signals his intent to
use or disclose private communications with counsel, or
a husband who asserts the marital-communications
privilege signals his intent to use or disclose private
conversations with his spouse. But, of course, they do
nothing of the sort. “Such upside-down logic should not
stand.” App., infra, 128a (Bumatay, J., dissenting from
denial of rehearing en banc).
To be sure, invoking the state-secrets privilege to remove evidence from a case may in some circumstances
result in dismissal of the plaintiff ’s claims, see Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d 1070, 1083
(9th Cir. 2010) (en banc), cert. denied, 563 U.S. 1002
(2011), but that potential outcome does not convert the
invocation of the privilege into an attempt to introduce
the privileged evidence that would trigger FISA’s in
camera procedures.
ii. As to the third ground for invoking Section 1806(f ),
the court of appeals concluded that respondents’ substantive prayer for relief in their complaint for an injunction requiring the government to “destroy or return any information gathered through the [allegedly]
unlawful surveillance program” constituted a “motion

20
or request * * * made by an aggrieved person * * * to
discover, obtain, or suppress evidence or information
obtained or derived from electronic surveillance” under
FISA. App., infra, 58a; 50 U.S.C. 1806(f ). But in the
context of Section 1806 and the Act as a whole, that conclusion too is implausible.
The rest of Section 1806 and its title make clear that
Section 1806 concerns the government’s use or disclosure of FISA-obtained and FISA-derived evidence.
The immediately preceding subsections demonstrate
that subsection (f ), in particular, concerns the government’s attempt to use or disclose such evidence against
an aggrieved person in a legal proceeding. And the
three grounds for invoking Section 1806(f ) each fit comfortably within that framework. The first ground applies whenever the government provides notice under
Section 1806(c) or (d) of its intent to “use or disclose”
FISA-obtained or FISA-derived material against the
aggrieved person. 50 U.S.C. 1806(c) and (d); see 50
U.S.C. 1806(f ). The second ground applies when the aggrieved person invokes Section 1806(e) to “suppress”
such material. 50 U.S.C. 1806(e); see 50 U.S.C. 1806(f ).
And the third ground serves as a backstop to the first
two, ensuring that an aggrieved person cannot prevent
the Attorney General from invoking Section 1806(f )’s in
camera, ex parte procedures by seeking to suppress evidence or obtain discovery of FISA materials by invoking “any other statute or rule of the United States or
any State.” 50 U.S.C. 1806(f ) (emphasis added). As the
Senate Report explains, the third ground prevents the
“carefully drawn” procedures of Section 1806(f ) “from
being bypassed by the inventive litigant using a new
statute, rule or judicial construction.” S. Rep. No. 701,
95th Cong., 2d Sess. 63 (1978) (1978 Senate Report); see

21
H.R. Rep. No. 1283, 95th Cong., 2d. Sess. Pt. 1, at 91
(1978); S. Rep. No. 604, 95th Cong., 1st Sess. 40 (1977).
Against that backdrop, respondents’ prayer for relief on the merits cannot be understood as a “request”
to “discover, obtain, or suppress” FISA-obtained or
FISA-derived information that would trigger the Section 1806(f ) process. 50 U.S.C. 1806(f ); see App., infra,
58a. A word or phrase in a statute “is known by the
company it keeps.” Gustafson v. Alloyd Co., 513 U.S.
561, 575 (1995). Even if a civil complaint’s prayer
for final judgment and substantive relief might be colloquially described as a “request,” it is nothing like the
sort of procedural motion to which Section 1806(f ) is directed. Nor would awarding such relief on final
judgment plausibly be described as granting the “[s]uppression of evidence” or other “motion of the aggrieved
person”—the only relief that a district-court proceeding
under Section 1806(f ) can afford. 50 U.S.C. 1806(g).
Contrary to the court of appeals’ assertion, the existence in Section 1810 of a private cause of action for specified violations of FISA does not suggest a broader
reading. The court reasoned that “[i]t would make no
sense” to provide procedures for reviewing nationalsecurity evidence “but not intend for those very procedures to be used” under Section 1810. App., infra, 61a.
Section 1806(f ) may well apply to a covered procedural
motion in such a case. But for the reasons described
above, Section 1806(f ) can no more be read to authorize
in camera and ex parte resolution of the merits of a
Section 1810 claim, than it can be read to authorize
resolving any other substantive claim. The court provided no basis for its contrary conclusion, other than its
bare assertion.

22
In short, by holding that Section 1806(f ) provides a
vehicle for in camera, ex parte resolution not simply of
the admissibility of FISA-obtained or FISA-derived evidence, but of the merits of respondents’ civil claims
challenging electronic and non-electronic surveillance,
the decision below “jam[s] a square peg into a round
hole.” App., infra, 134a (Bumatay, J., dissenting from
denial of rehearing en banc).
2. The court of appeals significantly compounded its
error by further holding that Section 1806(f )’s procedures preclude the government from invoking the statesecrets privilege to remove any sensitive nationalsecurity information from a case in which Section
1806(f ) applies. The court reasoned that, in enacting
Section 1806(f ), Congress “ ‘ “sp[oke] directly” to the
question addressed by the [privilege]’ ” and that, because the privilege “is an evidentiary rule rooted in
common law, not constitutional law,” that was sufficient
to displace “the common law dismissal remedy created
by the Reynolds state secrets privilege as applied to
electronic surveillance within FISA’s purview.” App.,
infra, 47a, 48a-49a (citation omitted). Once again, the
court was wrong on both counts.
a. Nothing in Section 1806(f ) speaks—directly or
indirectly—to displacing the state-secrets privilege or
the government’s ability to protect the national security
by removing state secrets from a case. The privilege is
not mentioned in the text of that provision or anywhere
in Section 1806. Nor have the court of appeals or plaintiffs identified anything in FISA’s legislative history
suggesting that Congress intended to displace the privilege. And nothing in the operation of Section 1806(f ) is
incompatible with the continued vitality of the privilege.

23
The court of appeals observed that Section 1806(f )
and the state-secrets privilege are both “animated
by * * * threats to national security,” and it described
Section 1806(f ) as, “ ‘in effect, a “codification of the state
secrets privilege for purposes of relevant cases under
the FISA.” ’ ” App., infra, 51a (citation omitted). But
the two measures have different scopes; they apply in
different circumstances; they are invoked by different
officials; and they address national-security concerns in
diametrically opposite ways.
Section 1806(f ) applies when the government seeks
to “use or disclose” electronic-surveillance information
against an aggrieved person in legal proceedings, typically a criminal case. It provides a mechanism for adjudicating whether that information may be introduced
into evidence or must be suppressed. In keeping with
the focus on the government’s position in litigation, the
Attorney General (or his delegee)—the official primarily responsible for government litigation—triggers
those statutory procedures. 50 U.S.C. 1801(g), 1806(f ).
If the government prevails under Section 1806(f )’s procedures, the government may introduce the evidence
into the proceeding.
By invoking the state-secrets privilege, by contrast,
the government seeks to remove information from a
case to protect the national security from harms that
could result from its use or disclosure. The privilege is
invoked most often where the government is a defendant, but also may apply in a case in which the government is not even a party. See, e.g., Fitzgerald v. Penthouse Int’l, Ltd., 776 F.2d 1236 (4th Cir. 1985). In keeping with that broader focus, the state-secrets privilege
is invoked by the “head of the department” responsible
for the national-security information (not necessarily

24
the Attorney General), who must “personal[ly]” (not
through a delegee) make a privilege claim. See Reynolds, 345 U.S. at 7-8. It generally forecloses even in
camera consideration. See id. at 10 (“[T]he court should
not jeopardize the security which the privilege is meant
to protect by insisting upon an examination of the evidence, even by the judge alone, in chambers.”). And if
the privilege is upheld, the privileged information may
not be introduced or relied upon in the case by anyone.
In light of those differences, there is no reasonable
basis to conclude that, by providing a means for the government to introduce FISA-obtained or FISA-derived
evidence in a legal proceeding, Congress implicitly
intended to prevent the government from excluding
privileged evidence for national-security purposes. Indeed, even before FISA was enacted, courts used in
camera procedures to determine the legality of foreignintelligence surveillance in appropriate circumstances
for purposes of determining whether evidence resulting
from such surveillance could be used by the government. See United States v. Belfield, 692 F.2d 141, 149
(D.C. Cir. 1982) (“In this circuit and in others, it has
constantly been held [pre-FISA] that the legality of
electronic, foreign intelligence surveillance may, even
should, be determined on an in camera, ex parte basis.”). If Congress effectively codified anything in Section 1806(f ), it was that pre-FISA practice. “Given that
ex parte, in camera review procedures coexisted with
the state secrets privilege before FISA, there’s no reason to construe Congress’s codification of such procedures as an intent to eliminate the privilege.” App., infra, 124a (Bumatay, J., dissenting from denial of rehearing en banc).

25
The court of appeals emphasized that Section 1806(f )
provides that, “ ‘whenever’ ” one of the triggering conditions is met, the in camera, ex parte procedures “ ‘shall’ ”
be used “ ‘notwithstanding any other law.’ ” App., infra,
50a (quoting 50 U.S.C. 1806(f )) (emphasis omitted). But
that mandatory language is expressly conditioned on
the Attorney General’s invocation of the Section 1806(f )
procedures by sworn affidavit. See 50 U.S.C. 1806(f )
(requiring a district court to conduct in camera review,
“notwithstanding any other law, if the Attorney General
files an affidavit under oath that disclosure or an adversary hearing would harm the national security”) (emphasis added). It speaks only to the type of review the
court must undertake in those circumstances—“in camera and ex parte,” rather than adversarial adjudication
in open court. Ibid. Thus, Congress’s use of such language is designed to protect the government’s ability to
channel certain motions through Section 1806(f ), regardless of what procedure the aggrieved person attempts to invoke. See pp. 20-21, supra. It was not intended to preclude the government from protecting national security by invoking the state-secrets privilege to
prevent the use of the evidence in the case altogether.
The 1978 Senate Report makes that point clear. As
that report explains, Congress’s use of broad, mandatory language, like “ ‘notwithstanding any other law,’ ”
was intended to “make very clear that the procedures
set out in [Section 1806(f )] apply whatever the underlying rule or statute referred to in the [aggrieved person’s] motion” to suppress, discover, or obtain FISAobtained or FISA-derived evidence. 1978 Senate Report 63. At the same time, however, the report explains
that, even when Section 1806(f ) would otherwise apply,

26
the government may always “prevent[ ]” a court’s “adjudication of legality” by simply “choos[ing]” to “forgo
the use of the surveillance-based evidence” and thereby
avoid the risk that even Section 1806(f )’s protective procedures “would damage the national security.” Id. at 65.
The court of appeals found support for its contrary
reading in unrelated and general statements in FISA’s
legislative history about the need to enact “fundamental
reform,” in order to provide the “exclusive legal authority for domestic security activities” and a civil remedy
to “afford effective redress to people who are injured by
improper federal intelligence activity.” App., infra,
53a-54a (quoting Intelligence Activities and the Rights
of Americans: Book II, S. Rep. No. 755, 94th Cong., 2d
Sess. 289, 297, 336 (1976)). But those statements
describe nascent proposals for reform several years
before FISA was enacted, not actual statutory provisions—much less the provision at issue here. To the
extent they are relevant to interpreting the final legislation, they are reflected in FISA’s provisions (1) making the FISA warrant procedures the “exclusive” authority for domestic electronic surveillance for foreignintelligence purposes, 50 U.S.C. 1812(a); see 1978 Senate Report 71 (“This statement puts to rest the notion
that Congress recognizes an inherent Presidential
power to conduct such surveillances.”); and (2) providing a private cause of action for damages based on criminal violations of FISA’s procedures, see 50 U.S.C. 1810.
They have no bearing on the question presented here.
In the end, not even the panel itself appears to have
had confidence in any purported congressional intent to
displace the state-secrets privilege. In response to the
concern that the panel’s opinion might require a district
court to disclose sensitive national-security information

27
to the subjects of the government’s surveillance, see
App., infra, 125a (Bumatay, J., dissenting from denial
of rehearing en banc), two members of the panel announced in their concurrence in denial of rehearing en
banc that, if the district court ordered such disclosure
pursuant to Section 1806(f ), “nothing in the panel opinion prevents the government from invoking the state secrets privilege’s dismissal remedy as a backstop at that
juncture,” id. at 100a n.1 (Gould & Berzon, JJ., concurring in denial of rehearing en banc). The third member
of the panel “agree[d].” Id. at 108a (Steeh, J., statement
regarding denial of rehearing en banc). But neither
opinion explains how Section 1806(f ) could be read to
displace the state-secrets privilege, but only so far as disclosure to the aggrieved party is not ordered during the
Section 1806(f ) proceedings. Nothing in the text, structure, nor history of FISA supports such a line, and subjecting the national security to such procedures is incompatible with the privilege’s vesting of the responsibility
and authority to protect state secrets in the Executive.
b. Finally, if there were any doubt that Congress did
not displace the state-secrets privilege, any ambiguity
in Section 1806(f ) should be construed in favor of retaining the privilege.
The state-secrets privilege is a longstanding feature
of our legal system, deeply rooted in early AngloAmerican law. As Judge Bumatay explained, “[f ]rom
the earliest days of our Nation’s history, all three
branches of government have recognized that the Executive has authority to prevent the disclosure of information that would jeopardize national security.” App.,
infra, 108a (dissenting from denial of rehearing en banc);
see id. at 113a-119a (canvassing historical sources).

28
This Court’s 1953 opinion in Reynolds traced the history of the privilege in the United States to, among
other notable roots, the treason trial of Aaron Burr. 345
U.S. at 6-9 & n.18. By 1978, when FISA was enacted,
“it [wa]s quite clear that the privilege to protect state
secrets must head the list” of “the various privileges
recognized in our courts.” Halkin v. Helms, 598 F.2d 1,
7 (D.C. Cir. 1978). Insofar as the privilege has been recognized as an element—indeed, an essential element—
of the common law, this Court has long employed a “presumption favoring retention” of such federal common
law. United States v. Texas, 507 U.S. 529, 534 (1993).
The privilege, moreover, is firmly rooted in the Constitution and is critical to the Executive Branch’s ability
to fulfill its constitutional duties. “The authority to protect [national-security] information falls on the President as head of the Executive Branch and as Commander
in Chief.” Department of the Navy v. Egan, 484 U.S.
518, 527 (1988) (citing Totten v. United States, 92 U.S.
105, 106 (1876)). “The President, both as Commanderin-Chief and as the Nation’s organ for foreign affairs,
has available intelligence services whose reports are not
and ought not to be published to the world.” Chicago &
S. Air Lines, Inc. v. Waterman S.S. Corp., 333 U.S. 103,
111 (1948). Executive privileges, including the statesecrets privilege, that “relate[ ] to the effective discharge of a President’s powers” are thus “constitutionally based.” United States v. Nixon, 418 U.S. 683, 710711 (1974); cf. Franchise Tax Bd. v. Hyatt, 139 S. Ct.
1485, 1498-1499 (2019) (noting that the “executive privilege” is one of the “constitutional doctrines” “implicit
in [the Constitution’s] structure and supported by historical practice”).

29
At the very least, the Court should require a much
clearer statement from Congress than Section 1806(f )
expresses before it construes a statute to displace the
longstanding and constitutionally based state-secrets
privilege. See Public Citizen v. United States Dep’t of
Justice, 491 U.S. 440, 466 (1989). As this Court has explained, “unless Congress specifically has provided otherwise, courts traditionally have been reluctant to intrude upon the authority of the Executive in military
and national security affairs.” Egan, 484 U.S. at 530
(emphasis added). Similarly, as Judge Bumatay observed, “[w]hen [this] Court confronts a legislative enactment implicating constitutional concerns—federalism
or separation of powers—it has commonly required a
clear statement from Congress before plowing ahead
* * * out of a due respect for those constitutional concerns.” App., infra, 110a (dissenting from denial of rehearing en banc). The state-secrets privilege “deserves
the same respect.” Ibid.
For the reasons described above, the best reading of
Section 1806(f ) is that it has no application to this case
and does not displace the government’s ability to invoke
the state-secrets privilege to protect the national security. At a minimum, there exists no clear statement in
Section 1806(f ), or anywhere else in FISA, that Congress intended to bring about such a startling change in
the Executive’s authority to protect national-security
information from compelled disclosure in litigation.
The court of appeals thus erred in “discovering abrogation of the state secrets privilege more than 40 years
after FISA’s enactment” and “disrupt[ing] the balance
of powers among Congress, the Executive, and the Judiciary.” App., infra, 110a (Bumatay, J., dissenting
from denial of rehearing en banc).

30
B. The Court Of Appeals’ Decision Warrants Further
Review

1. The court of appeals’ holding that Section 1806(f )
displaces the state-secrets privilege, and its transformation of Section 1806(f )’s protections for the government’s use of electronic surveillance into an avenue for
facilitating claims against the government, raise exceptionally important questions for this Court’s review. As
the ten judges dissenting from denial of rehearing en
banc recognized, the panel’s holding “seriously degrades
the Executive’s ability to protect our Nation’s secrets”
in this and future cases. App., infra, 134a (Bumatay, J.,
dissenting from denial of rehearing en banc). It creates
the dangerous prospect that, “[m]oving forward, litigants can dodge the state secrets privilege simply by
invoking ‘electronic surveillance’ somewhere within the
Ninth Circuit.” Id. at 111a. It accordingly presents a
serious risk of depriving the government of a vital tool
“to prevent the disclosure of state secrets.” Ibid.; see
Tenet v. Doe, 544 U.S. 1, 11 (2005) (“Forcing the Government to litigate these claims would also make it vulnerable to ‘graymail,’ i.e., individual lawsuits brought to
induce the CIA to settle a case * * * out of fear that
any effort to litigate the action would reveal classified
information that may undermine ongoing covert operations.”). And, in so doing, it “not only upset[s] the balance of power among co-equal branches of government,
but * * * do[es] damage to a right inherent in the constitutional design and acknowledged since our Nation’s
founding.” App., infra, 134a (Bumatay, J., dissenting
from denial of rehearing en banc).
Litigants have already seized on the panel’s opinion
in an attempt to prevent the government from invoking
the state-secrets privilege over sensitive national-

31
security information. See, e.g., Appellants’ Opening
Br., Jewel v. National Sec. Agency, No. 19-16066 (9th
Cir.) (filed Oct. 7, 2019). Under the panel’s opinion, such
litigants need not establish that the government failed
to satisfy the procedural requirements for assertion of
the state-secrets privilege, nor challenge the government’s assertion that further litigation would present a
serious risk of harm to the national security. Rather, it
is, perversely, the government’s assertion of the statesecrets privilege to exclude such evidence from further
litigation against an aggrieved person that simultaneously serves to displace the privilege. That situation is
untenable.
In their concurrence in denial of rehearing en banc,
two members of the panel attempted to downplay the
significance of their decision, describing it as overriding
“only the dismissal remedy that sometimes follows the
successful invocation of the state secrets evidentiary
privilege.” See App., infra, 101a (Gould & Berzon, JJ.,
concurring in denial of rehearing en banc). But the
court of appeals’ alternative to dismissal was for a district court to resolve the merits of a case like this one
on the basis of the privileged evidence. See id. 92a-93a
(panel opinion) (instructing that, to the extent plaintiffs
are “aggrieved persons,” the district court must “review
any ‘materials relating to the surveillance as may
be necessary,’ including the evidence over which the Attorney General asserted the state secrets privilege”)
(citation omitted). That is not how the state-secrets
privilege, or any other privilege, works. See General
Dynamics Corp. v. United States, 563 U.S. 478, 485
(2011) (“The privileged evidence is excluded.”). The
panel was therefore right in its decision to describe

32
its holding as displacing both “the state secrets privilege and its dismissal remedy.” App., infra, 64a (emphasis added). Such a momentous holding deserves this
Court’s review.
2. The interlocutory posture of this case provides no
basis for deferring this Court’s review. The Court frequently grants review of interlocutory decisions where
the petition presents an “important and clear-cut issue
of law” that “would otherwise qualify as a basis for certiorari” and “is fundamental to the further conduct of
the case.” Stephen M. Shapiro et al., Supreme Court
Practice § 4.18, at 283 (10th ed. 2013); see, e.g., Facebook, Inc. v. Duguid, No. 19-511 (cert. granted, July 9,
2020); FNU Tanzin v. Tanvir, 140 S. Ct. 550 (2019);
Trump v. Hawaii, 138 S. Ct. 2392 (2018); Nielsen v.
Preap, 138 S. Ct. 1279 (2018); Burwell v. Hobby Lobby
Stores, Inc., 573 U.S. 682 (2014); Clapper v. Amnesty
Int’l USA, 568 U.S. 398, 412 n.4 (2013); Wal-Mart
Stores, Inc. v. Dukes, 564 U.S. 338 (2011). So it is here.
Indeed, interlocutory review is particularly warranted given the potential for harm to the national security posed by further proceedings in this case and
others pending in lower courts. Any disclosure of state
secrets is “play[ing] with fire.” Sterling v. Tenet, 416
F.3d 338, 344 (4th Cir. 2005), cert. denied, 546 U.S. 1093
(2006). And any disclosure “chance[s] further disclosure—inadvertent, mistaken, or even intentional—that
would defeat the very purpose for which the privilege
exists.” Ibid. The court’s inquiry itself, including any
requests for additional information, could be revealing
of the nature of the information the government provided. Even if any such questioning or requests for additional materials were conducted in camera and ex
parte, the outcome of the proceedings—e.g., whether or

33
not relief is granted to any particular plaintiff and for
what reason—would tend to disclose some information
about the state secrets the government seeks to protect.
Cf. Clapper, 568 U.S. at 412 n.4 (noting that disposition
of matters in camera could reveal sensitive nationalsecurity information). Such disclosure of state secrets
and any concomitant damage to the national security
would be irreparable.
Moreover, even if the in camera review proceeds
without further disclosure, adjudication of the merits on
the basis of state secrets still presents serious potential
consequences for the government and the national security. In some cases, for example, proceeding on the
basis of state-secrets evidence would risk breaking the
federal government’s promises to foreign governments
that have shared information on the condition that it not
be used in any court proceeding. See Exec. Order No.
13,526, § 1.1(d), 3 C.F.R. 298 (2009 Comp.) (“The unauthorized disclosure of foreign government information
is presumed to cause damage to the national security.”);
id. § 6.1(s), 3 C.F.R. 323 (defining “[f ]oreign government information” to include information provided by a
foreign government “with the expectation that the information, the source of the information, or both, are to
be held in confidence”).
Particularly in light of “the importance of the issue
and the novel view” adopted by the Ninth Circuit, Clapper, 568 U.S. at 408, this Court’s review is warranted.

34
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
JONATHAN Y. ELLIS
Assistant to the Solicitor
General
SHARON SWINGLE
JOSEPH F. BUSA
Attorneys

DECEMBER 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 12-56867
D.C. No. 8:11-cv-00301-CJC-VBK
YASSIR FAZAGA; ALI UDDIN MALIK;
YASSER ABDELRAHIM, PLAINTIFFS-APPELLEES
v.
FEDERAL BUREAU OF INVESTIGATION; CHRISTOPHER
A. WRAY, DIRECTOR OF THE FEDERAL BUREAU OF
INVESTIGATION, IN HIS OFFICIAL CAPACITY; PAUL
DELACOURT, ASSISTANT DIRECTOR IN CHARGE,
FEDERAL BUREAU OF INVESTIGATION’S LOS ANGELES
DIVISION, IN HIS OFFICIAL CAPACITY; PAT ROSE;
KEVIN ARMSTRONG; PAUL ALLEN, DEFENDANTS
AND

BARBARA WALLS; J. STEPHEN TIDWELL,
DEFENDANTS-APPELLANTS
No. 12-56867
D.C. No. 8:11-cv-00301-CJC-VBK
YASSIR FAZAGA; ALI UDDIN MALIK;
YASSER ABDELRAHIM, PLAINTIFFS-APPELLEES
v.
FEDERAL BUREAU OF INVESTIGATION; CHRISTOPHER
A. WRAY, DIRECTOR OF THE FEDERAL BUREAU OF
INVESTIGATION, IN HIS OFFICIAL CAPACITY; PAUL
DELACOURT, ASSISTANT DIRECTOR IN CHARGE,
FEDERAL BUREAU OF INVESTIGATION’S LOS ANGELES
DIVISION, IN HIS OFFICIAL CAPACITY; J. STEPHEN
TIDWELL; BARBARA WALLS, DEFENDANTS
(1a)

2a
AND

PAT ROSE; KEVIN ARMSTRONG; PAUL ALLEN,
DEFENDANTS-APPELLANTS
No. 13-55017
D.C. No. 8:11-cv-00301-CJC-VBK
YASSIR FAZAGA; ALI UDDIN MALIK;
YASSER ABDELRAHIM, PLAINTIFFS-APPELANTS
v.
FEDERAL BUREAU OF INVESTIGATION; CHRISTOPHER
A. WRAY, DIRECTOR OF THE FEDERAL BUREAU OF
INVESTIGATION, IN HIS OFFICIAL CAPACITY; PAUL
DELACOURT, ASSISTANT DIRECTOR IN CHARGE,
FEDERAL BUREAU OF INVESTIGATION’S LOS ANGELES
DIVISION, IN HIS OFFICIAL CAPACITY; J. STEPHEN
TIDWELL; BARBARA WALLS; PAT ROSE; KEVIN
ARMSTRONG; PAUL ALLEN; UNITED STATES OF AMERICA,
DEFENDANTS-APPELLEES
Argued and Submitted: Dec. 7, 2015
Pasadena, California
Filed: Feb. 28, 2019
Amended: July 20, 2020
Appeal from the United States District Court
for the Central District of California
Cormac J. Carney, District Judge, Presiding
ORDER AND AMENDED OPINION

3a
Before: RONALD M. GOULD and MARSHA S. BERZON,
Circuit Judges and GEORGE CARAM STEEH III *, District
Judge.
ORDER

The opinion filed on February 28, 2019, reported at
916 F.3d 1202, is hereby amended. An amended opinion is filed concurrently with this order. With these
amendments, the panel has unanimously voted to deny
appellees’ petition for rehearing. Judges Berzon and
Gould have voted to deny the petition for rehearing en
banc and Judge Steeh so recommends.
The full court has been advised of the petition for rehearing en banc. A judge of the court requested a vote
on en banc rehearing. The matter failed to receive a
majority of votes of non-recused active judges in favor
of en banc consideration. Fed. R. App. P. 35.
The petition for rehearing and the petition for rehearing en banc are DENIED. No further petitions for
panel rehearing or rehearing en banc will be entertained. Judge Berzon’s concurrence with and Judge
Bumatay’s dissent from denial of en banc rehearing are
filed concurrently herewith.

*

The Honorable George Caram Steeh III, United States District
Judge for the Eastern District of Michigan, sitting by designation.

4a
OPINION
TABLE OF CONTENTS
INTRODUCTION ............................................................... 17
BACKGROUND .................................................................. 18
I.
Factual Background .......................................... 20
II. Procedural History ............................................ 25
DISCUSSION ...................................................................... 28
I.
The FISA Claim Against the Agent
Defendants ......................................................... 28
A. Recordings of Conversations to Which
Monteilh Was a Party................................. 35
B. Recordings of Conversations in the
Mosque Prayer Hall to Which
Monteilh Was Not a Party ......................... 37
C. Recordings Made by Planted Devices ....... 44
II. The State Secrets Privilege and FISA
Preemption ......................................................... 47
A. The State Secrets Privilege ....................... 50
B. The District Court’s Dismissal of the
Search Claims Based on the State
Secrets Privilege ........................................ 52
C. FISA Displacement of the State
Secrets Privilege ........................................ 56
D. Applicability of FISA’s § 1806(f )
Procedures to Affirmative Legal
Challenges to Electronic Surveillance ....... 66
E. Aggrieved Persons ..................................... 76
III. Search Claims .................................................... 77
A. Fourth Amendment Injunctive Relief
Claim Against the Official-Capacity
Defendants .................................................. 77
B. Fourth Amendment Bivens Claim
Against the Agent Defendants................... 81

5a
IV.

Religion Claims .................................................. 83
A. First Amendment and Fifth Amendment Injunctive Relief Claims Against
the Official-Capacity Defendants............... 83
B. First Amendment and Fifth Amendment Bivens Claims Against the
Agent Defendants ....................................... 84
C. 42 U.S.C. § 1985(3) Claims Against
the Agent Defendants ................................ 89
D. Religious Freedom Restoration Act
Claim Against the Agent Defendants
and Government Defendants ..................... 92
E. Privacy Act Claim Against the FBI........... 97
F. FTCA Claims .............................................. 99
1. FTCA Judgment Bar ........................ 100
2. FTCA Discretionary Function
Exception .......................................... 101
V. Procedures on Remand .................................... 102
CONCLUSION .................................................................. 107

BERZON, Circuit Judge:
INTRODUCTION

Three Muslim residents of Southern California allege
that, for more than a year, the Federal Bureau of Investigation (“FBI”) paid a confidential informant to conduct
a covert surveillance program that gathered information
about Muslims based solely on their religious identity.
The three plaintiffs filed a putative class action against
the United States, the FBI, and two FBI officers in their
official capacities (“Government” or “Government Defendants”), and against five FBI agents in their individual capacities (“Agent Defendants”). Alleging that the
investigation involved unlawful searches and anti-

6a
Muslim discrimination, they pleaded eleven constitutional and statutory causes of action. 1
The Attorney General of the United States asserted
the state secrets privilege with respect to three categories of evidence assertedly at issue in the case, and the
Government moved to dismiss the discrimination claims
pursuant to that privilege. The Government expressly
did not move to dismiss the Fourth Amendment and
Foreign Intelligence Surveillance Act (“FISA”) unlawful search claims based on the privilege. Both the Government and the Agent Defendants additionally moved
to dismiss Plaintiffs’ discrimination and unlawful search
claims based on arguments other than the privilege.
The district court dismissed all but one of Plaintiffs’
claims on the basis of the state secrets privilege—
including the Fourth Amendment claim, although the
Government Defendants had not sought its dismissal on
privilege grounds. The district court allowed only the
FISA claim against the Agent Defendants to proceed.
Plaintiffs appeal the dismissal of the majority of their
claims, and the Agent Defendants appeal the denial of
qualified immunity on the FISA claim.
We conclude that some of the claims dismissed on
state secrets grounds should not have been dismissed
outright. Instead, the district court should have re-

Specifically, the Plaintiffs alleged violations of the First Amendment’s Establishment Clause and Free Exercise Clauses; the Religious Freedom Restoration Act, 42 U.S.C. § 2000bb et seq.; the equal
protection component of the Fifth Amendment’s Due Process
Clause; the Privacy Act, 5 U.S.C. § 552a; the Fourth Amendment;
the Foreign Intelligence Surveillance Act, 50 U.S.C. § 1810; and the
Federal Tort Claims Act, 28 U.S.C. § 1346.
1

7a
viewed any state secrets evidence necessary for a determination of whether the alleged surveillance was unlawful following the secrecy-protective procedure set forth
in FISA. See 50 U.S.C. § 1806(f ). After addressing
Defendants’ other arguments for dismissing Plaintiffs’
claims, we conclude that some of Plaintiffs’ allegations
state a claim while others do not. Accordingly, we remand to the district court for further proceedings on the
substantively stated claims.
BACKGROUND

At this stage in the litigation, we “construe the complaint in the light most favorable to the plaintiff[s], taking all [their] allegations as true and drawing all reasonable inferences from the complaint in [their] favor.”
Doe v. United States, 419 F.3d 1058, 1062 (9th Cir. 2005).
“Conclusory allegations and unreasonable inferences,
however, are insufficient to defeat a motion to dismiss.”
Sanders v. Brown, 504 F.3d 903, 910 (9th Cir. 2007).
Plaintiffs are three Muslims who were residents of
Southern California: Sheikh Yassir Fazaga, Ali Uddin
Malik, and Yasser AbdelRahim. Fazaga was, at the
times relevant to this litigation, an imam at the Orange
County Islamic Foundation (“OCIF”), a mosque in Mission Viejo, California. Malik and AbdelRahim are practicing Muslims who regularly attended religious services at the Islamic Center of Irvine (“ICOI”).
The complaint sought relief against the United States,
the FBI, and two federal officials named in their official
capacities, as well as five individual Agent Defendants—
Kevin Armstrong, Paul Allen, J. Stephen Tidwell, Barbara Walls, and Pat Rose—named in their individual capacities.
Armstrong and Allen were FBI Special

8a
Agents assigned to the Orange County areas; Tidwell
was the Assistant Director in Charge of the FBI’s Los
Angeles Field Office from August 2005 to December
2007; Walls was the Special Agent in Charge of the
FBI’s Santa Ana branch office, a satellite office of the
FBI’s Los Angeles field office; and Rose was a Special
Agent assigned to the FBI’s Santa Ana branch office.
Because of the sensitivity of the issues in this case,
we particularly stress the usual admonition that accompanies judicial determination on motions to dismiss a
complaint: the facts recited below come primarily
from Plaintiffs’ allegations in their complaint. 2 The
substance of those allegations has not been directly addressed by the defendants. At this point in the litigation, the truth or falsity of the allegations therefore is
entirely unproven.
I.

Factual Background

For at least fourteen months in 2006 and 2007, the
FBI paid a confidential informant named Craig Monteilh to gather information as part of a counterterrorism
investigation known as Operation Flex. Plaintiffs allege that Operation Flex was a “dragnet surveillance”
program, the “central feature” of which was to “gather
information on Muslims.” 3

In addition to the facts alleged in the complaint, this opinion at
some points refers to facts contained in two public declarations submitted by the Government in support of its invocation of the state
secrets privilege.
3
In a public declaration, the FBI frames Operation Flex differently, contending that it “focused on fewer than 25 individuals and
was directed at detecting and preventing possible terrorist attacks.”
2

9a
At some point before July 2006, Stephen Tidwell,
then the Assistant Director in Charge of the FBI’s Los
Angeles Field Office, authorized first the search for an
informant and later the selection of Monteilh as that informant. Once selected, Monteilh was supervised by
two FBI handlers, Special Agents Kevin Armstrong and
Paul Allen.
In July 2006, Monteilh began attending ICOI. As
instructed by Allen and Armstrong, Monteilh requested
a meeting with ICOI’s imam, represented that he
wanted to convert to Islam, and later publicly declared
his embrace of Islam at a prayer service. Monteilh
subsequently adopted the name Farouk al-Aziz and began visiting ICOI daily, attending prayers, classes, and
special events. He also visited “with some regularity”
several other large mosques in Orange County.
Armstrong and Allen closely supervised Monteilh
during the course of Operation Flex, explaining to him
the parameters and goals of the investigation. Monteilh was “to gather information on Muslims in general,”
using information-gathering and surveillance tactics.
The agents provided him with the tools to do so, including audio and video recording devices. They also gave
Monteilh general goals, such as obtaining contact information from a certain number of Muslims per day, as
well as specific tasks, such as entering a certain house
or having lunch with a particular person. Sometimes,
Allen and Armstrong prepared photo arrays with hun-

The FBI maintains that the goal of Operation Flex “was to determine whether particular individuals were involved in the recruitment and training of individuals in the United States or overseas for
possible terrorist activity.”

10a
dreds of Muslim community members and asked Monteilh to arrange the photos from most to least dangerous.
Armstrong and Allen did not, however, limit Monteilh
to specific targets. Rather, “they repeatedly made clear
that they were interested simply in Muslims.” Allen
told Monteilh, “We want to get as many files on this community as possible.” To the extent Allen and Armstrong expressed an interest in certain targets, it was in
particularly religious Muslims and persons who might
influence young Muslims. When Monteilh’s surveillance activities generated information on non-Muslims,
the agents set that information aside.
In accordance with his broad directive, Monteilh engaged with a wide variety of individuals. As instructed
by his handlers, he attended classes at the mosque,
amassed information on Muslims’ charitable giving, attended Muslim fundraising events, collected information on community members’ travel plans, attended
lectures by Muslim scholars, went to daily prayers,
memorized certain verses from the Quran and recited
them to others, encouraged people to visit “jihadist”
websites, worked out with targeted people at a gym to
get close to them, and sought to obtain compromising
information that could be used to pressure others to become informants. He also collected the names of board
members, imams, teachers, and other leadership figures
at the mosques, as well as the license plate numbers of
cars in the mosque parking lots during certain events.
Virtually all of Monteilh’s interactions with Muslims
were recorded. Monteilh used audio and video recording devices provided to him by the agents, including a

11a
cellphone, two key fobs with audio recording capabilities, and a camera hidden in a button on his shirt. He
recorded, for example, his interactions with Muslims in
the mosques, which were transcribed and reviewed by
FBI officials. He also recorded meetings and conversations in the mosque prayer hall to which he was not a
party. He did so by leaving his possessions behind, including his recording key fob, as though he had forgotten them or was setting them down while doing other
things. Monteilh told Allen and Armstrong in written
reports that he was recording conversations in this manner. The agents never told him to stop this practice,
and they repeatedly discussed with Monteilh the contents of the recordings.
Armstrong and Allen occasionally instructed Monteilh to use his secret video camera for specific purposes,
such as capturing the internal layout of mosques and
homes. They also told Monteilh to obtain the contact
information of people he met, and monitored his email
and cellphone to obtain the email addresses and phone
numbers of the people with whom he interacted.
Although Monteilh spent the majority of his time at
ICOI, he conducted surveillance and made audio recordings in at least seven other mosques during the investigation. During Monteilh’s fourteen months as an informant for Operation Flex, the FBI obtained from him
hundreds of phone numbers; thousands of email addresses; background information on hundreds of individuals; hundreds of hours of video recordings of the interiors of mosques, homes, businesses, and associations;
and thousands of hours of audio recordings of conversations, public discussion groups, classes, and lectures.

12a
In addition to the surveillance undertaken directly by
Monteilh, Allen and Armstrong told Monteilh that electronic surveillance equipment had been installed in at
least eight mosques in the area, including ICOI. The
electronic surveillance equipment installed at the Mission Viejo mosque was used to monitor Plaintiff Yassir
Fazaga’s conversations, including conversations held in
his office and other parts of the mosque not open to the
public.
At the instruction of Allen and Armstrong, Monteilh
took extensive handwritten notes each day about his activities and the surveillance he was undertaking. Allen
and Armstrong met with Monteilh roughly twice each
week to discuss his assignments, give him instructions,
receive his daily notes, upload his recordings, and give
him fresh devices. Monteilh was also required to call
either Allen or Armstrong each day to apprise them of
his activities. They told Monteilh that his daily notes
were read by their supervisors.
The operation began to unravel when, in early 2007,
Allen and Armstrong instructed Monteilh to begin more
pointedly asking questions about jihad and armed conflict and to indicate his willingness to engage in violence.
Implementing those instructions, Monteilh told several
people that he believed it was his duty as a Muslim to
take violent action and that he had access to weapons.
Several ICOI members reported Monteilh to community leaders. One of the community leaders then called
the FBI to report what Monteilh was saying, and instructed concerned ICOI members to call the Irvine Police Department, which they did. ICOI sought a restraining order against Monteilh, which was granted in
June 2007.

13a
Around the same time, Allen and Armstrong told
Monteilh that Barbara Walls, then Assistant Special
Agent in Charge of the FBI’s Santa Ana office, no longer
trusted him and wanted him to stop working for the
FBI. In October 2007, Monteilh was told that his role
in Operation Flex was over. At one of the final meetings between Monteilh and Agents Allen and Armstrong, Walls was present. She warned Monteilh not
to tell anyone about the operation.
Monteilh’s identity as an informant was revealed in
February 2009 in connection with a criminal prosecution
for naturalization fraud of Ahmadullah (or Ahmed) Niazi, one of the ICOI members who had reported Monteilh’s statements to the Irvine Police Department.
FBI Special Agent Thomas Ropel testified at a bail
hearing in Niazi’s case that he had heard several recordings between Niazi and a confidential informant, and
that the informant was the same person Niazi had reported to the police. Ropel’s statements thus indicated
that Monteilh was a confidential informant and that he
had recorded numerous conversations for the FBI.
Several sources subsequently confirmed that Monteilh worked for the FBI, including the FBI and Monteilh himself. Although the FBI has disclosed some information about Monteilh’s actions as an informant, including that he created audio and video recordings and
provided handwritten notes to the FBI, the FBI maintains that “certain specific information” concerning Operation Flex and Monteilh’s activities must be protected
in the interest of national security.

14a
II.

Procedural History

Plaintiffs filed the operative complaint in September
2011, asserting eleven causes of action, which fall into
two categories: claims alleging unconstitutional searches
(“search claims”) and claims alleging unlawful discrimination on the basis of, or burdens on, or abridgement of
the rights to, religion (“religion claims”). The religion
claims allege violations of the First Amendment Religion Clauses, the equal protection guarantee of the Due
Process Clause of the Fifth Amendment, 4 the Privacy
Act, the Religious Freedom Restoration Act (“RFRA”),
the Foreign Intelligence Surveillance Act (“FISA”), and
the Federal Tort Claims Act (“FTCA”).
Plaintiffs filed the complaint as a putative class action, with the class defined as “[a]ll individuals targeted
by Defendants for surveillance or information-gathering
through Monteilh and Operation Flex, on account of
their religion, and about whom the FBI thereby gathered personally identifiable information.” The complaint sought injunctive relief for the individual Plaintiffs and the class, and damages for themselves as individuals. 5 The Agent Defendants moved to dismiss the

4
“The liberty protected by the Fifth Amendment’s Due Process
Clause contains within it the prohibition against denying to any person the equal protection of the laws.” United States v. Windsor,
570 U.S. 744, 774 (2013) (citing Bolling v. Sharpe, 347 U.S. 497, 499500 (1954)).
5
The proposed class has not been certified. In addition to its relevance to the merits of Plaintiffs’ claims, the information over which
the Government asserted the state secrets privilege may also be relevant to the decision whether to certify the class. In addition, the
scope of privileged evidence needed to litigate the case likely will
differ should class certification be granted.

15a
claims against them on various grounds, including qualified immunity. The Government moved to dismiss the
amended complaint and for summary judgment, arguing
that Plaintiffs’ statutory and constitutional claims fail on
various grounds unrelated to the state secrets privilege.
The Government also asserted that the religion
claims, but not the search claims, should be dismissed
under the Reynolds state secrets privilege, see United
States v. Reynolds, 345 U.S. 1 (1953), on the ground that
litigation of the religion claims could not proceed without risking the disclosure of certain evidence protected
by the privilege. The assertion of the state secrets privilege was supported with a previously filed public declaration from then-U.S. Attorney General Eric Holder; a
public declaration from Mark Giuliano, then Assistant
Director of the FBI’s Counterterrorism Division; and
two classified declarations and a classified supplemental
memorandum from Giuliano. The Attorney General
asserted the state secrets privilege over three categories of evidence: (1) “[i]nformation that could tend to
confirm or deny whether a particular individual was or
was not the subject of an FBI counterterrorism investigation”; (2) “[i]nformation that could tend to reveal the
initial reasons (i.e., predicate) for an FBI counterterrorism investigation of a particular person (including in Operation Flex), any information obtained during the
course of such an investigation, and the status and results of the investigation”; and (3) “[i]nformation that
could tend to reveal whether particular sources and
methods were used in a counterterrorism investigation.”
In one order, the district court dismissed the FISA
claim against the Government, brought under 50 U.S.C.

16a
§ 1810, concluding that Congress did not waive sovereign immunity for damages actions under that statute.
See Al-Haramain Islamic Found., Inc. v. Obama (AlHaramain II), 705 F.3d 845, 850-55 (9th Cir. 2012).
Plaintiffs do not challenge this dismissal. In the same
order, the district court permitted Plaintiffs’ FISA
claim against the Agent Defendants to proceed, rejecting the argument that the Agent Defendants were entitled to qualified immunity.
In a second order, the district court dismissed all the
other claims in the case on the basis of the Reynolds
state secrets privilege—including the Fourth Amendment claim, for which the Government Defendants expressly did not seek dismissal on that ground. Relying
“heavily” on the classified declarations and supplemental
memorandum, the district court concluded “that the
subject matter of this action, Operation Flex, involves
intelligence that, if disclosed, would significantly compromise national security.” It held that the Government Defendants would need to rely on the privileged
material to defend against Plaintiffs’ claims, and that
the privileged evidence was so inextricably tied up with
nonprivileged material that “the risk of disclosure that
further litigation would engender [could not] be averted
through protective orders or restrictions on testimony.”
The district court declined to use, as a substitute for dismissal, the in camera, ex parte procedures set out in
§ 1806(f ) of FISA, on the ground that FISA’s procedures do not apply to non-FISA claims.
The Agent Defendants timely filed notices of appeal
from the denial of qualified immunity on Plaintiffs’
FISA claim. The district court then approved the parties’ stipulation to stay all further proceedings related

17a
to the remaining FISA claim pending resolution of the
Agent Defendants’ appeal and, at Plaintiffs’ request, entered partial final judgment under Federal Rule of Civil
Procedure 54(b), allowing immediate appeal of the majority of Plaintiffs’ claims. The Plaintiffs’ appeal and
the Agent Defendants’ appeal from the denial of qualified immunity on the FISA claim were consolidated and
are both addressed in this opinion.
DISCUSSION

We begin with the only claim to survive Defendants’
motions to dismiss in the district court: the FISA claim
against the Agent Defendants. After addressing the
FISA claim, we turn to Plaintiffs’ argument that in cases
concerning the lawfulness of electronic surveillance, the
ex parte and in camera procedures set out in § 1806(f )
of FISA supplant the dismissal remedy otherwise mandated by the state secrets evidentiary privilege. See
infra Part II. We then proceed to evaluate Defendants’ other arguments for dismissal of the search and religion claims. See infra Parts III-IV. Finally, we explain the procedures to be followed on remand. See infra Part V.
I.

The FISA Claim Against the Agent Defendants

Section 110 of FISA, codified at 50 U.S.C. § 1810, creates a private right of action for an individual subjected
to electronic surveillance in violation of FISA’s procedures. It provides, in pertinent part:
An aggrieved person . . . who has been subjected
to an electronic surveillance or about whom information obtained by electronic surveillance of such person has been disclosed or used in violation of section

18a
1809 of this title shall have a cause of action against
any person who committed such violation. . . .
50 U.S.C. § 1810.
This statutory text refers to another section, § 1809.
That section, in turn, proscribes as criminal offenses two
types of conduct: (1) “intentionally . . . engag[ing]
in electronic surveillance under color of law except as
authorized by [FISA, the Wiretap Act, the Stored Communications Act, or the pen register statute,] or any express statutory authorization,” and (2) “intentionally
. . . disclos[ing] or us[ing] information obtained under
color of law by electronic surveillance, knowing or having reason to know that the information was obtained
through electronic surveillance” without authorization.
50 U.S.C. § 1809(a).
To determine whether Plaintiffs plausibly allege a
cause of action under § 1810, we must decide (1) whether
Plaintiffs are “aggrieved persons” within the meaning of
the statute, (2) whether the surveillance to which they
were subjected qualifies as “electronic surveillance,”
and (3) whether the complaint plausibly alleges a violation of 50 U.S.C. § 1809.
An “aggrieved person” is defined as “a person who is
the target of an electronic surveillance or any other person whose communications or activities were subject to
electronic surveillance.” 50 U.S.C. § 1801(k). 6 Plaintiffs allege in extensive detail in the complaint that they
were subjected to many and varied instances of audio
and video surveillance. The complaint’s allegations are
“ ‘Person’ means any individual, including any officer or employee of the Federal Government, or any group, entity, association,
corporation, or foreign power.” 50 U.S.C. § 1801(m).
6

19a
sufficient if proven to establish that Plaintiffs are “aggrieved persons.”
The complaint also adequately alleges that much of
the surveillance as described constitutes “electronic surveillance” as defined by FISA. FISA offers four definitions of electronic surveillance. 50 U.S.C. § 1801(f ).
Only the fourth is potentially at stake in this case:
the installation or use of an electronic, mechanical, or
other surveillance device in the United States for
monitoring to acquire information, other than from a
wire or radio communication, under circumstances in
which a person has a reasonable expectation of privacy and a warrant would be required for law enforcement purposes.
Id. § 1801(f )(4) (emphases added). The key question as
to the presence of “electronic surveillance” under this
definition is whether the surveillance detailed in the
complaint was undertaken in circumstances in which (1)
Plaintiffs had a reasonable expectation of privacy and
(2) a warrant would be required for law enforcement
purposes. If, as the complaint alleges, no warrant was
in fact obtained, such electronic surveillance would constitute a violation of § 1809. Id. § 1809(a).
The parties, citing ACLU v. NSA, 493 F.3d 644, 657
n.16, 683 (6th Cir. 2007), agree that these legal standards from FISA—reasonable expectation of privacy and
the warrant requirement—are evaluated just as they
would be under a Fourth Amendment analysis. The
Agent Defendants argue, however, that they are entitled to qualified immunity on Plaintiffs’ FISA claim.

20a
Plaintiffs accept that qualified immunity can apply under FISA but maintain that the Agent Defendants are
not entitled to immunity. 7
The Agent Defendants are entitled to qualified immunity from damages unless Plaintiffs “plead[] facts
showing (1) that the official[s] violated a statutory or
constitutional right, and (2) that the right was ‘clearly
established’ at the time of the challenged conduct.”
Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011) (quoting
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). We
are permitted to “exercise [our] sound discretion in deciding which of the two prongs of the qualified immunity
analysis should be addressed first in light of the circumstances in the particular case at hand.” Pearson v. Callahan, 555 U.S. 223, 236 (2009). Because, as we conclude in infra Part II.E, the applicability of FISA’s alternative procedures for reviewing state secrets evidence turns on whether the surveillance at issue constitutes “electronic surveillance” within the meaning of
FISA, 8 we will begin with the first prong, even though

We have found only one decision, unpublished, addressing whether qualified immunity is an available defense to a FISA claim. See
Elnashar v. U.S. Dep’t of Justice, No. CIV.03-5110(JNE/JSM), 2004
WL 2237059, at *5 (D. Minn. Sept. 30, 2004) (dismissing a FISA
claim on grounds of qualified immunity because there was no evidence the defendant “would have known that the search of [plaintiff ’s] apartment would have required a warrant”), aff ’d on other
grounds, 446 F.3d 792 (8th Cir. 2006). As the issue is not contested,
we do not decide it.
8
Again, as we noted above, “electronic surveillance” as defined by
FISA must fall under one of four types of government action. 50
U.S.C. § 1801(f ). The relevant one for our purposes involves “the
installation or use of an electronic, mechanical, or other surveillance
7

21a
we conclude that the Agent Defendants are ultimately
entitled to qualified immunity on the second prong.
For purposes of qualified immunity, a right is clearly
established if, “at the time of the challenged conduct,
‘[t]he contours of [a] right [are] sufficiently clear’ that
every ‘reasonable official would have understood that
what he is doing violates that right.’ ” al-Kidd, 563
U.S. at 741 (alterations in original) (quoting Anderson v.
Creighton, 483 U.S. 635, 640 (1987)). “This inquiry . . .
must be undertaken in light of the specific context of the
case, not as a broad general proposition.” Saucier v.
Katz, 533 U.S. 194, 201 (2001). “We do not require a
case directly on point, but existing precedent must have
placed the statutory or constitutional question beyond
debate.” al-Kidd, 563 U.S. at 741.
“The operation of [the qualified immunity] standard,
however, depends substantially upon the level of generality at which the relevant ‘legal rule’ is to be identified.”
Anderson, 483 U.S. at 639. Often, whether a right is
“clearly established” for purposes of qualified immunity
will turn on the legal test for determining whether that
right has been violated. For claims of excessive force,
for example, “[i]t is sometimes difficult for an officer to
determine how the relevant legal doctrine . . . will
apply to the factual situation the officer confronts.”
Saucier, 533 U.S. at 205. “The calculus of reasonableness must embody allowance for the fact that police officers are often forced to make split-second judgments
—in circumstances that are tense, uncertain, and rap-

device . . . under circumstances in which a person has a reasonable expectation of privacy and a warrant would be required for law
enforcement purposes.” Id. § 1801(f )(4).

22a
idly evolving—about the amount of force that is necessary in a particular situation.” Graham v. Connor, 490
U.S. 386, 396-97 (1989). By contrast, “[w]ith few exceptions, the question whether a warrantless search of a
home is reasonable and hence constitutional must be answered no,” Kyllo v. United States, 533 U.S. 27, 31
(2001), as “the Fourth Amendment has drawn a firm line
at the entrance to the house,” Payton v. New York, 445
U.S. 573, 590 (1980). Thus, where the test for determining whether the right in question has been violated is
framed as a standard, rather than a rule, officials are
given more breathing room to make “reasonable mistakes.” Saucier, 533 U.S. at 205. In those instances,
we require a higher degree of factual specificity before
concluding that the right is “clearly established.” But
where the right at issue is clear and specific, officials
may not claim qualified immunity based on slight changes
in the surrounding circumstances. 9
To properly approach this inquiry, we consider separately three categories of audio and video surveillance
alleged in the complaint: (1) recordings made by Monteilh of conversations to which he was a party; (2) recordings made by Monteilh of conversations to which he
was not a party (i.e., the recordings of conversations in

The Supreme Court made a similar observation in an analogous
context—determining whether a state court has unreasonably applied clearly established federal law for purposes of habeas review
under the Antiterrorism and Effective Death Penalty Act: “[T]he
range of reasonable judgment can depend in part on the nature of
the relevant rule. If a legal rule is specific, the range may be narrow. . . . Other rules are more general, and their meaning must
emerge in application over the course of time.” Yarborough v. Alvarado, 541 U.S. 652, 664 (2004).
9

23a
the mosque prayer hall); and (3) recordings made by devices planted by FBI agents in Fazaga’s office and AbdelRahim’s house, car, and phone. 10
We conclude that the Agent Defendants are entitled
to dismissal on qualified immunity grounds of Plaintiffs’
§ 1810 claim as to the first two categories of surveillance.
As to the third category of surveillance, conducted via
devices planted in AbdelRahim’s house and Fazaga’s office, Allen and Armstrong are not entitled to qualified
immunity. But Tidwell, Walls, and Rose are entitled to
dismissal as to this category, because Plaintiffs do not
plausibly allege their involvement in this category of
surveillance, and so have not “pleaded facts showing
. . . that [those] officials violated a statutory or constitutional right.” al-Kidd, 563 U.S. at 735.

10
We note that, in their “Claims for Relief,” under the FISA cause
of action, Plaintiffs recite that “Defendants, under color of law, acting through Monteilh” violated FISA (emphasis added). But the
complaint specifically recites facts relating to devices allegedly
planted directly by the Agent Defendants. Under the Federal
Rules of Civil Procedure, it is the facts alleged that circumscribe the
reach of the complaint for purposes of a motion to dismiss. See
Skinner v. Switzer, 562 U.S. 521, 530 (2011).
We also note that there may be a fourth category of surveillance
here at issue: video recordings of the interiors of individuals’ homes.
These recordings are not given meaningful attention in the parties’
briefs, and we cannot determine from the complaint if Plaintiffs
mean to allege that Monteilh video recorded the layouts of houses
into which he was invited, or that he entered the houses without permission. Although at this stage we do not construe the complaint
as asserting claims based on this fourth category of surveillance, our
opinion does not foreclose Plaintiffs from clarifying these and other
allegations on remand.

24a
A.

Recordings of Conversations to Which Monteilh
Was a Party

A reasonable expectation of privacy exists where “a
person ha[s] exhibited an actual (subjective) expectation
of privacy,” and “the expectation [is] one that society is
prepared to recognize as ‘reasonable.’ ” Katz v. United
States, 389 U.S. 347, 361 (1967) (Harlan, J., concurring);
see, e.g., California v. Ciraolo, 476 U.S. 207, 211) (1986)
(describing Justice Harlan’s test as the “touchstone of
Fourth Amendment analysis”). Generally, an individual “has no privacy interest in that which he voluntarily
reveals to a government agent,” a principle known as the
invited informer doctrine. United States v. Wahchumwah, 710 F.3d 862, 867 (9th Cir. 2013) (citing Hoffa v.
United States, 385 U.S. 293, 300-02 (1966)); see also
United States v. Aguilar, 883 F.2d 662, 697-98 (9th Cir.
1989), superseded on other grounds by statute, Immigration Reform and Control Act of 1986, Pub. L. No.
99-603, 100 Stat. 3359, as recognized in United States v.
Gonzalez-Torres, 309 F.3d 594 (9th Cir. 2002). Plaintiffs contend, however, that the invited informer doctrine does not apply to the recordings made by Monteilh
of conversations to which he was a party because the
surveillance was conducted with discriminatory purpose
and therefore in bad faith.
Bad faith of this sort does not, however, implicate the
reasonable privacy expectation protected by the Fourth
Amendment or violate the Fourth Amendment’s warrant requirement. There is, to be sure, an important
“limitation[] on the government’s use of undercover informers to infiltrate an organization engaging in protected first amendment activities”: the government’s
investigation must not be conducted “for the purpose of

25a
abridging first amendment freedoms.” Aguilar, 883
F.2d at 705. But that limitation on voluntary conversations with undercover informants—sometimes referred
to as a “good faith” requirement, 11 e.g., United States v.
Mayer, 503 F.3d 740, 751 (9th Cir. 2007); Aguilar, 883
F.2d at 705—is imposed by the First Amendment, not
the Fourth Amendment. As that constitutional limitation is not grounded in privacy expectations, it does not
affect the warrant requirement under the Fourth
Amendment.
Under the appropriate Fourth Amendment precepts,
“[u]ndercover operations, in which the agent is a socalled ‘invited informer,’ are not ‘searches’ under the
Fourth Amendment.” Mayer, 503 F.3d at 750 (emphasis added) (quoting Aguilar, 883 F.2d at 701). “[A] defendant generally has no privacy interest”—not merely
an unreasonable privacy interest—“in that which he voluntarily reveals to a government agent.” Wahchumwah, 710 F.3d at 867 (emphasis added). In other
words, use of a government informant under the invited
informer doctrine—even if not in good faith in the First
Amendment sense—does not implicate the privacy interests protected by the Fourth Amendment. Because
our inquiry under FISA is confined to whether a reasonable expectation of privacy was violated and whether a
warrant was therefore required, see ACLU, 493 F.3d at
657 n.16, 683, the First Amendment-grounded goodfaith limitation does not apply to our current inquiry.
Under the invited informer doctrine, Plaintiffs lacked
a reasonable expectation of privacy in the conversations
We use this term in the remainder of this discussion to refer to
the constitutional limitation on the use of informants discussed in the
text.
11

26a
recorded by Monteilh to which he was a party. The
Agent Defendants are therefore not liable under FISA
for this category of surveillance.
B.

Recordings of Conversations in the Mosque
Prayer Hall to Which Monteilh Was Not a Party

Plaintiffs did have a privacy-grounded reasonable expectation that their conversations in the mosque prayer
hall would not be covertly recorded by an individual who
was not present where Plaintiffs were physically located
and was not known to be listening in. 12 The Agent Defendants are, however, entitled to qualified immunity
with respect to this category of surveillance under the
second prong of the qualified immunity standard—
whether “the right was ‘clearly established’ at the time
of the challenged conduct.” al-Kidd, 563 U.S. at 735
(quoting Harlow, 457 U.S. at 818).
Again, the relevant questions here on the merits of
the FISA and Fourth Amendment issues are whether “a
person ha[s] exhibited an actual (subjective) expectation
of privacy,” and whether “the expectation [is] one that
society is prepared to recognize as ‘reasonable.’ ” Katz,
389 U.S. at 361 (Harlan, J., concurring). To first determine whether an individual has “exhibited an actual expectation of privacy,” we assess whether “he [sought] to
preserve [something] as private.” Bond v. United
States, 529 U.S. 334, 338 (2000) (alterations in original)
(quoting Smith v. Maryland, 442 U.S. 735, 740 (1979)).
Based on the rules and customs of the mosque, and the
We are not suggesting that the recording would have been impermissible under FISA and the Fourth Amendment if the Agent
Defendants had obtained a warrant based on probable cause. Here,
however, no warrant was obtained.
12

27a
allegations in the complaint, we have no trouble determining that Plaintiffs manifested an actual, subjective
expectation of privacy in their conversations there.
The mosque prayer hall is not an ordinary public
place. It is a site of religious worship, a place for Muslims to come together for prayer, learning, and fellowship. Plaintiffs allege that the prayer hall “is [a] sacred
space where particular rules and expectations apply.
Shoes are prohibited, one must be in a state of ablution,
discussing worldly matters is discouraged, and the
moral standards and codes of conduct are at their strongest.” Notably, “[g]ossiping, eavesdropping, or talebearing (namima—revealing anything where disclosure is
resented) is forbidden.” And ICOI, which Malik and
AbdelRahim attended, specifically prohibited audio and
video recording in the mosque without permission.
When, on a rare occasion, an outside entity did record
an event or a speaker, ICOI put up signs to notify congregants. Furthermore, Plaintiffs explain in their complaint that halaqas, which are small group meetings during which participants “discuss theology or matters related to the practice of Islam,” are understood by mosque
attendees to be environments that “ensure some measure of confidentiality among participants.” 13
These privacy-oriented rules and customs confirm
for us that Plaintiffs held a subjective expectation of privacy in their conversations among themselves while in
the prayer hall.

We understand that description to imply that Monteilh recorded
conversations that occurred during halaqas in the mosque prayer
hall.
13

28a
That Plaintiffs were not alone in the mosque prayer
hall does not defeat their claim that they manifested an
expectation of privacy. 14 “Privacy does not require solitude.” United States v. Taketa, 923 F.2d 665, 673 (9th
Cir. 1991). For example, “a person can have a subjective expectation that his or her home will not be
searched by the authorities, even if he or she has invited
friends into his or her home.” Trujillo v. City of Ontario, 428 F. Supp. 2d 1094, 1102 (C.D. Cal. 2006), aff ’d
sub nom. Bernhard v. City of Ontario, 270 F. App’x 518
(9th Cir. 2008). The same principle applies to certain
other enclosed locations in which individuals have particular reason to expect confidentiality and repose. 15
The Agent Defendants cite Smith v. Maryland, 442 U.S. at 74041, to support the proposition that the unattended recordings in the
mosque prayer hall did not invade Plaintiffs’ reasonable expectation
of privacy. Smith and its progeny do not apply here. Smith concerned a pen register installed and used by a telephone company,
and held that an individual enjoys no Fourth Amendment protection
“in information he voluntary turns over to third parties.” Id. at
743-44. But, as the Fourth Circuit has stressed, Smith and the
cases relying on it are concerned with “whether the government invades an individual’s reasonable expectation of privacy when it obtains, from a third party, the third party’s records.” United States
v. Graham, 824 F.3d 421, 426 (4th Cir. 2016) (en banc) (emphasis
added), abrogated on other grounds by Carpenter v. United States,
138 S. Ct. 2206 (2018). Cases “involv[ing] direct government surveillance activity,” including surreptitiously viewing, listening to, or
recording individuals—like the one before us—present a wholly separate question. Id.
15
Taketa, for example, held that a state employee could hold an
expectation of privacy in his office even though the office was shared
with two others. 923 F.2d at 673. “[E]ven ‘private’ business offices are often subject to the legitimate visits of coworkers, supervisors, and the public, without defeating the expectation of privacy unless the office is ‘so open to fellow employees or the public that no
14

29a
Finally, the case law distinguishes between an expectation of privacy in a place and an expectation of privacy
as to whether an individual’s conversations or actions in
that place would be covertly recorded by persons not
themselves present in that place. 16 The Supreme Court
has recently emphasized the significant difference between obtaining information in person and recording information electronically. See Carpenter, 138 S. Ct. at
2219 (“Unlike the nosy neighbor who keeps an eye on
comings and goings, they are ever alert, and their
memory is nearly infallible.”). Here, given the intimate and religious nature of the space and the express
prohibition on recording, Plaintiffs have adequately alleged that they subjectively believed their conversations
would not be covertly recorded by someone not present
in the prayer hall for transmission to people not present
in the prayer hall. 17

expectation of privacy is reasonable.’ ” Id. (quoting O’Connor v.
Ortega, 480 U.S. 709, 717-18 (1987)).
16
See also Taketa, 923 F.2d at 676 (“Taketa has no general privacy
interest in [his co-worker’s] office, but he may have an expectation
of privacy against being videotaped in it.”); Trujillo, 428 F. Supp. 2d
at 1102 (considering the secret installation and use of a video camera
in a police department’s men’s locker room, and explaining that it
was “immaterial” that the plaintiffs changed their clothes in the
presence of others, because “[a] person can have a subjective expectation of privacy that he or she will not be covertly recorded, even
though he or she knows there are other people in the locker room”
(emphasis added)).
17
The complaint alleges that Plaintiffs lost “confidence in the
mosque as a sanctuary” after learning of Monteilh’s surveillance.
This feeling of the loss of privacy reinforces the conclusion that
Plaintiffs exhibited an actual expectation of privacy in their conversations in the mosque before the alleged surveillance took place.

30a
Having concluded that Plaintiffs exhibited a subjective expectation of privacy, we now consider whether it
was “one that society is prepared to recognize as ‘reasonable.’ ” Katz, 389 U.S. at 361 (Harlan, J., concurring). In assessing whether an individual’s expectation
of privacy is reasonable, context is key. See O’Connor,
480 U.S. at 715. “Although no single rubric definitively
resolves which expectations of privacy are entitled to
protection, the analysis is informed by historical understandings ‘of what was deemed an unreasonable search
and seizure when [the Fourth Amendment] was adopted.’ ”
Carpenter, 138 S. Ct. at 2213-14 (alteration in original)
(footnote omitted) (quoting Carroll v. United States, 267
U.S. 132, 149 (1925)). Relevant here is the principle
that “the extent to which the Fourth Amendment protects people may depend upon where those people are.”
Minnesota v. Carter, 525 U.S. 83, 88 (1998) (emphasis
added). We thus “assess the nature of the location
where [the] conversations were seized”—here, the
mosque prayer hall. United States v. Gonzalez, Inc.,
412 F.3d 1102, 1116-17 (9th Cir. 2005), amended on denial of reh’g, 437 F.3d 854 (9th Cir. 2006).
The sacred and private nature of the houses of worship Plaintiffs attended distinguishes them from the
types of commercial and public spaces in which courts
have held that individuals lack a reasonable expectation
of privacy. 18 United States v. Gonzalez, 328 F.3d 543
(9th Cir. 2003), for example, held that the defendant had
See, e.g., In re John Doe Trader No. One, 894 F.2d 240, 243-44
(7th Cir. 1990) (holding that a rule prohibiting tape recorders on the
trading floor “aimed at various forms of distracting behavior” and
explicitly “designed to protect ‘propriety and decorum’ not privacy”
did not support a reasonable expectation of privacy).
18

31a
no reasonable expectation of privacy in “a large, quasipublic mailroom at a public hospital during ordinary
business hours.” Id. at 547. The mailroom had open
doors, was visible to the outside via large windows, and
received heavy foot traffic. Id. In addition to focusing on the physical specifics of the mailroom, Gonzalez
emphasized that public hospitals, “by their nature . . .
create a diminished expectation of privacy. The use of
surveillance cameras in hospitals for patient protection,
for documentation of medical procedures and to prevent
theft of prescription drugs is not uncommon.” Id.
The mosque prayer halls in this case, by contrast, have
no characteristics similarly evidencing diminished expectations of privacy or rendering such expectations unreasonable. 19 There are no urgent health or safety

Again, the fact that many people worshipped at the mosque does
not render the Plaintiffs’ expectations of privacy in their conversations (or at the very least from, their expectations that their conversations would not be covertly recorded) unreasonable. In Gonzalez, Inc., for example, we held that individuals who owned and managed a small, family-run business with up to 25 employees had “a
reasonable expectation of privacy over the on-site business conversations between their agents.” 412 F.3d at 1116-17. The Gonzalez
family, whose phone calls were intercepted, were not alone in their
place of business, and their calls could have been overheard by others who were present. But we concluded that they nonetheless had
a reasonable expectation of privacy over their conversations because
they owned the office, had full access to the building, and exercised
managerial control over the office’s day-to-day operations. Id.
Similarly, United States v. McIntyre, 582 F.2d 1221 (9th Cir. 1978),
rejected the argument that a police officer lacked a reasonable expectation of privacy over conversations had in his office because his
office door was open and a records clerk worked nearby in an adjacent room. Id. at 1224. “A business office need not be sealed to
offer its occupant a reasonable degree of privacy,” we reasoned. Id.
19

32a
needs justifying surveillance. And the use of surveillance equipment at ICOI is not only uncommon, but expressly forbidden.
Our constitutional protection of religious observance
supports finding a reasonable expectation of privacy in
such a sacred space, where privacy concerns are
acknowledged and protected, especially during worship
and other religious observance. Cf. Mockaitis v. Harcleroad, 104 F.3d 1522, 1533 (9th Cir. 1997) (holding
that, based in part on “the nation’s history of respect for
religion in general,” a priest had a reasonable expectation of privacy in his conversation with an individual
during confession), overruled on other grounds by City
of Boerne v. Flores, 521 U.S. 507 (1997). Thus, Plaintiffs’ expectation that their conversations in the mosque
prayer hall would be confidential among participants
(unless shared by one of them with others), and so would
not be intercepted by recording devices planted by absent government agents was objectively reasonable.
Finally, “[w]here the materials sought to be seized
may be protected by the First Amendment, the requirements of the Fourth Amendment must be applied with
‘scrupulous exactitude.’ ” Zurcher v. Stanford Daily,
436 U.S. 547, 564 (1978) (quoting Stanford v. Texas, 379
U.S. 476, 485 (1965)). “National security cases,” like
the one here, “often reflect a convergence of First and
Fourth Amendment values not present in cases of ‘ordinary’ crime.” United States v. U.S. District Court
(Keith), 407 U.S. 297, 313 (1972). “Fourth Amendment
protections become the more necessary when the targets of official surveillance may be those suspected of
unorthodoxy. . . . ” Id. at 314.

33a
Accordingly, we hold that Plaintiffs had a reasonable
expectation of privacy that their conversations in the
mosque prayer hall would not be covertly recorded by a
government agent not party to the conversations.
As of 2006 and 2007, however, no federal or state
court decision had held that individuals generally have a
reasonable expectation of privacy from surveillance in
places of worship. Our court had declined to read Katz
as established authority “for the proposition that a reasonable expectation of privacy attaches to church worship services open to the public.” The Presbyterian
Church (U.S.A.) v. United States, 870 F.2d 518, 527 (9th
Cir. 1989). Noting that there was a lack of clearly established law so concluding, Presbyterian Church held
that Immigration and Naturalization Service (“INS”)
officials were entitled to qualified immunity from a
Fourth Amendment challenge to undercover electronic
surveillance of church services conducted without a warrant and without probable cause. Id. No case decided between Presbyterian Church and the incidents
giving rise to this case decided otherwise. And no case
decided during that period addressed circumstances
more like those here, in which there are some specific
manifestations of an expectation of privacy in the particular place of worship. Arguably pertinent was Mockaitis, but that case concerned the confession booth, not the
church premises generally. 104 F.3d at 1533. The circumstances here fall between Presbyterian Church and
Mockaitis, so there was no clearly established law here
applicable. The Agent Defendants are thus entitled to
qualified immunity as to this category of surveillance.

34a
C.

Recordings Made by Planted Devices

It was, of course, clearly established in 2006 and 2007
that individuals have a reasonable expectation of privacy
from covert recording of conversations in their homes,
cars, and offices, and on their phones. See, e.g., Kyllo,
533 U.S. at 31 (home); New York v. Class, 475 U.S. 106,
115 (1986) (cars); Katz, 389 U.S. at 360-61 (Harlan, J.,
concurring) (enclosed telephone booths); Taketa, 923
F.2d at 673 (office); McIntyre, 582 F.2d at 1223-24
(office). The Agent Defendants accept these wellestablished legal propositions. But they maintain that
the complaint’s allegations that the FBI planted electronic surveillance equipment in Fazaga’s office and AbdelRahim’s house, car, and phone are too conclusory to
satisfy Iqbal’s plausibility standard, and so do not adequately allege on the merits a violation of Plaintiffs’
rights under FISA. See al-Kidd, 563 U.S. at 735; Ashcroft v. Iqbal, 556 U.S. 662, 678-79 (2009). We cannot
agree.
Plaintiffs offer sufficient well-pleaded facts to substantiate their allegation that some of the Agent
Defendants—Allen and Armstrong—were responsible
for planting devices in AbdelRahim’s house. Specifically, the complaint details one occasion on which Allen
and Armstrong asked Monteilh about something that
had happened in AbdelRahim’s house that Monteilh had
not yet communicated to them, and explained that they
knew about it because they had audio surveillance in the
house.
Plaintiffs also allege sufficient facts with regard to
those two Agent Defendants in support of their allegation of electronic surveillance of Fazaga’s office in the
OCIF mosque in Mission Viejo: Allen and Armstrong

35a
told Monteilh that electronic surveillance was “spread
indiscriminately” across “at least eight area mosques including ICOI, and mosques in Tustin, Mission Viejo,
Culver City, Lomita, West Covina, and Upland,” and
that “they could get in a lot of trouble if people found out
what surveillance they had in the mosques.” They also
instructed Monteilh to use a video camera hidden in a
shirt button to record the interior of OCIF and “get a
sense of the schematics of the place—entrances, exits,
rooms, bathrooms, locked doors, storage rooms, as well
as security measures and whether any security guards
were armed.” Armstrong later told Monteilh that he
and Allen used the information he recorded to enter
OCIF.
As to Tidwell, Walls, and Rose, however, the complaint does not plausibly allege their personal involvement with respect to the planted devices. 20 The complaint details Tidwell, Walls, and Rose’s oversight of
Monteilh, including that they read his daily notes and
were apprised, through Allen and Armstrong, of the information he collected. But the complaint never alleges that Monteilh was involved in planting devices in
AbdelRahim’s house, car, or phone, or in Fazaga’s office;
those actions are attributed only to unnamed FBI
agents.

Because we concluded with respect to the first two categories of
surveillance either that Plaintiffs had no reasonable expectation of
privacy or that the expectation was not clearly established in the
case law at the pertinent time, we reach the question whether Plaintiffs plausibly allege the personal involvement of Tidwell, Wall, and
Rose only with respect to the third category of surveillance.
20

36a
The complaint also offers general statements that
Tidwell, Walls, and Rose supervised Allen and Armstrong. 21 But “[g]overnment officials may not be held
liable for the unconstitutional conduct of their subordinates under a theory of respondeat superior.” Iqbal,
556 U.S. at 676. Instead, “a plaintiff must plead that
each Government-official defendant, through the official’s own individual actions, has violated the Constitution.” Id. Plaintiffs have not done so as to this category of surveillance with regard to Tidwell, Walls, and
Rose. The complaint does not allege that the supervisors knew of, much less ordered or arranged for, the
planting of the recording devices in AbdelRahim’s home
or Fazaga’s office, so the supervisors are entitled to
qualified immunity as to that surveillance. See, e.g.,
Chavez v. United States, 683 F.3d 1102, 1110 (9th Cir.
2012); Ortez v. Washington County, 88 F.3d 804, 809
(9th Cir. 1996).
In sum, Plaintiffs allege a FISA claim against Allen
and Armstrong for recordings made by devices planted
by FBI agents in AbdelRahim’s house and Fazaga’s office. As to all other categories of surveillance, the
Agent Defendants either did not violate FISA; are entitled to qualified immunity on the FISA claim because
Plaintiffs’ reasonable expectation of privacy was not
clearly established; or were not plausibly alleged in the

The relevant allegations were only that Walls and Rose “actively
monitored, directed, and authorized the actions of Agents Allen and
Armstrong and other agents at all times relevant in this action, for
the purpose of surveilling Plaintiffs and other putative class members because they were Muslim” and that Tidwell “authorized and
actively directed the actions of Agents Armstrong, Allen, Rose,
Walls, and other agents.”
21

37a
complaint to have committed any FISA violation that
may have occurred.
II.

The State Secrets Privilege and FISA Preemption

Having addressed the only claim to survive Defendants’ motions to dismiss in the district court, we turn to
the district court’s dismissal of the remaining claims
pursuant to the state secrets privilege. 22 Plaintiffs argue that reversal is warranted “on either of two narrower grounds.” First, Plaintiffs argue that, at this
preliminary stage, the district court erred in concluding
that further litigation would require the disclosure of
privileged information.
Second, Plaintiffs maintain
that the district court should have relied on FISA’s alternative procedures for handling sensitive national security information. Because we agree with Plaintiffs’
second argument, we do not decide the first. We therefore need not review the Government’s state secrets
claim to decide whether the standard for dismissal at
this juncture—whether the district court properly “determine[d] with certainty . . . that litigation must
be limited or cut off in order to protect state secrets,
even before any discovery or evidentiary requests have
been made,” Mohamed v. Jeppesen Dataplan, Inc., 614
F.3d 1070, 1081 (9th Cir. 2010) (en banc)—has been met.
The initial question as to Plaintiffs’ second argument
is whether the procedures established under FISA for
adjudicating the legality of challenged electronic surveillance replace the common law state secrets privilege
Plaintiffs do not dispute at this juncture the district court’s conclusion that the information over which the Attorney General asserted the state secrets privilege indeed comes within the privilege.
We therefore assume as much for present purposes.
22

38a
with respect to such surveillance to the extent that privilege allows the categorical dismissal of causes of action.
The question is a fairly novel one. We are the first federal court of appeals to address it. Only two district
courts, both in our circuit, have considered the issue.
Those courts both held that FISA “displace[s] federal
common law rules such as the state secrets privilege
with regard to matters within FISA’s purview.” Jewel
v. NSA, 965 F. Supp. 2d 1090, 1105-06 (N.D. Cal. 2013);
accord In re NSA Telecomms. Records Litig. (In re
NSA), 564 F. Supp. 2d 1109, 1117-24 (N.D. Cal. 2008).
We rely on similar reasoning to that in those district
court decisions, but reach a narrower holding as to the
scope of FISA preemption.
Our analysis of this issue proceeds as follows. First,
we offer a brief review of the state secrets privilege.
Second, we discuss one reason why the district court
should not have dismissed the search claims based on
the privilege. Third, we explain why FISA displaces
the dismissal remedy of the common law state secrets
privilege as applied to electronic surveillance generally.
Then we review the situations in which FISA’s procedures under § 1806(f ) apply, including affirmative constitutional challenges to electronic surveillance. Finally, we explain why the present case fits at least one
of the situations in which FISA’s procedures apply.
Before we go on, we emphasize that although we hold
that Plaintiffs’ electronic surveillance claims are not
subject to outright dismissal at the pleading stage because FISA displaces the state secrets privilege, the
FISA procedure is, not surprisingly, extremely protective of government secrecy. Under that procedure,
Plaintiffs’ religion claims will not go forward under the

39a
open and transparent processes to which litigants are
normally entitled. Instead, in the interest of protecting national security, the stringent FISA procedures require severe curtailment of the usual protections afforded by the adversarial process and due process.
See, e.g., Yamada v. Nobel Biocare Holding AG, 825
F.3d 536, 545 (9th Cir. 2016) (holding that the district
court’s use of ex parte, in camera submissions to support its fee order violated defendants’ due process
rights); Intel Corp. v. Terabyte Int’l, Inc., 6 F.3d 614,
623 (9th Cir. 1993) (same); MGIC Indem. Corp. v. Weisman, 803 F.2d 500, 505 (9th Cir. 1986) (same). As it is
Plaintiffs who have invoked the FISA procedures, we
proceed on the understanding that they are willing to
accept those restrictions to the degree they are applicable as an alternative to dismissal, and so may not later
seek to contest them. 23
A.

The State Secrets Privilege

“The Supreme Court has long recognized that in exceptional circumstances courts must act in the interest
of the country’s national security to prevent disclosure
of state secrets, even to the point of dismissing a case
entirely.” Jeppesen, 614 F.3d at 1077 (citing Totten v.
United States, 92 U.S. 105, 107 (1876)). Neither the
Supreme Court nor this court has precisely delineated
what constitutes a state secret. Reynolds referred to
“military matters which, in the interest of national security, should not be divulged.” 345 U.S. at 10. Jeppesen
added that not all classified information is necessarily
privileged under Reynolds. 614 F.3d at 1082. The
We discuss how the district court is to apply the FISA procedures to Plaintiffs’ surviving claims on remand in infra Part V.
23

40a
state secrets privilege has been held to apply to information that would result in “impairment of the nation’s
defense capabilities, disclosure of intelligence-gathering
methods or capabilities, and disruption of diplomatic relations with foreign governments, or where disclosure
would be inimical to national security.”
Black v.
United States, 62 F.3d 1115, 1118 (8th Cir. 1995) (citations and internal quotation marks omitted).
But
courts have acknowledged that terms like “military or
state secrets” are “amorphous in nature,” id. (citation
omitted); the phrase “inimical to national security” certainly is. And although purely domestic investigations
with no international connection do not involve state secrets, we recognize that the contours of the privilege are
perhaps even more difficult to draw in a highly globalized, post-9/11 environment, where the lines between
foreign and domestic security interests may be blurred.
We do not attempt to resolve the ambiguity or to explain definitively what constitutes a “state secret.”
But we note the ambiguity nonetheless at the outset,
largely as a reminder that, as our court has previously
noted, “[s]imply saying ‘military secret,’ ‘national security’ or ‘terrorist threat’ or invoking an ethereal fear
that disclosure will threaten our nation is insufficient to
support the privilege.” Al-Haramain Islamic Found.,
Inc. v. Bush (Al-Haramain I), 507 F.3d 1190, 1203 (9th
Cir. 2007).
Created by federal common law, the modern state secrets doctrine has two applications: the Totten bar and
the Reynolds privilege. The Totten bar is invoked
“ ‘where the very subject matter of the action’ is ‘a matter of state secret.’ ” Id. at 1077 (quoting Reynolds, 345
U.S. at 11 n.26). It “completely bars adjudication of

41a
claims premised on state secrets.” Id.; see also Totten,
95 U.S. at 106-07. The Reynolds privilege, by contrast,
“is an evidentiary privilege rooted in federal common
law.” Kasza v. Browner, 133 F.3d 1159, 1167 (9th Cir.
1998); see also Gen. Dynamics Corp. v. United States,
563 U.S. 478, 485 (2011). It “may be asserted at any
time,” and successful assertion “will remove the privileged evidence from the litigation.” Jeppesen, 614
F.3d at 1079-80.
Here, after the Attorney General asserted the Reynolds privilege and the Government submitted both public and classified declarations setting out the parameters
of its state secrets contention, the Government Defendants requested dismissal of Plaintiffs’ religion claims in
toto—but not the Fourth Amendment and FISA claims
—at the pleading stage. “Dismissal at the pleading
stage under Reynolds is a drastic result and should not
be readily granted.”
Jeppesen, 614 F.3d at 1089.
Only “if state secrets are so central to a proceeding that
it cannot be litigated without threatening their disclosure” is dismissal the proper course. Id. at 1081 (quoting El-Masri v. United States, 479 F.3d 296, 308 (4th
Cir. 2007)). Because there is a strong interest in allowing otherwise meritorious litigation to go forward, the
court’s inquiry into the need for the secret information
should be specific and tailored, not vague and general.
See id. at 1081-82; In re Sealed Case, 494 F.3d 139, 14454 (D.C. Cir. 2007).
Specifically, the Reynolds privilege will justify dismissal of the action in three circumstances: (1) if “the
plaintiff cannot prove the prima facie elements of her
claim with nonprivileged evidence”; (2) if “the privilege

42a
deprives the defendant of information that would otherwise give the defendant a valid defense to the claim”;
and (3) if “privileged evidence” is “inseparable from
nonprivileged information that will be necessary to the
claims or defenses” such that “litigating the case to a
judgment on the merits would present an unacceptable
risk of disclosing state secrets.” Jeppesen, 614 F.3d at
1083 (citations omitted). The district court assumed
that Plaintiffs could make a prima facie case without resorting to state secrets evidence, but determined that
the second and third circumstances exist in this case and
require dismissal.
B.

The District Court’s Dismissal of the Search
Claims Based on the State Secrets Privilege

As a threshold matter, before determining whether
FISA displaces the state secrets privilege with regard
to electronic surveillance, we first consider which of
Plaintiffs’ claims might otherwise be subject to dismissal under the state secrets privilege. Although the
Government expressly did not request dismissal of the
Fourth Amendment and FISA claims based on the privilege, the district court nonetheless dismissed the
Fourth Amendment claim on that basis. That was error.
The Government must formally claim the Reynolds
privilege. Reynolds, 345 U.S. at 7-8. The privilege is
“not simply an administrative formality” that may be asserted by any official. Jeppesen, 614 F.3d at 1080
(quoting United States v. W.R. Grace, 526 F.3d 499, 50708 (9th Cir. 2008) (en banc)). Rather, the formal claim
must be “lodged by the head of the department which
has control over the matter.” Reynolds, 345 U.S. at 8.
The claim must “reflect the certifying official’s personal

43a
judgment; responsibility for [asserting the privilege]
may not be delegated to lesser-ranked officials.” Jeppesen, 614 F.3d at 1080. And the claim “must be presented in sufficient detail for the court to make an independent determination of the validity of the claim of
privilege and the scope of the evidence subject to the
privilege.” Id. Such unusually strict procedural requirements exist because “[t]he privilege ‘is not to be
lightly invoked,’ ” especially when dismissal of the entire
action is sought. Id. (quoting Reynolds, 345 U.S. at 7).
Here, although the Government has claimed the
Reynolds privilege over certain state secrets, it has not
sought dismissal of the Fourth Amendment and FISA
claims based on its invocation of the privilege. In light
of that position, the district court should not have dismissed those claims. In doing so, its decision was inconsistent with Jeppesen’s observation that, “[i]n evaluating the need for secrecy, ‘we acknowledge the need to
defer to the Executive on matters of foreign policy and
national security and surely cannot legitimately find
ourselves second guessing the Executive in this arena.’ ”
614 F.3d at 1081-82 (quoting Al-Haramain I, 507 F.3d
at 1203). Just as the Executive is owed deference when
it asserts that exclusion of the evidence or dismissal of
the case is necessary to protect national security, so the
Executive is necessarily also owed deference when it asserts that national security is not threatened by litigation.
Indeed, Jeppesen cautioned that courts should work
“to ensure that the state secrets privilege is asserted no
more frequently and sweepingly than necessary.” Id.
at 1082 (quoting Ellsberg v. Mitchell, 709 F.2d 51, 58

44a
(D.C. Cir. 1983)). Dismissing claims based on the privilege where the Government has expressly told the court
it is not necessary to do so—and, in particular, invoking
the privilege to dismiss, at the pleading stage, claims
the Government has expressly told the court it need not
dismiss on grounds of privilege—cuts directly against
Jeppesen’s call for careful, limited application of the
privilege.
Although the Government Defendants expressly did
not request dismissal of the search claims under the
state secrets privilege, the Agent Defendants did so request. In declining to seek dismissal of the search claims
based on the state secrets privilege, the Government explained:
At least at this stage of the proceedings, sufficient
non-privileged evidence may be available to litigate
these claims should they otherwise survive motions
to dismiss on nonprivilege grounds. The FBI has
previously disclosed in a separate criminal proceeding that Monteilh collected audio and video information for the FBI, and some of that audio and video
information was produced in that prior case. The
FBI has been reviewing additional audio and video
collected by Monteilh for possible disclosure in connection with further proceedings on the issue of
whether the FBI instructed or permitted Monteilh to
leave recording devices unattended in order to collect
non-consenting communications. The FBI expects
that the majority of the audio and video will be available in connection with further proceedings. Thus,
while it remains possible that the need to protect
properly privileged national security information

45a
might still foreclose litigation of these claims, at present the FBI and official capacity defendants do not
seek to dismiss these claims based on the privilege
assertion.
The Agent Defendants note that the Government focuses on the public disclosure of recordings collected by
Monteilh, and point out that Plaintiffs also challenge
surveillance conducted without Monteilh’s involvement
—namely, the planting of recording devices by FBI
agents in Fazaga’s office and AbdelRahim’s home, car,
and phone. Allegations concerning the planting of recording devices by FBI agents other than Monteilh, the
Agent Defendants argue, are the “sources and methods”
discussed in the Attorney General’s invocation of the
privilege. The Agent Defendants thus maintain that
because the Government’s reasons for not asserting the
privilege over the search claims do not apply to all of the
surveillance encompassed by the search claims, dismissal as to the search claims is in fact necessary.
The Agent Defendants, however, are not uniquely
subject to liability for the planted devices. The Fourth
Amendment claim against the Government Defendants
likewise applies to that category of surveillance. See
infra Part III.A. The Agent Defendants—officials
sued in their individual capacities—are not the protectors of the state secrets evidence; the Government is.
Accordingly, and because the Agent Defendants have
not identified a reason they specifically require dismissal to protect against the harmful disclosure of state se-

46a
crets where the Government does not, we decline to accept their argument that the Government’s dismissal
defense must be expanded beyond the religion claims. 24
In short, in determining sua sponte that particular
claims warrant dismissal under the state secrets privilege, the district court erred. For these reasons, we
will not extend FISA’s procedures to challenges to the
lawfulness of electronic surveillance to the degree the
Government agrees that such challenges may be litigated in accordance with ordinary adversarial procedures without compromising national security.
C.

FISA Displacement of the State Secrets Privilege

Before the enactment of FISA in 1978, foreign intelligence surveillance and the treatment of evidence implicating state secrets were governed purely by federal
common law. Federal courts develop common law “in
the absence of an applicable Act of Congress.” City of
Milwaukee v. Illinois, 451 U.S. 304, 313 (1981). “Federal common law is,” however, “a ‘necessary expedient’
and when Congress addresses a question previously
governed by a decision rested on federal common law
the need for such an unusual exercise of lawmaking by
federal courts disappears.” Id. (citation omitted). Once
“the field has been made the subject of comprehensive

Although the Government may assert the state secrets privilege
even when it is not a party to the case, see Jeppesen, 614 F.3d at
1080, we have not found—and the Agent Defendants have not cited
—any case other than the one at hand in which a court granted dismissal under the privilege as to non-Government defendants, notwithstanding the Government’s assertion that the claims at issue
may be litigated with nonprivileged information.
24

47a
legislation or authorized administrative standards,” federal common law no longer applies. Id. (quoting Texas
v. Pankey, 441 F.2d 236, 241 (10th Cir. 1971)).
To displace federal common law, Congress need not
“affirmatively proscribe[] the use of federal common
law.” Id. at 315. Rather, “to abrogate a common-law
principle, the statute must ‘speak directly’ to the question addressed by the common law.” United States v.
Texas, 507 U.S. 529, 534 (1993) (quoting Mobil Oil Corp.
v. Higginbotham, 436 U.S. 618, 625 (1978)). As we now
explain, in enacting FISA, Congress displaced the common law dismissal remedy created by the Reynolds
state secrets privilege as applied to electronic surveillance within FISA’s purview. 25
We have specifically held that because “the state secrets privilege is an evidentiary privilege rooted in federal common law . . . the relevant inquiry in deciding if [a statute] preempts the state secrets privilege is
whether the statute ‘[speaks] directly to [the] question
otherwise answered by federal common law.’ ” Kasza,
133 F.3d at 1167 (second and third alterations in original) (quoting County of Oneida v. Oneida Indian Nation, 470 U.S. 226, 236-37 (1985)). 26 Nonetheless, the
Government maintains, in a vague and short paragraph
in its brief, that Congress cannot displace the state secrets evidentiary privilege absent a clear statement, and
Our holding concerns only the Reynolds privilege, not the Totten justiciability bar.
26
Applying this principle, Kasza concluded that section 6001 of
the Resource Conservation and Recovery Act (“RCRA”), 42 U.S.C.
§ 6961, did not preempt the state secrets privilege as to RCRA regulatory material, as “the state secrets privilege and § 6001 have different purposes.” 133 F.3d at 1168.
25

48a
that, because Plaintiffs cannot point to a clear statement, “principles of constitutional avoidance” require
rejecting the conclusion that FISA’s procedures displace the dismissal remedy of the state secrets privilege
with regard to electronic surveillance.
In support of this proposition, the Government cites
two out-of-circuit cases, El-Masri v. United States, 479
F.3d 296, and Armstrong v. Bush, 924 F.2d 282 (D.C.
Cir. 1991). El-Masri does not specify a clear statement rule; it speaks generally about the constitutional
significance of the state secrets privilege, while recognizing its common law roots. 479 F.3d at 303-04.
Armstrong holds generally that the clear statement rule
must be applied “to statutes that significantly alter the
balance between Congress and the President,” but does
not apply that principle to the state secrets privilege.
924 F.2d at 289. So neither case is directly on point.
Under our circuit’s case law, a clear statement in the
sense of an explicit abrogation of the common law state
secrets privilege is not required to decide that a statute
displaces the privilege. Rather, if “the statute ‘[speaks]
directly to [the] question otherwise answered by federal
common law,’ ” that is sufficient. Kasza, 133 F.3d at
1167 (second and third alterations in original) (quoting
Oneida, 470 U.S. at 236-37); see also Texas, 507 U.S. at
534. Although we, as a three-judge panel, could not
hold otherwise, we would be inclined in any event to reject any clear statement rule more stringent than
Kasza’s “speak directly to the question” requirement in
this context.
The state secrets privilege may have “a constitutional
‘core’ or constitutional ‘overtones,’ ” In re NSA, 564
F. Supp. 2d at 1124, but, at bottom, it is an evidentiary

49a
rule rooted in common law, not constitutional law. The
Supreme Court has so emphasized, explaining that
Reynolds “decided a purely evidentiary dispute by applying evidentiary rules.” Gen. Dynamics, 563 U.S. at
485. To require express abrogation, by name, of the
state secrets privilege would be inconsistent with the evidentiary roots of the privilege.
In any event, the text of FISA does speak quite directly to the question otherwise answered by the dismissal remedy sometimes required by the common law
state secrets privilege. Titled “In camera and ex parte
review by district court,” § 1806(f ) provides:
Whenever a court or other authority is notified pursuant to subsection (c) or (d) of this section, or whenever a motion is made pursuant to subsection (e) of
this section, or whenever any motion or request is
made by an aggrieved person pursuant to any other
statute or rule of the United States or any State before any court or other authority of the United States
or any State to discover or obtain applications or orders or other materials relating to electronic surveillance or to discover, obtain, or suppress evidence or
information obtained or derived from electronic surveillance under this chapter, the United States district court or, where the motion is made before another authority, the United States district court in
the same district as the authority, shall, notwithstanding any other law, if the Attorney General files
an affidavit under oath that disclosure or an adversary hearing would harm the national security of the
United States, review in camera and ex parte the application, order, and such other materials relating to
the surveillance as may be necessary to determine

50a
whether the surveillance of the aggrieved person was
lawfully authorized and conducted. In making this
determination, the court may disclose to the aggrieved person, under appropriate security procedures and protective orders, portions of the application, order, or other materials relating to the surveillance only where such disclosure is necessary to
make an accurate determination of the legality of the
surveillance.
50 U.S.C. § 1806(f ) (emphasis added).
The phrase “notwithstanding any other law,” the several uses of the word “whenever,” and the command that
courts “shall” use the § 1806(f ) procedures to decide the
lawfulness of the surveillance if the Attorney General
asserts that national security is at risk, confirm Congress’s intent to make the in camera and ex parte procedure the exclusive procedure for evaluating evidence
that threatens national security in the context of electronic surveillance-related determinations. Id. (emphasis added). That mandatory procedure necessarily
overrides, on the one hand, the usual procedural rules
precluding such severe compromises of the adversary
process and, on the other, the state secrets evidentiary
dismissal option. See H.R. Rep. No. 95-1283, pt. 1, at
91 (1978) (“It is to be emphasized that, although a number of different procedures might be used to attack the
legality of the surveillance, it is the procedures set out
in subsections (f ) and (g) ‘notwithstanding any other
law’ that must be used to resolve the question.”). 27

Whether “notwithstanding” language in a given statute should
be understood to supersede all otherwise applicable laws or read
more narrowly to override only previously existing laws depends on
27

51a
The procedures set out in § 1806(f ) are animated by
the same concerns—threats to national security—that
underlie the state secrets privilege. See Jeppesen,
614 F.3d at 1077, 1080. And they are triggered by a
process—the filing of an affidavit under oath by the Attorney General—nearly identical to the process that
triggers application of the state secrets privilege, a formal assertion by the head of the relevant department.
See id. at 1080. In this sense, § 1806(f ) “is, in effect, a
‘codification of the state secrets privilege for purposes
of relevant cases under FISA, as modified to reflect
Congress’s precise directive to the federal courts for the
handling of [electronic surveillance] materials and information with purported national security implications.’ ”
Jewel, 965 F. Supp. 2d at 1106 (quoting In re NSA, 564
F. Supp. 2d at 1119); see also In re NSA, 564 F. Supp.
2d at 1119 (holding that “the Reynolds protocol has no
role where section 1806(f ) applies”). That § 1806(f ) requires in camera and ex parte review in the exact circumstance that could otherwise trigger dismissal of the
case demonstrates that § 1806(f ) supplies an alternative
mechanism for the consideration of electronic state secrets evidence. Section 1806(f ) therefore eliminates
the need to dismiss the case entirely because of the absence of any legally sanctioned mechanism for a major
modification of ordinary judicial procedures—in camera, ex parte decisionmaking.
This conclusion is consistent with the overall structure of FISA. FISA does not concern Congress and
the overall context of the statute. See United States v. Novak, 476
F.3d 1041, 1046-47 (9th Cir. 2007) (en banc). Here, the distinction
does not matter, as the Reynolds common law state secrets evidentiary privilege preceded the enactment of FISA.

52a
the President alone. Instead, the statute creates “a
comprehensive, detailed program to regulate foreign intelligence surveillance in the domestic context.” In re
NSA, 564 F. Supp. 2d at 1118. FISA “set[s] out in detail roles for all three branches of government, providing judicial and congressional oversight of the covert
surveillance activities by the executive branch combined
with measures to safeguard secrecy necessary to protect
national security.” Id. at 1115. And it provides rules
for the executive branch to follow in “undertak[ing] electronic surveillance and physical searches for foreign intelligence purposes in the domestic sphere.” Id.
Moreover, FISA establishes a special court to hear
applications for and grant orders approving electronic
surveillance under certain circumstances. See 50 U.S.C.
§ 1803. FISA also includes a private civil enforcement
mechanism, see id. § 1810, and sets out a procedure by
which courts should consider evidence that could harm
the country’s national security, see id. § 1806(f ). The
statute thus broadly involves the courts in the regulation of electronic surveillance relating to national security, while devising extraordinary, partially secret judicial procedures for carrying out that involvement. And
Congress expressly declared that FISA, along with the
domestic law enforcement electronic surveillance provisions of the Wiretap Act and the Stored Communications
Act, are “the exclusive means by which electronic surveillance . . . may be conducted.” 18 U.S.C. § 2511(2)(f ).
The legislative history of FISA confirms Congress’s
intent to displace the remedy of dismissal for the common law state secrets privilege. FISA was enacted in
response to “revelations that warrantless electronic sur-

53a
veillance in the name of national security ha[d] been seriously abused.” S. Rep. No. 95-604, pt. 1, at 7 (1978),
reprinted in 1978 U.S.C.C.A.N. 3904, 3908. The Senate Select Committee to Study Governmental Operations with Respect to Intelligence Activities, a congressional task force formed in 1975 and known as the
Church Committee, exposed the unlawful surveillance in
a series of investigative reports. The Church Committee documented “a massive record of intelligence abuses
over the years,” in which “the Government ha[d] collected, and then used improperly, huge amounts of information about the private lives, political beliefs and associations of numerous Americans.” S. Select Comm.
to Study Governmental Operations with Respect to Intelligence Activities, Book II: Intelligence Activities
and the Rights of Americans, S. Rep. No. 94-755, at 290
(1976). The Committee concluded that these abuses
had “undermined the constitutional rights of citizens
. . . primarily because checks and balances designed
by the framers of the Constitution to assure accountability [were not] applied.” Id. at 289.
Urging “fundamental reform,” id. at 289, the Committee recommended legislation to “make clear to the
Executive branch that it will not condone, and does not
accept, any theory of inherent or implied authority to violate the Constitution,” id. at 297. Observing that the
Executive would have “no such authority after Congress
has . . . covered the field by enactment of a comprehensive legislative charter” that would “provide the exclusive legal authority for domestic security activities,”
id. at 297, the Committee recommended that Congress
create civil remedies for unlawful surveillance, both to
“afford effective redress to people who are injured by

54a
improper federal intelligence activity” and to “deter improper intelligence activity,” id. at 336. Further, in
recognition of the potential interplay between promoting accountability and ensuring security, the Committee
noted its “belie[f] that the courts will be able to fashion
discovery procedures, including inspection of material
in chambers, and to issue orders as the interests of justice require, to allow plaintiffs with substantial claims to
uncover enough factual material to argue their case,
while protecting the secrecy of governmental information in which there is a legitimate security interest.”
Id. at 337.
FISA implemented many of the Church Committee’s
recommendations. In striking a careful balance between assuring the national security and protecting
against electronic surveillance abuse, Congress carefully considered the role previously played by courts,
and concluded that the judiciary had been unable effectively to achieve an appropriate balance through federal
common law:
[T]he development of the law regulating electronic
surveillance for national security purposes has been
uneven and inconclusive. This is to be expected
where the development is left to the judicial branch
in an area where cases do not regularly come before
it. Moreover, the development of standards and restrictions by the judiciary with respect to electronic
surveillance for foreign intelligence purposes accomplished through case law threatens both civil liberties
and the national security because that development
occurs generally in ignorance of the facts, circumstances, and techniques of foreign intelligence electronic surveillance not present in the particular case

55a
before the court. . . . [T]he tiny window to this
area which a particular case affords provides inadequate light by which judges may be relied upon to develop case law which adequately balances the rights
of privacy and national security.
H. Rep. No. 95-1283, pt. 1, at 21. FISA thus represents
an effort to “provide effective, reasonable safeguards to
ensure accountability and prevent improper surveillance,” and to “strik[e] a fair and just balance between
protection of national security and protection of personal liberties.” S. Rep. No. 95-604, pt. 1, at 7.
In short, the procedures outlined in § 1806(f ) “provide[] a detailed regime to determine whether surveillance ‘was lawfully authorized and conducted,’ ” AlHaramain I, 507 F.3d at 1205 (citing 50 U.S.C.
§ 1806(f )), and constitute “Congress’s specific and detailed description for how courts should handle claims
by the government that the disclosure of material relating to or derived from electronic surveillance would
harm national security,” Jewel, 965 F. Supp. 2d at 1106
(quoting In re NSA, 564 F. Supp. 2d at 1119). Critically, the FISA approach does not publicly expose the
state secrets. It does severely compromise Plaintiffs’
procedural rights, but not to the degree of entirely extinguishing potentially meritorious substantive rights.
D.

Applicability of FISA’s § 1806(f ) Procedures
to Affirmative Legal Challenges to Electronic
Surveillance

Having determined that, where they apply,
§ 1806(f )’s procedures displace a dismissal remedy for
the Reynolds state secrets privilege, we now consider

56a
whether § 1806(f )’s procedures apply to the circumstances of this case.
By the statute’s terms, the procedures set forth in
§ 1806(f ) are to be used—where the Attorney General
files the requisite affidavit—in the following circumstances:
[w]henever a court or other authority is notified pursuant to subsection (c) or (d) of this section, or whenever a motion is made pursuant to subsection (e) of
this section, or whenever any motion or request is
made by an aggrieved person pursuant to any other
statute or rule of the United States or any State before any court or other authority of the United States
or any State to discover or obtain applications or orders or other materials relating to electronic surveillance or to discover, obtain, or suppress evidence or
information obtained or derived from electronic surveillance under this chapter.
50 U.S.C. § 1806(f ). From this text and the crossreferenced subsections, we derive three circumstances
in which the in camera and ex parte procedures are to
be used: when (1) a governmental body gives notice of
its intent “to enter into evidence or otherwise use or disclose in any trial, hearing, or other proceeding in or before any court, department, officer, agency, regulatory
body, or other authority of the United States, against an
aggrieved person, any information obtained or derived
from an electronic surveillance,” id. § 1806(c) (emphases
added); 28 (2) an aggrieved person moves to suppress the
The text of § 1806(f ) refers to notice “pursuant to subsection (c)
or (d) of this section.” 50 U.S.C. § 1806(f ) (emphasis added). Section 1806(d) describes verbatim the same procedures as contained in
28

57a
evidence, id. § 1806(e); or (3) an aggrieved person makes
“any motion or request . . . pursuant to any other
statute or rule . . . to discover or obtain applications
or orders or other materials relating to electronic surveillance or to discover, obtain, or suppress evidence or
information obtained or derived from electronic surveillance under this chapter,” id. § 1806(f ) (emphasis
added).
The case at hand fits within the contemplated circumstances in two respects. First, although the Government has declined to confirm or deny in its public submissions that the information with respect to which it
has invoked the state secrets privilege was obtained or
derived from FISA-covered electronic surveillance of
Plaintiffs, see id. § 1806(c), the complaint alleges that it
was. The Attorney General’s privilege assertion encompassed, among other things, “any information obtained during the course of ” Operation Flex, the “results
of the investigation,” and “any results derived from” the
“sources and methods” used in Operation Flex. It is precisely because the Government would like to use this information to defend itself that it has asserted the state
secrets privilege. The district court’s dismissal ruling
was premised in part on the potential use of state secrets
material to defend the case. Because the district court
made the ruling after reviewing the surveillance materials, it is aware whether the allegations in the complaint
concerning electronic surveillance are factually supported. Of course, if they are not, then the district court
§ 1806(c), except as applied to States and political subdivisions rather
than to the United States. Id. § 1806(d). For convenience, we refer
only to § 1806(c) in this opinion, but our analysis applies to § 1806(d)
with equal force.

58a
can decide on remand that the FISA procedures are inapplicable. For purposes of this opinion, we proceed
on the premise that the Attorney General’s invocation of
the state secrets privilege relied on the potential use of
material obtained or derived from electronic surveillance, as alleged in the complaint.
Second, in their prayer for relief, Plaintiffs have requested injunctive relief “ordering Defendants to destroy or return any information gathered through the
unlawful surveillance program by Monteilh and/or Operation Flex described above, and any information derived from that unlawfully obtained information.”
Plaintiffs thus have requested, in the alternative, to “obtain” information gathered during or derived from electronic surveillance. See id. § 1806(f ).
The Government disputes that FISA applies to this
case. Its broader contention is that § 1806(f )’s procedures do not apply to any affirmative claims challenging
the legality of electronic surveillance or the use of information derived from electronic surveillance, whether
brought under FISA’s private right of action or any other
constitutional provision, statute, or rule. Instead, the
Government maintains, FISA’s procedures apply only
when the government initiates the legal action, while the
state secrets privilege applies when the government defends affirmative litigation brought by private parties.
The plain text and statutory structure of FISA provide otherwise. To begin, the language of the statute
simply does not contain the limitations the Government
suggests. As discussed above, § 1806(f )’s procedures are
to be used in any one of three situations, each of which
is separated in the statute by an “or.” See id. The
first situation—when “the Government intends to enter

59a
into evidence or otherwise use or disclose information
obtained or derived from an electronic surveillance
. . . against an aggrieved person” in “any trial, hearing, or other proceeding,” id. § 1806(c) (emphasis added)
—unambiguously encompasses affirmative as well as
defensive challenges to the lawfulness of surveillance. 29
The conduct governed by the statutory provision is the
Government’s intended entry into evidence or other use
or disclosure of information obtained or derived from
electronic surveillance. “[A]gainst an aggrieved person” refers to and modifies the phrase “any information
obtained or derived.” Id. As a matter of ordinary usage, the phrase “against an aggrieved person” cannot
modify “any trial, hearing, or other proceeding in or before any court, department, officer, agency, regulatory
body, or other authority of the United States.” Id.

29

In full, § 1806(c) reads:

Whenever the Government intends to enter into evidence or
otherwise use or disclose in any trial, hearing, or other proceeding in or before any court, department, officer, agency,
regulatory body, or other authority of the United States,
against an aggrieved person, any information obtained or derived from an electronic surveillance of that aggrieved person
pursuant to the authority of this subchapter, the Government
shall, prior to the trial, hearing, or other proceeding or at a
reasonable time prior to an effort to so disclose or so use that
information or submit it in evidence, notify the aggrieved person and the court or other authority in which the information
is to be disclosed or used that the Government intends to so
disclose or so use such information.
50 U.S.C. § 1806(c). Again, we refer to the text of § 1806(c) because
§ 1806(f )’s procedures apply “[w]henever a court or other authority
is notified pursuant to subsection (c) or (d) of this section.” Id.
§ 1806(f ).

60a
Evidence—such as “any information obtained or derived from an electronic surveillance”—can properly be
said to be “against” a party. See, e.g., U.S. Const.
amend. V (“No person . . . shall be compelled in any
criminal case to be a witness against himself. . . .
”); Miranda v. Arizona, 384 U.S. 436, 460 (1966) (“[O]ur
accusatory system of criminal justice demands that the
government seeking to punish an individual produce the
evidence against him by its own independent labors, rather than by the cruel, simple expedient of compelling it
from his own mouth.” (emphasis added)). But a “trial,
hearing, or other proceeding” is not for or against either
party; such a proceeding is just an opportunity to introduce evidence. Also, as the phrase is set off by commas, “against an aggrieved person” is grammatically a
separate modifier from the list of proceedings contained
in § 1806(f ). Were the phrase meant to modify the various proceedings, there would be no intervening comma
setting it apart.
The third situation—when a “motion or request is
made by an aggrieved person pursuant to any other
statute or rule . . . before any court . . . to discover or obtain applications or orders or other materials
relating to electronic surveillance or to discover, obtain,
or suppress evidence or information obtained or derived
from electronic surveillance under this chapter,” id.
§ 1806(f )—also by its plain text encompasses affirmative
challenges to the legality of electronic surveillance.
When an aggrieved person makes such a motion or request, or the government notifies the aggrieved person
and the court that it intends to use or disclose information obtained or derived from electronic surveillance,
the statute requires a court to use § 1806(f )’s procedures
“to determine whether the surveillance . . . was

61a
lawfully authorized and conducted.” Id. In other
words, a court must “determine whether the surveillance was authorized and conducted in a manner which
did not violate any constitutional or statutory right.”
S. Rep. No. 95-604, pt. 1, at 57; accord S. Rep. No.
95-701, at 63.
The inference drawn from the text of § 1806 is bolstered by § 1810, which specifically creates a private
right of action for an individual subjected to electronic
surveillance in violation of FISA. FISA prohibits, for
example, electronic surveillance of a U.S. person “solely
upon the basis of activities protected by the first amendment to the Constitution of the United States.” 50
U.S.C. § 1805(a)(2)(A). Here, Plaintiffs allege they were
surveilled solely on account of their religion. If true,
such surveillance was necessarily unauthorized by FISA,
and § 1810 subjects any persons who intentionally engaged in such surveillance to civil liability. It would
make no sense for Congress to pass a comprehensive
law concerning foreign intelligence surveillance, expressly enable aggrieved persons to sue for damages
when that surveillance is unauthorized, see id. § 1810,
and provide procedures deemed adequate for the review
of national security-related evidence, see id. § 1806(f ),
but not intend for those very procedures to be used
when an aggrieved person sues for damages under
FISA’s civil enforcement mechanism. Permitting a
§ 1810 claim to be dismissed on the basis of the state
secrets privilege because the § 1806(f ) procedures are
unavailable would dramatically undercut the utility of
§ 1810 in deterring FISA violations. Such a dismissal
also would undermine the overarching goal of FISA
more broadly—“curb[ing] the practice by which the Ex-

62a
ecutive Branch may conduct warrantless electronic surveillance on its own unilateral determination that national security justifies it.” S. Rep. No. 95-604, pt. 1, at 8.
FISA’s legislative history confirms that § 1806(f )’s
procedures were designed to apply in both civil and
criminal cases, and to both affirmative and defensive use
of electronic surveillance evidence. The Senate bill initially provided a single procedure for criminal and civil
cases, while the House bill at the outset specified two
separate procedures for determining the legality of electronic surveillance. 30 In the end, the conference committee adopted a slightly modified version of the Senate
bill, agreeing “that an in camera and ex parte proceeding is appropriate for determining the lawfulness of
electronic surveillance in both criminal and civil cases.”
H.R. Rep. No. 95-1720, at 32.
In the alternative, the Government suggests that
§ 1806(f )’s procedures for the use of electronic surveillance in litigation are limited to affirmative actions
brought directly under § 1810. We disagree. The
§ 1806(f ) procedures are expressly available, as well as

Under the House bill, in criminal cases there would be an in camera proceeding, and the court could, but need not, disclose the materials relating to the surveillance to the aggrieved person “if there
were a reasonable question as to the legality of the suveillance [sic]
and if disclosure would likely promote a more accurate determination of such legality, or if disclosure would not harm the national security.” H.R. Rep. No. 95-1720, at 31 (1978) (Conf. Rep.), reprinted
in 1978 U.S.C.C.A.N. 4048, 4060. In civil suits, there would be an
in camera and ex parte proceeding before a court of appeals, and the
court would disclose to the aggrieved person the materials relating
to the surveillance “only if necessary to afford due process to the
aggrieved person.” Id. at 32.
30

63a
mandatory, for affirmative claims brought “by an aggrieved person pursuant to any . . . statute or rule
of the United States . . . before any court . . . of
the United States.” 50 U.S.C. § 1806(f ) (emphasis added).
This provision was meant “to make very clear that these
procedures apply whatever the underlying rule or statute” at issue, so as “to prevent these carefully drawn
procedures from being bypassed by the inventive litigant using a new statute, rule or judicial construction.”
H.R. Rep. No. 95-1283, pt. 1, at 91 (emphasis added).
Had Congress wanted to limit the use of § 1806(f )’s
procedures only to affirmative claims alleging lack of
compliance with FISA itself, it could have so specified,
as it did in § 1809 and § 1810. Section 1810 creates a
private right of action only for violations of § 1809. 50
U.S.C. § 1810. Section 1809 prohibits surveillance not
authorized by FISA, the Wiretap Act, the Stored Communications Act, and the pen register statute. Id.
§ 1809(a). That § 1809 includes only certain, crossreferenced statutes while § 1810 is limited to violations
of § 1809 contrasts with the broad language of § 1806(f )
as to the types of litigation covered—litigation “pursuant to any . . . statute or rule of the United States.”
Id. § 1806(f ) (emphasis added).
Furthermore, if—as here—an aggrieved person
brings a claim under § 1810 and a claim under another
statute or the Constitution based on the same electronic
surveillance as is involved in the § 1810 claim, it would
make little sense for § 1806(f ) to require the court to
consider in camera and ex parte the evidence relating to
electronic surveillance for purposes of the claim under
§ 1810 of FISA but not permit the court to consider the
exact same evidence in the exact same way for purposes

64a
of the non-FISA claim. Once the information has been
considered by a federal judge in camera and ex parte,
any risk of disclosure—which Congress necessarily considered exceedingly small or it would not have permitted
such examination—has already been incurred. There
would be no point in dismissing other claims because of
that same concern.
We are not the first to hold that § 1806(f )’s procedures may be used to adjudicate claims beyond those
arising under § 1810. The D.C. Circuit expressly so
held in ACLU Foundation of Southern California v.
Barr, 952 F.2d 457 (D.C. Cir. 1991):
When a district court conducts a § 1806(f ) review, its
task is not simply to decide whether the surveillance
complied with FISA. Section 1806(f ) requires the
court to decide whether the surveillance was “lawfully authorized and conducted.” The Constitution
is law. Once the Attorney General invokes § 1806(f ),
the respondents named in that proceeding therefore
must present not only their statutory but also their
constitutional claims for decision.
Id. at 465; accord United States v. Johnson, 952 F.2d
565, 571-73, 571 n.4 (1st Cir. 1991) (using § 1806(f )’s in
camera and ex parte procedures to review constitutional
challenges to FISA surveillance).
In sum, the plain language, statutory structure, and
legislative history demonstrate that Congress intended
FISA to displace the state secrets privilege and its dismissal remedy with respect to electronic surveillance.
Contrary to the Government’s contention, FISA’s
§ 1806(f ) procedures are to be used when an aggrieved

65a
person affirmatively challenges, in any civil case, the legality of electronic surveillance or its use in litigation,
whether the challenge is under FISA itself, the Constitution, or any other law. 31
The Agent Defendants suggest that using the § 1806 procedures
would violate their Seventh Amendment jury trial right and their
due process rights.
Any Seventh Amendment argument is premature. Any hypothetical interference with a jury trial would arise only if a series of
contingencies occurred on remand. First, given our various rulings
precluding certain of Plaintiffs’ claims and the narrow availability of
Bivens remedies under current law, there are likely to be few, if any,
remaining Bivens claims against the Agent Defendants. See infra
Part I; supra Part III.B; supra Part IV.B. Second, as to any remaining claims against the Agent Defendants, the district court
might determine that there was no unlawful surveillance after reviewing the evidence under the in camera, ex parte procedures, or
the Agent Defendants may prevail on summary judgment. Moreover, it is possible that the district court’s determination of whether
the surveillance was lawful will be a strictly legal decision—analogous
to summary judgment—made on the record supplied by the government. See Parklane Hosiery Co. v. Shore, 439 U.S. 322, 336 (1979)
(noting that procedural devices like summary judgment are not “inconsistent” with the Seventh Amendment).
Should the various contingencies occur and leave liability issues
to be determined, the Agent Defendants are free at that time to raise
their Seventh Amendment arguments on remand. But, as the Seventh Amendment issue was not decided by the district court, may
never arise, and, if it does, may depend on the merits on exactly how
it arises, we decline to address the hypothetical constitutional question now.
With respect to the Agent Defendants’ due process arguments,
we and other courts have upheld the constitutionality of FISA’s in
camera and ex parte procedures with regard to criminal defendants.
See United States v. Abu-Jihaad, 630 F.3d 102, 117-29 (2d Cir. 2010);
United States v. Damrah, 412 F.3d 618, 625 (6th Cir. 2005); United
States v. Ott, 827 F.2d 473, 476-77, 477 n.5 (9th Cir. 1987); United
31

66a
E.

Aggrieved Persons

We now consider more specifically whether FISA’s
§ 1806(f ) procedures may be used in this case. Because
the procedures apply when evidence will be introduced
“against an aggrieved person,” 50 U.S.C. § 1806(c), and
when “any motion or request is made by an aggrieved
person,” id. § 1806(f ), Plaintiffs must satisfy the definition of an “aggrieved person,” see id. § 1801(k).
We addressed the “aggrieved person” requirement in
part in the discussion of Plaintiffs’ § 1810 claim against
the Agent Defendants. As we there explained, because
Fazaga had a reasonable expectation of privacy in his
office, and AbdelRahim had a reasonable expectation of
privacy in his home, car, and phone, Plaintiffs are properly considered aggrieved persons as to those categories of surveillance. See supra Part I.C. And although
we noted that the Agent Defendants are entitled to qualified immunity on Plaintiffs’ FISA § 1810 claim with respect to the recording of conversation in the mosque
prayer halls, Plaintiffs had a reasonable expectation of
privacy in those conversations and thus are still
properly considered aggrieved persons as to that category of surveillance as well. See supra Part I.B.
Again, because Plaintiffs are properly considered “aggrieved” for purposes of FISA, two of the situations referenced in § 1806(f ) are directly applicable here. The Government intends to use “information obtained or derived
from an electronic surveillance” against Plaintiffs, who are
States v. Belfield, 692 F.2d 141, 148-49 (D.C. Cir. 1982); United
States v. Nicholson, 955 F. Supp. 588, 590-92, 590 n.3 (E.D. Va. 1997)
(collecting cases). Individual defendants in a civil suit are not entitled to more stringent protections than criminal defendants.

67a
“aggrieved person[s].” 50 U.S.C. § 1806(c). And Plaintiffs are “aggrieved person[s]” who have attempted “to
discover or obtain applications or orders or other materials relating to electronic surveillance.” Id. § 1806(f ).
*

*

*

*

We next turn to considering whether the claims other
than the FISA § 1810 claim must be dismissed for reasons independent of the state secrets privilege, limiting
ourselves to the arguments for dismissal raised in Defendants’ motions to dismiss.
III. Search Claims

In this part, we discuss (1) the Fourth Amendment
injunctive relief claim against the official-capacity defendants; and (2) the Fourth Amendment Bivens claim
against the Agent Defendants.
A.

Fourth Amendment Injunctive Relief Claim
Against the Official-Capacity Defendants

The Government’s primary argument for dismissal of
the constitutional claims brought against the officialcapacity defendants, including the Fourth Amendment
claim, is that the injunctive relief sought—the expungement
of all records unconstitutionally obtained and maintained
—is unavailable under the Constitution. Not so.
We have repeatedly and consistently recognized that
federal courts can order expungement of records, criminal and otherwise, to vindicate constitutional rights. 32
See, e.g., United States v. Sumner, 226 F.3d 1005, 1012 (9th Cir.
2000) (“A district court has the power to expunge a criminal record
under . . . the Constitution itself.”); Burnsworth v. Gunderson,
179 F.3d 771, 775 (9th Cir. 1999) (holding that expungement of an
32

68a
The Privacy Act, 5 U.S.C. § 552a, which (1) establishes
a set of practices governing the collection, maintenance,
use, and dissemination of information about individuals
maintained in records systems by federal agencies, and
(2) creates federal claims for relief for violations of the
Act’s substantive provisions, does not displace the availability of expungement relief under the Constitution. 33
escape conviction from prison records was an appropriate remedy
for a due process violation); Norman-Bloodsaw v. Lawrence Berkeley Lab., 135 F.3d 1260, 1275 (9th Cir. 1998) (explaining that expungement of unconstitutionally obtained medical records “would be
an appropriate remedy for the alleged violation”); United States v.
Smith, 940 F.2d 395, 396 (9th Cir. 1991) (per curiam) (explaining that
“recognized circumstances supporting expunction” include an unlawful or invalid arrest or conviction and government misconduct);
Fendler v. U.S. Parole Comm’n, 774 F.2d 975, 979 (9th Cir. 1985)
(“Federal courts have the equitable power ‘to order the expungement of Government records where necessary to vindicate rights secured by the Constitution or by statute.’ ” (quoting Chastain v. Kelley, 510 F.2d 1232, 1235 (D.C. Cir. 1975))); Maurer v. Pitchess, 691
F.2d 434, 437 (9th Cir. 1982) (“It is well settled that the federal
courts have inherent equitable power to order ‘the expungement of
local arrest records as an appropriate remedy in the wake of police
action in violation of constitutional rights.’ ” (quoting Sullivan v.
Murphy, 478 F.2d 938, 968 (D.C. Cir. 1973))); Shipp v. Todd, 568
F.2d 133, 134 (9th Cir. 1978) (“It is established that the federal
courts have inherent power to expunge criminal records when necessary to preserve basic legal rights.” (quoting United States v.
McMains, 540 F.2d 387, 389 (8th Cir. 1976))).
33
The cases cited by the Government to the contrary are inapposite. See City of Milwaukee, 451 U.S. at 314-16 (addressing the
congressional displacement of federal common law through legislation, not the elimination of injunctive remedies available under the
Constitution); Bush v. Lucas, 462 U.S. 367, 386-88 (1983) (discussing preclusion of a Bivens claim for damages where Congress had
already designed a comprehensive remedial scheme, not whether a
statute can displace a recognized constitutional claim for injunctive

69a
Previous cases involving claims brought under both the
Privacy Act and the Constitution did not treat the Privacy Act as displacing a constitutional claim, but instead
analyzed the claims separately. 34 And the circuits that
have directly considered whether the Privacy Act displaces parallel constitutional remedies have all concluded that a plaintiff may pursue a remedy under both
the Constitution and the Privacy Act. 35
In addition to its Privacy Act displacement theory,
the Government contends that even if expungement relief is otherwise available under the Constitution, it is
not available here, as Plaintiffs “advance no plausible
claim of an ongoing constitutional violation.” Again,
we disagree.

relief); Ctr. for Nat’l Sec. Studies v. U.S. Dep’t of Justice, 331 F.3d
918, 936-37 (D.C. Cir. 2003) (discussing the displacement of a common law right of access to public records by the Freedom of Information Act in a case not involving the Privacy Act or a claim for
injunctive relief from an alleged ongoing constitutional violation).
34
See Hewitt v. Grabicki, 794 F.2d 1373, 1377, 1380 (9th Cir. 1986)
(addressing separately a claim for damages under the Privacy Act
and a procedural due process claim); Fendler, 774 F.2d at 979 (considering a prisoner’s Privacy Act claims and then, separately, his
claim for expungement relief under the Constitution).
35
See Abdelfattah v. U.S. Dep’t of Homeland Sec., 787 F.3d 524,
534 (D.C. Cir. 2015) (“We have repeatedly recognized a plaintiff may
request expungement of agency records for both violations of the
Privacy Act and the Constitution.”); Clarkson v. IRS, 678 F.2d 1368,
1376 n.13 (11th Cir. 1982) (“[W]e of course do not intend to suggest
that the enactment of the Privacy Act in any way precludes a plaintiff from asserting a constitutional claim for violation of his privacy
or First Amendment rights. Indeed, several courts have recognized that a plaintiff is free to assert both Privacy Act and constitutional claims.”).

70a
This court has been clear that a determination that
records were obtained and retained in violation of the
Constitution supports a claim for expungement relief of
existing records so obtained. As Norman-Bloodsaw
explained:
Even if the continued storage, against plaintiffs’
wishes, of intimate medical information that was allegedly taken from them by unconstitutional means
does not itself constitute a violation of law, it is clearly
an ongoing “effect” of the allegedly unconstitutional
and discriminatory testing, and expungement of the
test results would be an appropriate remedy for the
alleged violation. . . . At the very least, the retention of undisputedly intimate medical information
obtained in an unconstitutional and discriminatory
manner would constitute a continuing “irreparable
injury” for purposes of equitable relief.
135 F.3d at 1275; see also Wilson v. Webster, 467 F.2d
1282, 1283-84 (9th Cir. 1972) (holding that plaintiffs had
a right to show that records of unlawful arrests “should
be expunged, for their continued existence may seriously and unjustifiably serve to impair fundamental
rights of the persons to whom they relate”).
In short, expungement relief is available under the
Constitution to remedy the alleged constitutional violations. 36 Because the Government raises no other argument for dismissal of the Fourth Amendment injunctive
relief claim, it should not have been dismissed.

We do not at this stage, of course, address whether Plaintiffs are
actually entitled to such a remedy.
36

71a
B.

Fourth Amendment Bivens Claim Against the
Agent Defendants

Alleging that the Agent Defendants violated the
Fourth Amendment, Plaintiffs seek monetary damages
directly under the Constitution under Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics,
403 U.S. 388 (1971). In Bivens, the Supreme Court
“recognized for the first time an implied private action
for damages against federal officers alleged to have violated a citizen’s constitutional rights.” Corr. Servs. Corp.
v. Malesko, 534 U.S. 61, 66 (2001). “The purpose of
Bivens is to deter individual federal officers from committing constitutional violations.” Id. at 70.
Bivens itself concerned a Fourth Amendment violation by federal officers. As we have recognized, a Fourth
Amendment damages claim premised on unauthorized
electronic surveillance by FBI agents and their surrogates “fall[s] directly within the coverage of Bivens.”
Gibson v. United States, 781 F.2d 1334, 1341 (9th Cir.
1986); see also Mitchell v. Forsyth, 472 U.S. 511, 513
(1985) (considering, under Bivens, an alleged “warrantless wiretap” conducted in violation of the Fourth
Amendment). Recent cases, however, have severely
restricted the availability of Bivens actions for new
claims and contexts. See Ziglar v. Abbasi, 137 S. Ct.
1843, 1856-57 (2017). 37
Here, the substance of Plaintiffs’ Fourth Amendment
Bivens claim is identical to the allegations raised in their
FISA § 1810 claim. Under our rulings regarding the
reach of the § 1806(f ) procedures, almost all of the
The parties have not briefed before us the impact of Abbasi on
the Bivens claims.
37

72a
search-and-seizure allegations will be subject to those
procedures. Thus, regardless of whether a Bivens remedy is available, Plaintiffs’ underlying claim—that the
Agent Defendants engaged in unlawful electronic surveillance violative of the Fourth Amendment—would
proceed in the same way.
Moreover, if the Fourth Amendment Bivens claim
proceeds, the Agent Defendants are entitled to qualified
immunity on Plaintiffs’ Fourth Amendment Bivens
claim to the same extent they are entitled to qualified
immunity on Plaintiffs’ FISA claim. In both instances,
the substantive law derives from the Fourth Amendment, and in both instances, government officials in
their individual capacity are subject to liability for damages only if they violated a clearly established right to
freedom from governmental intrusion where an individual has a reasonable expectation of privacy. See supra
Part I.B. Under our earlier rulings, the FISA searchand-seizure allegations may proceed against only two of
the Agent Defendants, and only with respect to a narrow
aspect of the alleged surveillance.
In light of the overlap between the Bivens claim and
the narrow range of the remaining FISA claim against
the Agent Defendants that can proceed, it is far from
clear that Plaintiffs will continue to press this claim.
We therefore decline to address whether Plaintiffs’
Bivens claim remains available after the Supreme
Court’s decision in Abbasi. On remand, the district
court may determine—if necessary—whether a Bivens
remedy is appropriate for any Fourth Amendment claim
against the Agent Defendants.

73a
IV. Religion Claims

The other set of Plaintiffs’ claims arise from their allegation that they were targeted for surveillance solely
because of their religion. 38 In this part, we discuss
Plaintiffs’ (1) First and Fifth Amendment injunctive relief claims against the official-capacity defendants; (2)
First and Fifth Amendment Bivens claims against the
Agent Defendants; (3) § 1985(3) claims for violations of
the Free Exercise Clause, Establishment Clause, and
equal protection guarantee; (4) RFRA claim; (5) Privacy
Act claim; and (6) FTCA claims. Our focus throughout
is whether there are grounds for dismissal independent
of the Government’s invocation of the state secrets privilege.
A.

First Amendment and Fifth Amendment
Injunctive Relief Claims Against the OfficialCapacity Defendants

Plaintiffs maintain that it violates the First Amendment’s Religion Clauses and the equal protection component of the Fifth Amendment for the Government to
target them for surveillance because of their adherence
to and practice of Islam. The Government does not
challenge the First and Fifth Amendment claims substantively. It argues only that injunctive relief is unavailable and that litigating the claims is not possible
without risking the disclosure of state secrets. We
have already concluded that injunctive relief, including
expungement, is available under the Constitution where
there is a substantively viable challenge to government
The operative complaint alleges as a factual matter that Plaintiffs were surveilled solely because of their religion. We limit our
legal discussion to the facts there alleged.
38

74a
action, see supra Part III.A, and that dismissal because
of the state secrets concern was improper because of the
availability of the § 1806(f ) procedures, see supra Part
II. Accordingly, considering only the arguments put
forward by the Government, we conclude that the First
and Fifth Amendment claims against the official-capacity
defendants may go forward.
B.

First Amendment and Fifth Amendment Bivens
Claims Against the Agent Defendants

Plaintiffs seek monetary damages directly under the
First Amendment’s Establishment and Free Exercise
Clauses and the equal protection component of the Fifth
Amendment’s Due Process Clause, relying on Bivens v.
Six Unknown Named Agents.
We will not recognize a Bivens claim where there is
“ ‘any alternative, existing process for protecting’ the
plaintiff’s interests.” W. Radio Servs. Co. v. U.S. Forest Serv., 578 F.3d 1116, 1120 (9th Cir. 2009) (quoting
Wilkie v. Robbins, 551 U.S. 537, 550 (2007)). The existence of such an alternative remedy raises the inference that Congress “ ‘expected the Judiciary to stay its
Bivens hand’ and ‘refrain from providing a new and freestanding remedy in damages.’ ” Id. (quoting Wilkie,
551 U.S. at 550, 554); see also Abbasi, 137 S. Ct. at 1863;
Schweiker v. Chilicky, 487 U.S. 412, 423 (1988). Accordingly, we “refrain[] from creating a judicially implied
remedy even when the available statutory remedies ‘do
not provide complete relief ’ for a plaintiff that has suffered a constitutional violation.” W. Radio Servs., 578
F.3d at 1120 (quoting Malesko, 534 U.S. at 69). As long
as “an avenue for some redress” exists, “bedrock princi-

75a
ples of separation of powers forclose[s] judicial imposition of a new substantive liability.’ ” Id. (alteration in
original) (quoting Malesko, 534 U.S. at 69).
Here, we conclude that the Privacy Act, 5 U.S.C.
§ 552a, and the Religious Freedom Restoration Act, 42
U.S.C. § 2000bb et seq., taken together, provide an alternative remedial scheme for some, but not all, of Plaintiffs’ First and Fifth Amendment Bivens claims. As to
the remaining Bivens claims, we remand to the district
court to decide whether a Bivens remedy is available in
light of the Supreme Court’s decision in Abbasi.
As to the collection and maintenance of records,
Plaintiffs could have, and indeed did, challenge the
FBI’s surveillance of them under the Privacy Act’s remedial scheme. Again, the Privacy Act, 5 U.S.C. § 552a,
creates a set of rules governing how such records should
be kept by federal agencies. See supra Part III.A.
Under § 552a(e)(7), an “agency that maintains a system
of records shall maintain no record describing how any
individual exercises rights guaranteed by the First
Amendment unless expressly authorized by statute or
by the individual about whom the record is maintained
or unless pertinent to and within the scope of an authorized law enforcement activity.” 39 When an agency fails
to comply with § 552a(e)(7), an individual may bring a
civil action against the agency for damages.
Id.
§ 552a(g)(1)(D), (g)(4). Thus, § 552a(e)(7) limits the
government’s ability to collect, maintain, use, or disseminate information on an individual’s religious activity
protected by the First Amendment’s Religion Clauses.
The term “maintain” is defined to mean “maintain, collect, use,
or disseminate.” 5 U.S.C. § 552a(a)(3).
39

76a
We have not addressed the availability of a Bivens
action where the Privacy Act may be applicable. But
two other circuits have, and both held that the Privacy
Act supplants Bivens claims for First and Fifth Amendment violations. See Wilson v. Libby, 535 F.3d 697,
707-08 (D.C. Cir. 2008) (holding, in response to claims
alleging harm from the improper disclosure of information subject to the Privacy Act’s protections, that the
Privacy Act is a comprehensive remedial scheme that
precludes an additional Bivens remedy); Downie v. City
of Middleburg Heights, 301 F.3d 688, 696 & n.7 (6th Cir.
2002) (holding that the Privacy Act displaces Bivens for
claims involving the creation, maintenance, and dissemination of false records by federal agency employees).
We agree with the analyses in Wilson and Downie.
Although the Privacy Act provides a remedy only
against the FBI, not the individual federal officers, the
lack of relief against some potential defendants does not
disqualify the Privacy Act as an alternative remedial
scheme. Again, a Bivens remedy may be foreclosed
“even when the available statutory remedies ‘do not provide complete relief ’ for a plaintiff,” as long as “the
plaintiff ha[s] an avenue for some redress.” W. Radio
Servs., 578 F.3d at 1120 (alteration in original) (emphasis added) (quoting Malesko, 534 U.S. at 69). Thus, to
the extent that Plaintiffs’ Bivens claims involve improper
collection and retention of agency records, the Privacy
Act precludes such Bivens claims.
As to religious discrimination more generally, we
conclude that RFRA precludes some, but not all, of Plaintiffs’ Bivens claims. RFRA provides that absent a “compelling governmental interest” and narrow tailoring,

77a
42 U.S.C. § 2000bb-1(b), the “Government shall not substantially burden a person’s exercise of religion even
if the burden results from a rule of general applicability.” Id. § 2000bb-1(a). The statute was enacted “to
provide a claim or defense to persons whose religious
exercise is substantially burdened by government.”
Id. § 2000bb(b)(2). It therefore provided that “[a] person whose religious exercise has been burdened in violation of this section may assert that violation as a claim
or defense in a judicial proceeding and obtain appropriate relief against a government.” Id. § 2000bb-1(c).
RFRA thus provides a means for Plaintiffs to seek relief
for the alleged burden of the surveillance itself on their
exercise of their religion.
RFRA does not, however, provide an alternative remedial scheme for all of Plaintiffs’ discrimination-based
Bivens claims. RFRA was enacted in response to Employment Division v. Smith, 494 U.S. 872 (1990), which,
in Congress’s view, “virtually eliminated the requirement that the government justify burdens on religious
exercise imposed by laws neutral toward religion,” 42
U.S.C. § 2000bb(a)(4). Accordingly, “to restore the
compelling interest test . . . and to guarantee its application in all cases where free exercise of religion is
substantially burdened,” id. § 2000bb(b)(1), RFRA directs its focus on “rule[s] of general applicability” that
“substantially burden a person’s exercise of religion,”
id. § 2000bb-1(a).
Here, many of Plaintiffs’ allegations relate not to
neutral and generally applicable government action, but
to conduct motivated by intentional discrimination against
Plaintiffs because of their Muslim faith. Regardless of
the magnitude of the burden imposed, “if the object of a

78a
law is to infringe upon or restrict practices because of
their religious motivation, the law is not neutral” and “is
invalid unless it is justified by a compelling interest and
is narrowly tailored to advance that interest.” Church
of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508
U.S. 520, 533 (1993) (emphasis added). It is the Free
Exercise Clause of the First Amendment—not RFRA—
that imposes this requirement.
Moreover, by its terms, RFRA applies only to the
“free exercise of religion,” 42 U.S.C. § 2000bb(a)(1); indeed, it expressly disclaims any effect on “that portion
of the First Amendment prohibiting laws respecting the
establishment of religion,” id. § 2000bb-4. But intentional religious discrimination is “subject to heightened
scrutiny whether [it] arise[s] under the Free Exercise
Clause, the Establishment Clause, or the Equal Protection Clause.” Colo. Christian Univ. v. Weaver, 534
F.3d 1245, 1266 (10th Cir. 2008) (citations omitted).
Here, Plaintiffs have raised religion claims based on all
three constitutional provisions. Because RFRA does
not provide an alternative remedial scheme for protecting these interests, we conclude that RFRA does not
preclude Plaintiffs’ religion-based Bivens claims.
We conclude that the Privacy Act and RFRA, taken
together, function as an alternative remedial scheme for
protecting some, but not all, of the interests Plaintiffs
seek to vindicate via their First and Fifth Amendment
Bivens claims. The district court never addressed
whether a Bivens remedy is available for any of the religion claims because it dismissed the claims in their entirety based on the state secrets privilege. In addition,
Abbasi has now clarified the standard for determining

79a
when a Bivens remedy is available for a particular alleged constitutional violation. And, as we have explained, the scope of the religion claims to which a
Bivens remedy might apply is considerably narrower
than those alleged, given the partial displacement by the
Privacy Act and RFRA. If asked, the district court
should determine on remand, applying Abbasi, whether
a Bivens remedy is available to the degree the damages
remedy is not displaced by the Privacy Act and RFRA.
C.

42 U.S.C. § 1985(3) Claims Against the Agent
Defendants

Plaintiffs allege that the Agent Defendants conspired
to deprive Plaintiffs of their rights under the First
Amendment’s Establishment and Free Exercise Clauses
and the due process guarantee of the Fifth Amendment,
in violation of 42 U.S.C. § 1985(3).
To state a violation of § 1985(3), Plaintiffs must “allege and prove four elements”:
(1) a conspiracy; (2) for the purpose of depriving, either directly or indirectly, any person or class of persons of the equal protection of the laws, or of equal
privileges and immunities under the laws; and (3) an
act in furtherance of the conspiracy; (4) whereby a
person is either injured in his person or property or
deprived of any right or privilege of a citizen of the
United States.
United Bhd. of Carpenters & Joiners of Am., Local 610
v. Scott, 463 U.S. 825, 828-29 (1983). The Defendants
attack these claims on various grounds, but we reach only
one—whether § 1985(3) conspiracies among employees
of the same government entity are barred by the intracorporate conspiracy doctrine.

80a
Abbasi makes clear that intracorporate liability was
not clearly established at the time of the events in this
case and that the Agent Defendants are therefore entitled to qualified immunity from liability under § 1985(3).
See 137 S. Ct. at 1866.
In Abbasi, men of Arab and South Asian descent detained in the aftermath of September 11 sued two wardens of the federal detention center in Brooklyn in
which they were held, along with several high-level Executive Branch officials who were alleged to have authorized their detention. Id. at 1853. They alleged,
among other claims, a conspiracy among the defendants
to deprive them of the equal protection of the laws under
§ 1985(3). 40 Id. at 1853-54. Abbasi held that, even assuming these allegations to be “true and well pleaded,”
the defendants were entitled to qualified immunity on
the § 1985(3) claim. Id. at 1866-67. It was not “clearly
established” at the time, the Court held, that the intracorporate conspiracy doctrine did not bar § 1985(3) liability for employees of the same government department who conspired among themselves. Id. at 1867-68.
“[T]he fact that the courts are divided as to whether or
not a § 1985(3) conspiracy can arise from official discussions between or among agents of the same entity
demonstrates that the law on the point is not well established.” Id. at 1868. “[R]easonable officials in petitioners’ positions would not have known, and could not

Specifically, Plaintiffs alleged that these officials “conspired
with one another to hold respondents in harsh conditions because of
their actual or apparent race, religion, or national origin.” Abbasi,
137 S. Ct. at 1854.
40

81a
have predicted, that § 1985(3) prohibited their joint consultations.” Id. at 1867. The Court declined, however, to resolve the issue on the merits. Id.
Abbasi controls. Although the underlying facts here
differ from those in Abbasi, the dispositive issue here,
as in Abbasi, is whether the Agent Defendants could
reasonably have known that agreements entered into or
agreed-upon policies devised with other employees of
the FBI could subject them to conspiracy liability under
§ 1985(3). At the time Plaintiffs allege they were surveilled, neither this court nor the Supreme Court had
held that an intracorporate agreement could subject
federal officials to liability under § 1985(3), and the circuits that had decided the issue were split. 41 There was
therefore, as in Abbasi, no clearly established law on the
question. As the Agent Defendants are entitled to
qualified immunity on the § 1985(3) allegations in the
complaint, we affirm their dismissal on that ground.

Two circuits have held that the intracorporate conspiracy doctrine does not extend to civil rights cases. See Brever v. Rockwell
Int’l Corp., 40 F.3d 1119, 1127 (10th Cir. 1994); Novotny v. Great
Am. Fed. Sav. & Loan Ass’n, 584 F.2d 1235, 1257-58 (3d Cir. 1978)
(en banc), vacated on other grounds, 442 U.S. 366 (1979); see also
Stathos v. Bowden, 728 F.2d 15, 20-21 (1st Cir. 1984) (expressing
“doubt” that the intracorporate conspiracy doctrine extends to conspiracy under § 1985(3)). The majority of the circuits have reached
a contrary result. See Hartline v. Gallo, 546 F.3d 95, 99 n.3 (2d Cir.
2008); Meyers v. Starke, 420 F.3d 738, 742 (8th Cir. 2005); Dickerson
v. Alachua Cty. Comm’n, 200 F.3d 761, 767-68 (11th Cir. 2000); Benningfield v. City of Houston, 157 F.3d 369, 378 (5th Cir. 1998);
Wright v. Ill. Dep’t of Children & Family Servs., 40 F.3d 1492, 1508
(7th Cir. 1994); Hull v. Cuyahoga Valley Joint Vocational Sch. Dist.
Bd. of Educ., 926 F.2d 505, 509-10 (6th Cir. 1991); Buschi v. Kirven,
775 F.2d 1240, 1252-53 (4th Cir. 1985).
41

82a
D.

Religious Freedom Restoration Act Claim
Against the Agent Defendants and Government
Defendants

Plaintiffs allege that the Defendants violated the Religious Freedom Restoration Act, 42 U.S.C. § 2000bb, by
substantially burdening Plaintiffs’ exercise of religion,
and did so neither in furtherance of a compelling governmental interest nor by adopting the least restrictive
means of furthering any such interest. The Government Defendants offer no argument for dismissal of the
RFRA claim other than the state secrets privilege.
The Agent Defendants, however, contend that they are
entitled to qualified immunity on the RFRA claim because Plaintiffs failed to plead a substantial burden on
their religion, and if they did so plead, no clearly established law supported that conclusion at the relevant
time. 42
To establish a prima facie claim under RFRA, a plaintiff must “present evidence sufficient to allow a trier of
fact rationally to find the existence of two elements.”
Navajo Nation v. U.S. Forest Serv., 535 F.3d 1058, 1068
(9th Cir. 2008) (en banc). “First, the activities the
42
The parties do not dispute that qualified immunity is an available defense to a RFRA claim. We therefore assume it is. See Padilla v. Yoo, 678 F.3d 748, 768 (9th Cir. 2012); Lebron v. Rumsfeld,
670 F.3d 540, 560 (4th Cir. 2012).
Tidwell and Walls also contend that Plaintiffs’ RFRA claim was
properly dismissed because RFRA does not permit damages suits
against individual-capacity defendants. Because we affirm dismissal on another ground, we do not reach that issue. We note, however, that at least two other circuits have held that damages are
available for RFRA suits against individual-capacity defendants.
See Tanvir v. Tanzin, 894 F.3d 449, 467 (2d Cir. 2018); Mack v. Warden Loretto FCI, 839 F.3d 286, 302 (3d Cir. 2016).

83a
plaintiff claims are burdened by the government action
must be an ‘exercise of religion.’ ” Id. (quoting 42 U.S.C.
§ 2000bb-1(a)). “Second, the government action must
‘substantially burden’ the plaintiff’s exercise of religion.” Id. Once a plaintiff has established those elements, “the burden of persuasion shifts to the government to prove that the challenged government action is
in furtherance of a ‘compelling governmental interest’
and is implemented by ‘the least restrictive means.’ ”
Id. (quoting 42 U.S.C. § 2000bb-1(b)).
“Under RFRA, a ‘substantial burden’ is imposed only
when individuals are forced to choose between following
the tenets of their religion and receiving a governmental
benefit . . . or coerced to act contrary to their
religious beliefs by the threat of civil or criminal sanctions. . . . ” Id. at 1069-70; see also Oklevueha Native Am. Church of Haw., Inc. v. Lynch, 828 F.3d 1012,
1016 (9th Cir. 2016). An effect on an individual’s “subjective, emotional religious experience” does not constitute a substantial burden, Navajo Nation, 535 F.3d at
1070, nor does “a government action that decreases the
spirituality, the fervor, or the satisfaction with which a
believer practices his religion,” id. at 1063.
Plaintiffs do allege that they altered their religious
practices as a result of the FBI’s surveillance: Malik
trimmed his beard, stopped regularly wearing a skull
cap, decreased his attendance at the mosque, and became less welcoming to newcomers than he believes his
religion requires. AbdelRahim “significantly decreased
his attendance to mosque,” limited his donations to
mosque institutions, and became less welcoming to newcomers than he believes his religion requires. Fazaga,
who provided counseling at the mosque as an imam and

84a
an intern therapist, stopped counseling congregants at
the mosque because he feared the conversations would
be monitored and thus not confidential.
But it was not clearly established in 2006 or 2007 that
covert surveillance conducted on the basis of religion
would meet the RFRA standards for constituting a substantial religious burden on individual congregants.
There simply was no case law in 2006 or 2007 that would
have put the Agent Defendants on notice that covert
surveillance on the basis of religion could violate RFRA.
And at least two cases from our circuit could be read to
point in the opposite direction, though they were
brought under the First Amendment’s Religion Clauses
rather than under RFRA. See Vernon v. City of Los
Angeles, 27 F.3d 1385, 1394 (9th Cir. 1994); Presbyterian Church, 870 F.2d at 527. 43
Presbyterian Church concerned an undercover investigation by INS of the sanctuary movement. 870
F.2d at 520. Over nearly a year, several INS agents
infiltrated four churches in Arizona, attending and secretly recording church services. Id. The covert surveillance was later publicly disclosed in the course of
criminal proceedings against individuals involved with
the sanctuary movement. Id. The four churches
Presbyterian Church predates Employment Division v. Smith,
which declined to use the compelling interest test from Sherbert v.
Verner, 374 U.S. 398 (1963). Smith, 494 U.S. at 883-85. The other
case, Vernon, postdates RFRA, which in 1993 restored Sherbert’s
compelling interest test. See 27 F.3d at 1393 n.1; see also 42 U.S.C.
§ 2000bb(b). Although the compelling interest balancing test was
in flux during this period, the notion that a burden on religious practice was required to state a claim was not. RFRA continued the
same substantial burden standard as was required by the constitutional cases. See Vernon, 27 F.3d at 1393.
43

85a
brought suit, alleging a violation of their right to free
exercise of religion. Id. We held that the individual
INS agents named as defendants were entitled to qualified immunity because there was “no support in the
preexisting case law” to suggest that “it must have been
apparent to INS officials that undercover electronic surveillance of church services without a warrant and without probable cause violated the churches’ clearly established rights under the First . . . Amendment[].”
Id. at 527.
In Vernon, the Los Angeles Police Department
(“LAPD”) investigated Vernon, the Assistant Chief of
Police of the LAPD, in response to allegations that
Vernon’s religious beliefs had interfered with his ability
or willingness to fairly perform his official duties. 27
F.3d at 1389. Vernon filed a § 1983 action, maintaining
that the preinvestigation activities and the investigation
itself violated the Free Exercise Clause. Id. at 1390.
In his complaint, Vernon alleged that the investigation
“chilled [him] in the exercise of his religious beliefs,
fearing that he can no longer worship as he chooses, consult with his ministers and the elders of his church, participate in Christian fellowship and give public testimony to his faith without severe consequences.” Id. at
1394. We held that Vernon failed to demonstrate a substantial burden on his religious observance and so affirmed the district court’s dismissal of his free exercise
claim. Id. at 1395. We noted that Vernon “failed to
show any concrete and demonstrable injury.”
Id.
“Vernon complain[ed] that the existence of a government investigation has discouraged him from pursuing
his personal religious beliefs and practices—in other
words, mere subjective chilling effects with neither ‘a
claim of specific present objective harm [n]or a threat of

86a
specific future harm.’ ”
408 U.S. 1, 14 (1972)).

Id. (quoting Laird v. Tatum,

Vernon and Presbyterian Church were decided before the surveillance Plaintiffs allege substantially burdened their exercise of religion. Both cases cast doubt
upon whether surveillance such as that alleged here constitutes a substantial burden upon religious practice.
There is no pertinent case law indicating otherwise. It
was therefore not clearly established in 2006 or 2007
that Defendants’ actions violated Plaintiffs’ freedom of
religion, protected by RFRA. 44
As to the Agent Defendants, therefore, we affirm the
dismissal of the RFRA claim. But because the Government Defendants are not subject to the same qualified
immunity analysis and made no arguments in support of
dismissing the RFRA claim other than the state secrets
privilege, we hold that the complaint substantively
states a RFRA claim against the Government Defendants. 45

44
These cases may not, however, entitle the Agent Defendants to
qualified immunity as to claims involving intentional discrimination
based on Plaintiffs’ religion. As we noted, see supra Part IV.B, we
are not deciding whether there is an available Bivens action for those
claims. As we decline to anticipate whether Plaintiffs will pursue
their Bivens claims on the religious discrimination issues and, if so,
whether the claims will be allowed to go forward, we leave any surviving qualified immunity issue for the district court to decide in the
first instance.
45
We do not address any other defenses the Government Defendants may raise before the district court in response to Plaintiffs’
RFRA claim.

87a
E.

Privacy Act Claim Against the FBI

Plaintiffs allege that the FBI violated the Privacy
Act, 5 U.S.C. § 552a(e)(7), 46 by collecting and maintaining records describing how Plaintiffs exercised their
First Amendment rights. As a remedy, Plaintiffs seek
only injunctive relief ordering the destruction or return
of unlawfully obtained information. Cell Associates,
Inc. v. National Institutes of Health, 579 F.2d 1155 (9th
Cir. 1978), which interpreted the scope of Privacy Act
remedies, precludes such injunctive relief.
The “Civil remedies” section of the Privacy Act,
5 U.S.C. § 552a(g), lists four types of agency misconduct
and the remedies applicable to each. The statute expressly provides that injunctive relief is available when
an agency improperly denies a request to amend or disclose an individual’s record, see 5 U.S.C. § 552a(g)(1)(A),
(2)(A), (1)(B), (3)(A), but provides only for damages
when the agency “fails to maintain any record” with the
“accuracy, relevance, timeliness, and completeness” required for fairness, id. § 552a(g)(1)(C), or if the agency
“fails to comply with any other provision” of the Privacy
Act, id. § 552a(g)(1)(D). See id. § 552a(g)(4). Cell Associates concluded that this distinction was purposeful
—that is, that Congress intended to limit the availability

The header to Plaintiffs’ Eighth Cause of Action reads broadly,
“Violation of the Privacy Act, 5 U.S.C. § 552a(a)-(l).” As actually
pleaded and briefed, however, the substance of Plaintiffs’ Privacy
Act claim is limited to § 552a(e)(7). The complaint states that “Defendant FBI . . . collected and maintained records . . . in
violation of 5 U.S.C. § 552a(e)(7).” And Plaintiffs’ reply brief states
that they “seek expungement . . .
under 5 U.S.C. § 552a(e)(7).”
46

88a
of injunctive relief to the categories of agency misconduct for which injunctive relief was specified as a remedy:
The addition of a right to injunctive relief for one type
of violation, coupled with the failure to provide injunctive relief for another type of violation, suggests
that Congress knew what it was about and intended
the remedies specified in the Act to be exclusive.
While the right to damages might seem an inadequate safeguard against unwarranted disclosures of
agency records, we think it plain that Congress limited injunctive relief to the situations described in 5
U.S.C. § 552a(g)(1)(A) and (2) and (1)(B) and (3).
579 F.2d at 1161.
A violation of § 552a(e)(7) falls within the catch-all
remedy provision, applicable if the agency “fails to comply with any other provision” of the Privacy Act. 5 U.S.C.
§ 552a(g)(1)(D). As the statute does not expressly provide for injunctive relief for a violation of this catch-all
provision, Cell Associates precludes injunctive relief for
a violation of § 552a(e)(7).
Plaintiffs attempt to avoid the precedential impact of
Cell Associates on the ground that it “nowhere mentions
Section 552a(e)(7).” That is so, but the holding of Cell
Associates nonetheless applies directly to this case.
The Privacy Act specifies that injunctive relief is available for violations of some provisions of the Act, but not
for a violation of § 552a(e)(7). Under Cell Associates,

89a
Plaintiffs cannot obtain injunctive relief except for violations as to which such relief is specifically permitted. 47
Plaintiffs’ complaint expressly provides that “[t]he
FBI is sued for injunctive relief only.” Accordingly,
because their sole requested remedy is unavailable,
Plaintiffs fail to state a claim under the Privacy Act.
F.

FTCA Claims

The FTCA constitutes a waiver of sovereign immunity “under circumstances where the United States, if a
private person, would be liable to the claimant in accordance with the law of the place where the act or omission
occurred.” 28 U.S.C. § 1346(b)(1). “State substantive
law applies” in FTCA actions. Liebsack v. United
States, 731 F.3d 850, 856 (9th Cir. 2013). If an individual federal employee is sued, the United States shall,
given certain conditions are satisfied, “be substituted as
the party defendant.” 28 U.S.C. § 2679(d)(1).
Plaintiffs allege that the United States is liable under
the FTCA for invasion of privacy under California law,
violation of the California constitutional right to privacy,
violation of California Civil Code § 52.1, and intentional
infliction of emotional distress. We first consider Defendants’ jurisdictional arguments, and then discuss
their implications for the substantive FTCA claims.

Plaintiffs also argue that MacPherson v. IRS, 803 F.2d 479 (9th
Cir. 1986) is “binding Ninth Circuit authority . . . [that] makes
clear that courts have authority to order expungement of records
maintained in violation of its [§ 552a(e)(7)] requirements.” But
MacPherson does not state whether the plaintiff there sought injunctive relief and so is unclear on this point.
47

90a
1. FTCA Judgment Bar
The FTCA’s judgment bar provides that “[t]he judgment in an action under [the FTCA] shall constitute a
complete bar to any action by the claimant, by reason of
the same subject matter, against the employee of the
government whose act or omission gave rise to the
claim.” 28 U.S.C. § 2676. The judgment bar provision
has no application here.
The judgment bar provision precludes claims against
individual defendants in two circumstances: (1) where
a plaintiff brings an FTCA claim against the government and non-FTCA claims against individual defendants in the same action and obtains a judgment against
the government, see Kreines v. United States, 959 F.2d
834, 838 (9th Cir. 1992); and (2) where the plaintiff
brings an FTCA claim against the government, judgment is entered in favor of either party, and the plaintiff
then brings a subsequent non-FTCA action against individual defendants, see Gasho v. United States, 39 F.3d
1420, 1437-38 (9th Cir. 1994); Ting v. United States, 927
F.2d 1504, 1513 n.10 (9th Cir. 1991). The purposes of
this judgment bar are “to prevent dual recoveries,”
Kreines, 959 F.2d at 838, to “serve[] the interests of judicial economy,” and to “foster more efficient settlement
of claims,” by “encourag[ing plaintiffs] to pursue their
claims concurrently in the same action, instead of in separate actions,” Gasho, 39 F.3d at 1438.
Neither of those two circumstances, nor their attendant risks, is present here. Plaintiffs brought their
FTCA claim, necessarily, against the United States, and
their non-FTCA claims against the Agent Defendants,
in the same action. They have not obtained a judgment
against the government. Kreines held that “an FTCA

91a
judgment in favor of the government did not bar the
Bivens claim [against individual employees] when the
judgments are ‘contemporaneous’ and part of the same
action.” Gasho, 39 F.3d at 1437 (quoting Kreines, 959
F.2d at 838). By “contemporaneous,” Kreines did not
require that judgments on the FTCA and other claims
be entered simultaneously, but rather that they result
from the same action.
The FTCA’s judgment bar does not operate to preclude Plaintiffs’ claims against the Agent Defendants.
2.

FTCA Discretionary Function Exception

The discretionary function exception provides that
the FTCA shall not apply to “[a]ny claim based upon an
act or omission of an employee of the Government, exercising due care, in the execution of a statute or regulation, . . . or based upon the exercise or performance
or the failure to exercise or perform a discretionary
function or duty on the part of a federal agency or an
employee of the Government, whether or not the discretion involved be abused.” 28 U.S.C. § 2680(a). “[T]he
discretionary function exception will not apply when a
federal statute, regulation, or policy specifically prescribes a course of action for an employee to follow.”
Berkovitz v. United States, 486 U.S. 531, 536 (1988).
“[G]overnmental conduct cannot be discretionary if it violates a legal mandate.” Galvin v. Hay, 374 F.3d 739,
758 (9th Cir. 2004) (quoting Nurse v. United States, 226
F.3d 996, 1002 (9th Cir. 2000)). Moreover, “the Constitution can limit the discretion of federal officials such
that the FTCA’s discretionary function exception will
not apply.” Id. (quoting Nurse, 226 F.3d at 1002 n.2).

92a
We cannot determine the applicability of the discretionary function exception at this stage in the litigation.
If, on remand, the district court determines that Defendants did not violate any federal constitutional or
statutory directives, the discretionary function exception will bar Plaintiffs’ FTCA claims. 48 But if the district court instead determines that Defendants did violate a nondiscretionary federal constitutional or statutory directive, the FTCA claims may be able to proceed
to that degree.
Because applicability of the discretionary function
will largely turn on the district court’s ultimate resolution of the merits of Plaintiffs’ various federal constitutional and statutory claims, discussing whether Plaintiffs substantively state claims as to the state laws underlying the FTCA claim would be premature. We
therefore decline to do so at this juncture.
V.

Procedures on Remand

On remand, the FISA and Fourth Amendment claims,
to the extent we have held they are validly pleaded in
the complaint and not subject to qualified immunity,
should proceed as usual. See supra Part II.B. In
light of our conclusion regarding the reach of FISA
§ 1806(f ), the district court should, using § 1806(f )’s
ex parte and in camera procedures, review any “materials relating to the surveillance as may be necessary,” 50
U.S.C. § 1806(f ), including the evidence over which the
Attorney General asserted the state secrets privilege, to

We note that the judgment bar, 28 U.S.C. § 2676, does not apply
to FTCA claims dismissed under the discretionary function exception. See Simmons v. Himmelreich, 136 S. Ct. 1843, 1847-48 (2016).
48

93a
determine whether the electronic surveillance was lawfully authorized and conducted. That determination
will include, to the extent we have concluded that the
complaint states a claim regarding each such provision,
whether Defendants violated any of the constitutional
and statutory provisions asserted by Plaintiffs in their
complaint. As permitted by Congress, “[i]n making
this determination, the court may disclose to [plaintiffs],
under appropriate security procedures and protective
orders, portions of the application, order, or other materials relating to the surveillance only where such disclosure is necessary to make an accurate determination
of the legality of the surveillance.” Id. 49
The Government suggests that Plaintiffs’ religion
claims cannot be resolved using the § 1806(f ) procedures
because, as the district court found, “the central subject
matter [of the case] is Operation Flex, a group of counterterrorism investigations that extend well beyond the
purview of electronic surveillance.”
Although the
larger factual context of the case involves more than
electronic surveillance, a careful review of the “Claims
for Relief” section of the complaint convinces us that all
of Plaintiffs’ legal causes of action relate to electronic
surveillance, at least for the most part, and in nearly all
instances entirely, and thus require a determination as
to the lawfulness of the surveillance.
Moreover,
Our circuit has not addressed the applicable standard for reviewing the district court’s decision not to disclose FISA materials.
Other circuits, however, have adopted an abuse of discretion standard. See United States v. Ali, 799 F.3d 1008, 1022 (8th Cir. 2015);
United States v. El-Mezain, 664 F.3d 467, 567 (5th Cir. 2011); United
States v. Damrah, 412 F.3d 618, 624 (6th Cir. 2005); United States v.
Badia, 827 F.2d 1458, 1464 (11th Cir. 1987); United States v. Belfield, 692 F.2d 141, 147 (D.C. Cir. 1982).
49

94a
§ 1806(f ) provides that the district court may consider
“other materials relating to the surveillance as may be
necessary to determine whether the surveillance of the
aggrieved person was lawfully authorized and conducted,” thereby providing for consideration of all parties’ factual submissions and legal contentions regarding the background of the surveillance. Id. (emphasis
added).
We did explain in Part I, supra, that not all of the
surveillance detailed in the complaint as the basis for
Plaintiffs’ legal claims constitutes electronic surveillance as defined by FISA. See id. § 1801(k). Also, two
of Plaintiffs’ causes of action can be read to encompass
more conduct than just electronic surveillance. Plaintiffs’ RFRA claim, their Fifth Cause of Action, is not limited to electronic surveillance. Plaintiffs broadly allege that “[t]he actions of Defendants substantially burdened [their] exercise of religion.” The FTCA claim
for intentional infliction of emotional distress, the Eleventh Cause of Action, is also more broadly pleaded. It
is far from clear, however, that as actually litigated, either claim will involve more than the electronic surveillance that is otherwise the focus of the lawsuit. 50
At this stage, it appears that, once the district court
uses § 1806(f )’s procedures to review the state secrets
evidence in camera and ex parte to determine the law-

For example, whether the official-capacity defendants targeted
Plaintiffs for surveillance in violation of the First Amendment will in
all likelihood be proven or defended against using the same set of
evidence regardless of whether the court considers the claim in
terms of electronic surveillance in the mosque prayer hall or conversations to which Monteilh was a party.
50

95a
fulness of that surveillance, it could rely on its assessment of the same evidence—taking care to avoid its public disclosure—to determine the lawfulness of the surveillance falling outside FISA’s purview, should Plaintiffs wish to proceed with their claims as applied to that
set of activity. Once the sensitive information has been
considered in camera and ex parte, the small risk of
disclosure—a risk Congress thought too small to preclude careful ex parte, in camera consideration by a federal judge—has already been incurred. The scope of
the state secrets privilege “is limited by its underlying
purpose.” Halpern v. United States, 258 F.2d 36, 44
(2d Cir. 1958) (quoting Roviaro v. United States, 353
U.S. 53, 60 (1957)). It would stretch the privilege beyond its purpose to require the district court to consider
the state secrets evidence in camera and ex parte for
one claim, but then, when considering another claim, ignore the evidence and dismiss the claim even though it
involves the exact same set of parties, facts, and alleged
legal violations.
Should our prediction of the overlap between the information to be reviewed under the FISA procedures to
determine the validity of FISA-covered electronic surveillance and the information pertinent to other aspects
of the religion claims prove inaccurate, or should the
FISA-covered electronic surveillance drop out of consideration, 51 the Government is free to interpose a specifically tailored, properly raised state secrets privilege defense. Should the Government do so, at that point the
district court should consider anew whether “simply excluding or otherwise walling off the privileged information
As could happen if, for instance, Plaintiffs are unable to substantiate their factual allegations as to the occurrence of the surveillance.
51

96a
may suffice to protect the state secrets,” Jeppesen, 614
F.3d at 1082, or whether dismissal is required because
“the privilege deprives the defendant[s] of information
that would otherwise give the defendant[s] a valid defense to the claim[s],” id. at 1083 (quoting Kasza, 133
F.3d at 1166), or because the privileged and nonprivileged evidence are “inseparable” such that “litigating
the case to a judgment on the merits would present an
unacceptable risk of disclosing state secrets,” id.
Because Jeppesen did not define “valid defense,” we
briefly address its meaning, so as to provide guidance to
the district court on remand and to future courts in our
circuit addressing the implications of the Government’s
invocation of the state secrets privilege.
The most useful discussion of the meaning of “valid
defense” in the state secrets context is in the D.C. Circuit’s decision in In re Sealed Case, 494 F.3d 139, cited
by Jeppensen, 614 F.3d at 1083. We find the D.C. Circuit’s definition and reasoning persuasive, and so adopt
it. Critically, In re Sealed Case explained that “[a] ‘valid
defense’ . . . is meritorious and not merely plausible
and would require judgment for the defendant.” 494
F.3d at 149. The state secrets privilege does not require “dismissal of a complaint for any plausible or colorable defense.” Id. at 150. Otherwise, “virtually every
case in which the United States successfully invokes the
state secrets privilege would need to be dismissed.”
Id. Such an approach would constitute judicial abdication from the responsibility to decide cases on the basis
of evidence “in favor of a system of conjecture.” Id.
And the Supreme Court has cautioned against “precluding review of constitutional claims” and “broadly interpreting evidentiary privileges.” Id. at 151 (first citing

97a
Webster v. Doe, 486 U.S. 592, 603-04 (1988), and then citing United States v. Nixon, 418 U.S. 683, 710 (1974)).
“[A]llowing the mere prospect of a privilege defense,”
without more, “to thwart a citizen’s efforts to vindicate
his or her constitutional rights would run afoul” of those
cautions. Id. Thus, where the government contends
that dismissal is required because the state secrets privilege inhibits it from presenting a valid defense, the district court may properly dismiss the complaint only if it
conducts an “appropriately tailored in camera review of
the privileged record,” id., and determines that defendants have a legally meritorious defense that prevents recovery by the plaintiffs, id. at 149 & n.4.
CONCLUSION

The legal questions presented in this case have been
many and difficult. We answer them on purely legal
grounds, but of course realize that those legal answers
will reverberate in the context of the larger ongoing national conversation about how reasonably to understand
and respond to the threats posed by terrorism without
fueling a climate of fear rooted in stereotypes and discrimination. In a previous case, we observed that the
state secrets doctrine strikes a “difficult balance . . .
between fundamental principles of our liberty, including
justice, transparency, accountability and national security,” and sometimes requires us to confront “an irreconcilable conflict” between those principles. Jeppesen,
614 F.3d at 1073. In holding, for the reasons stated, that
the Government’s assertion of the state secrets privilege
does not warrant dismissal of this litigation in its entirety, we, too, have recognized the need for balance, but
also have heeded the conclusion at the heart of Congress’s enactment of FISA: the fundamental principles

98a
of liberty include devising means of forwarding accountability while assuring national security.
Having carefully considered the Defendants’ various
arguments for dismissal other than the state secrets
privilege, we conclude that some of Plaintiffs’ search and
religion allegations state a claim, while others do not.
We therefore affirm in part and reverse in part the district court’s orders, and remand for further proceedings
in accordance with this opinion.
AFFIRMED in part, REVERSED in part, and
REMANDED.

GOULD and BERZON, Circuit Judges, joined by WARDLAW, FLETCHER, and PAEZ, Circuit Judges, concurring
in the denial of rehearing en banc:
Judge Bumatay’s dissent from the denial of rehearing (the “dissent”) is a veritable Russian doll of nestled
mistakes and misleading statements—open one, and another stares back at you. The panel opinion itself belies most of the accusations. For brevity, we pay particular attention here to the dissent’s most fundamental
misperceptions of the panel’s holdings.
I
At the core of this case lies a series of interwoven
statutory interpretation issues surrounding the application of the Foreign Intelligence Surveillance Act
(“FISA”), 50 U.S.C. §§ 1801 et seq, in a civil action. The
panel opinion concluded that a provision of that statute,
50 U.S.C. § 1806(f ), supersedes the common law state
secrets evidentiary privilege’s limited dismissal remedy
—not the protection of state secrets from disclosure—

99a
with regard to evidence or information related to electronic surveillance, and that the secrecy-protective procedures established by 50 U.S.C. § 1806(f ), designed
precisely for matters implicating national security concerns, apply to the plaintiffs’ claims in this case against
the government.
In concluding that § 1806(f )’s procedures apply, the
panel opinion decidedly did not, as the dissent asserts,
second guess the Executive’s capacity to determine that
certain evidence related to electronic surveillance is
classified or touches on issues of national security, and
therefore deserves protection from disclosure to litigants or the public. See Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d 1070, 1081-82 (9th Cir. 2010) (en
banc). Instead, the panel opinion resolved the discrete
issue of what should happen in a civil case that involves
such information: Need the case be dismissed, as it
sometimes is to implement the common law state secrets
privilege, or can it go forward but without disclosure of
the information to the plaintiffs, under specially tailored
litigation procedures that would in other contexts be impermissible as violative of the plaintiffs’ rights as litigants?
Critically for present purposes, the classified material at issue is protected from disclosure under § 1806(f ),
just as it is under the state secrets privilege’s dismissal
option—it is just protected differently. To ensure that
sensitive information is not inadvertently disclosed to
the public, the § 1806(f ) procedures require the district
court to consider the material ex parte and in camera.
The government uses these very same procedures all
the time when prosecuting suspected terrorists; the government does so by choice, and without any evident

100a
handwringing over whether the use of the § 1806(f ) procedures might lead to the disclosure of state secrets.
And the same ex parte and in camera review takes place
when the state secrets privilege is invoked, to ascertain
whether it is properly applicable and, if so, whether the
case can go forward without the sensitive evidence or
must be dismissed; that is exactly what happened in this
case in the district court. 1
II
The dissent’s misleading assertions about the nature
of the § 1806(f )’s procedures underpin its two major legal propositions, neither of which is rooted in the facts
of this case, the text of FISA, or any binding precedent.
A
The dissent insists that the panel should have applied
a “clear statement” rule to the question whether the

The dissent notes § 1806(f ) and (g)’s disclosure provisions, which
are available only in exceptional circumstances. As far as we are
aware, there has never been a disclosure under FISA. And, as the
panel opinion noted: “As it is Plaintiffs who have invoked the FISA
procedures, we proceed on the understanding that they are willing
to accept those restrictions to the degree they are applicable as an
alternative to dismissal, and so may not later seek to contest them.”
Amended Opinion at 49. In the unprecedented event that a district
court does order disclosure, nothing in the panel opinion prevents
the government from invoking the state secrets privilege’s dismissal
remedy as a backstop at that juncture. Finally, the panel does not,
as the dissent asserts, “warn” district judges that failure to disclose
evidence could constitute an abuse of discretion. Dissent at 134 n.9.
The panel does not take any position on the appropriate standard of
review for a district court’s decision regarding the disclosure of
FISA materials. Rather, we merely note the approach adopted in
other circuits.
1

101a
§ 1806(f ) ex parte, in camera method of litigation displaces the state secrets evidentiary privilege’s dismissal
remedy.
The panel could not have applied a “clear statement”
analysis. Our Circuit’s binding precedent required the
panel to ask whether FISA’s § 1806(f )’s procedures
“speak[] directly” to the question otherwise answered
by the dismissal remedy in cases involving classified material related to electronic surveillance. See Kasza v.
Browner, 133 F.3d 1159, 1167 (9th Cir. 1998) (internal
quotation marks and emphasis omitted). As the panel
opinion explained, the text, practice, purpose, and history of FISA and § 1806(f ) all quite clearly demonstrate
that the ex parte and in camera review established by
§ 1806(f ) squarely answers the “speak directly” question.
The dissent maintains the “speaks directly” standard
adopted in Kasza is wrong, because the state secrets evidentiary privilege has constitutional origins. See Dissent at 119, 129. The proposed new “clear statement”
requirement—effectively, that Congress had to name
the state secrets privilege, including its contingent dismissal remedy, to replace that remedy—is improper in
the current context for two reasons.
First, no matter the origins or role of the state secrets privilege, at issue here is only the dismissal remedy that sometimes follows the successful invocation of
the state secrets evidentiary privilege, when the case
cannot as a practical matter be litigated without the
privileged evidence. Jeppesen Dataplan, Inc., 614 F.3d
at 1082-83. “Ordinarily, simply excluding or otherwise
walling off the privileged information may suffice to protect the state secrets,” but, “[i]n some instances . . .

102a
application of the privilege may require dismissal of the
action.” Id.
The dissent portrays the state secrets privilege as a
magic wand that the Executive may wave to remove certain information from litigation or, if necessary, end
the case. Not so. “The privilege belongs to the Government and must be asserted by it,” but “[t]he court
itself must determine whether the circumstances are appropriate for the claim of privilege.” United States v.
Reynolds, 345 U.S. 1, 7-8 (1953); see also El-Masri v.
United States, 479 F.3d 296, 312 (4th Cir. 2007). And
the role of the court is especially pronounced when it
must determine whether dismissal is necessary. See
Jeppesen Dataplan, Inc., 614 F.3d at 1082-83. So the
dismissal remedy is not the state secrets privilege itself
but a procedural exigency, sometimes imposed by the
courts to prevent unfairness to the litigants once the evidentiary exclusion privilege is invoked and recognized
with regard to certain evidence. Dismissal in the state
secrets context is thus not grounded in separation of
powers concerns.
Second, and more generally, as the panel opinion recounts, at heart the state secrets privilege is an evidentiary privilege, not a constitutional one. Amended Opinion at 58-59; see In re United States, 872 F.2d 472, 47475 (D.C. Cir. 1989). Reynolds, which the dissent recognizes as the wellspring of “the modern state secrets
doctrine,” Dissent at 128, itself made this point:
We have had broad propositions pressed upon us for
decision. On behalf of the Government it has been
urged that the executive department heads have
power to withhold any documents in their custody
from judicial view if they deem it to be in the public

103a
interest. Respondents have asserted that the executive’s power to withhold documents was waived by
the Tort Claims Act. Both positions have constitutional overtones which we find it unnecessary to pass
upon, there being a narrower ground for decision.
345 U.S. at 6. As General Dynamics Corp. v. United
States, 563 U.S. 478, 485 (2011), summarized, “Reynolds
was about the admission of evidence. It decided a purely
evidentiary dispute by applying evidentiary rules: The
privileged information is excluded, and the trial goes on
without it.”
Or the trial doesn’t go on, if the district court decides
that dismissal is necessary. But in the narrow context
of classified information related to electronic surveillance, FISA’s procedures do away with the need for dismissal, by allowing the court to consider the relevant
materials during the course of the litigation in the truncated and secrecy-protective manner established by
§ 1806(f ).
B
The dissent also strives to insulate the government
from suit by paring back the coverage of § 1806(f ) and
related provisions so as not to cover at all suits against
the government. The dissent thus presents FISA, and
specifically § 1806(f ), as single-mindedly concerned with
protecting the government’s ability to prosecute criminal defendants without revealing national security secrets.
FISA is decidedly not so one-sided. The dissent never
mentions a FISA provision, 50 U.S.C. § 1810, which authorizes affirmative actions against the government

104a
challenging electronic surveillance material as unlawfully obtained. Ignoring § 1810, the dissent puts forward a view of the reach of § 1806(f )’s procedures much
too narrow to accommodate the statute’s provision for
affirmative relief. Were the dissent’s one-way-ratchet
position correct, in a § 1810 affirmative suit, the need to
consider the same evidence that was or should have been
excluded in a prosecution of a defendant (because the
surveillance used to collect the evidence is alleged to
have been unlawful) could lead to dismissal of a § 1810
suit seeking damages for that same illegal surveillance.
To position these procedures as a one-way ratchet for
the government, the dissent takes every opportunity to
shrink the reach of § 1806(f ) and related provisions to a
scope much more circumscribed than their terms and
purpose support. To highlight four of the dissent’s efforts:
•

To fit the dissent’s narrative that § 1806(f ) applies only when the government is on the offensive, the dissent maintains that the government
does not intend to “use” the relevant information
over which it has asserted the state secrets
privilege—a requisite for the application of
§ 1806(f )’s procedures. But here, the government’s primary reason for invoking the state secrets privilege’s dismissal remedy is its asserted
need to use classified information to defend itself
if the case went forward. The government submitted, alongside the Attorney General’s invocation of the state secrets privilege, an unclassified
declaration stating that “[a]ddressing plaintiffs’
allegations in this case will risk or require the

105a
disclosure of certain sensitive information concerning counterterrorism investigative activity
in Southern California, including in particular
the nature and scope of Operation Flex.”
•

The dissent also takes the word “use” out of context.
FISA’s procedures apply “[w]henever
the Government intends to enter into evidence
or otherwise use or disclose in any trial, hearing,
or other proceeding . . . any information obtained or derived from an electronic surveillance[.]” 50 U.S.C. § 1806(c) (emphasis added).
In other words, the procedures apply whenever
the government uses the information in “another
way” or “any other way” than entering it into evidence. See Otherwise, The Oxford English Dictionary Online, https://www.oed.com/view/Entry/
133247?redirectedFrom=otherwise#eid (last
visited June 22, 2020).

•

The dissent argues that, to trigger FISA’s review procedures, “an aggrieved person” must be
the defendant. Dissent at 138-139. But the
statute is not unidirectional. The dissent takes
the “against an aggrieved person” phrase out of
context to suit the dissent’s preferred ends. The
statutory scheme establishes that § 1806(f )’s procedures apply “[w]henever the Government intends to enter into evidence or otherwise use or
disclose in any trial, hearing, or other proceeding in or before any court, department, officer,
agency, regulatory body, or other authority of
the United States, against an aggrieved person,
any information obtained or derived from an

106a
electronic surveillance of that aggrieved person.” § 1806(c). A “trial, hearing, or other proceeding” involves two parties, providing either
an opportunity to introduce evidence—it is the
evidence that is “against” someone.
•

The dissent states that “§ 1806(f ) authorizes the
review of only a limited set of documents: the
FISA ‘application, order, and such other materials.’ ” Dissent at 132. But that is not what the
statute says, and the full text of the relevant
phrase tells an entirely different story: § 1806(f )
authorizes the district court to review the “application, order, and such other materials relating
to the surveillance as may be necessary to determine whether the surveillance of the aggrieved
person was lawfully authorized and conducted.”
§ 1806(f ) (emphasis added). As used in the actual statute as opposed to the dissent’s truncated
version, “such” does not, as the dissent erroneously claims, refer only backwards to “application” and “order;” it also, and most prominently,
applies forward to “materials relating to the surveillance as may be necessary to determine whether the surveillance of the aggrieved person was lawfully authorized and conducted.” §?1806(f ); see
Such, Merriam-Webster Online, https://www.
merriamwebster.com/dictionary/such (last visited June 22, 2020) (defining “such” principally
to mean “of a kind or character to be indicated or
suggested”) (emphasis added).

In conjunction with misreading the statute in these
and other respects, the dissent avows that the panel
opinion gives “unintended breadth” to FISA. Dissent

107a
at 142 (quoting Yates v. United States, 135 S. Ct. 1074,
1085 (2015)). But the only way to know what “breadth”
is “intended” is to read the statute. Section 1806(f )
speaks in the broadest language possible. The procedures apply “whenever the Government intends to enter
into evidence or otherwise use or disclose in any trial,
hearing, or proceeding . . . any information obtained or derived from an electronic surveillance” or
“whenever any motion or request is made . . . pursuant to any other statute or rule of the United States
or any State before any court or other authority.”
(Emphases added). If that capacious language were
not enough to maximize the provision’s reach, every conceivable clause is separated by a disjunctive “or.” Rather than “jam a square peg into a round hole,” Dissent
at 143, or “hide elephants in mouseholes,” Dissent at 142
(quoting Whitman v. Am. Trucking Ass’ns, 531 U.S.
457, 468 (2001)), the panel opinion acknowledged that,
when statutes use expansive language, we should understand that Congress did not mean for us to read in limitations that are not there.
* * *
The dissent is replete with quotations from Washington, Hamilton, and Jefferson, all making the indisputable point that, to protect our national interest, our government must be able to keep certain information secret. Neither the Founding Fathers’ concerns about
governmental secrecy nor broad issues of executive authority are at issue in this case. The question presented to the panel here was not whether the government should be able to keep classified material secret
but how. The procedures established by § 1806(f ) (which

108a
the government leans on heavily when it is the prosecutor) ensure secrecy. Under any reasonable reading of
the statute, these procedures, when otherwise applicable, supersede the state secrets privilege’s contingent
dismissal remedy and apply to the information at issue
in this case.
For the forgoing reasons, we concur in the denial of
rehearing en banc.
STEEH, Senior District Judge, statement regarding the
denial of rehearing en banc:
Although, as a visiting judge sitting by designation, I
am not permitted to vote on a petition for rehearing en
banc, I agree with the views expressed by Judges Berzon and Gould in their concurrence in the denial of rehearing en banc.
BUMATAY, Circuit Judge, with whom CALLAHAN, IKUTA,
BENNETT, R. NELSON , BADE, LEE, VANDYKE, Circuit
Judges, join, and COLLINS and BRESS, Circuit Judges,
join except for Section III.A.2, dissenting from the denial of rehearing en banc:
From the earliest days of our Nation’s history, all
three branches of government have recognized that the
Executive has authority to prevent the disclosure of information that would jeopardize national security. Embodied in the state secrets privilege, such discretion lies
at the core of the executive power and the President’s
authority as Commander in Chief. Indeed, these powers were vested in a single person precisely so that the

109a
Executive could act with the requisite “[d]ecision, activity, secrecy, and d[i]spatch.” The Federalist No. 70
(Alexander Hamilton) (emphasis added).
In contrast to the broad constitutional design of the
state secrets privilege, Congress passed the Foreign
Intelligence Surveillance Act (“FISA”) for a limited
function—to establish procedures for the lawful electronic surveillance of foreign powers and their agents.
Among other things, FISA provides a mechanism for in
camera, ex parte judicial review of electronic surveillance evidence when the government tries to use such
evidence, or a surveilled party tries to suppress it. See
50 U.S.C. § 1806(f ). 1
By its plain text and context, § 1806(f ) provides procedures to determine the admissibility of electronic
surveillance evidence—a commonplace gatekeeping
function exercised by courts throughout this country.
When the provision is triggered, courts review only a
limited set of documents, the FISA application, order,
and like materials, and may generally only suppress the
evidence if it was unlawfully obtained. § 1806(f ), (g).
Thus, § 1806(f ) coexists with the state secrets privilege
by providing judicial oversight over the government’s
affirmative use of electronic surveillance evidence, while
All statutory references are to Title 50 of the United States Code.
In relevant part, § 1806(f ) provides, when triggered, “the United
States district court . . . shall, notwithstanding any other law, if
the Attorney General files an affidavit under oath that disclosure or
an adversary hearing would harm the national security of the United
States, review in camera and ex parte the application, order, and
such other materials relating to the surveillance as may be necessary
to determine whether the surveillance of the aggrieved person was
lawfully authorized and conducted.”
1

110a
preserving the Executive’s constitutional prerogative to
protect national security information.
But today, the Ninth Circuit, once again, strains the
meaning of a statute and adopts a virtually boundless
view of § 1806(f ). Under the court’s reading, this narrow provision authorizes judicial review of any evidence,
on any claim, for any purpose, as long as the party’s allegations relate to electronic surveillance. With this
untenably broad interpretation, the court then rules
that the judicial branch will not recognize the state secrets privilege over evidence with any connection to
electronic surveillance. Most alarming, this decision
may lead to the disclosure of state secrets to the very
subjects of the foreign-intelligence surveillance. With
this, I cannot agree.
Our court’s decision ignores that Congress articulated no directive in FISA to displace the state secrets
privilege—even under the most generous abrogation
standards. More fundamentally, the court should have
ensured that Congress was unmistakably clear before
vitiating a core constitutional privilege. When the Supreme Court confronts a legislative enactment implicating constitutional concerns—federalism or separation of
powers—it has commonly required a clear statement
from Congress before plowing ahead. It has done so
out of a due respect for those constitutional concerns.
The state secrets privilege deserves the same respect.
In discovering abrogation of the state secrets privilege more than 40 years after FISA’s enactment, our
court disrupts the balance of powers among Congress,
the Executive, and the Judiciary. We have previously
recognized that the state secrets doctrine preserves the
difficult balance among “fundamental principles of our

111a
liberty, including justice, transparency, accountability
and national security.” Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d 1070, 1073 (9th Cir. 2010) (en banc).
Our refusal to reexamine this case now tips that balance
in favor of inventive litigants and overzealous courts, to
the detriment of national security. Moving forward,
litigants can dodge the state secrets privilege simply by
invoking “electronic surveillance” somewhere within the
Ninth Circuit. And in defending such cases, the government may be powerless to prevent the disclosure of
state secrets. For this reason, I respectfully dissent
from the denial of rehearing en banc.
I.

In this case, Yassir Fazaga and his co-plaintiffs sued
the United States, the FBI, and FBI special agents, for
using an informant to gather information from the Muslim community in Southern California. Their complaint asserted numerous constitutional and statutory
causes of action alleging unlawful searches and surveillance and violations of their religious liberty.
Soon after the suit was filed, the FBI asserted the
state secrets privilege over information related to its investigation. Through a declaration of the Attorney
General, the government warned that proceeding on the
claims risked the disclosure of state secrets. 2 Accordingly, the government moved to dismiss the religious liberty claims.
Specifically, the government sought to withhold evidence that
would (1) confirm or deny the particular targets of the investigation;
(2) reveal the initial reasons for opening the investigation, the materials uncovered, or the status and results of the investigation; and (3)
reveal particular sources or methods used.
2

112a
After scrutinizing the government’s classified and
unclassified declarations, the district court validated its
assertion of the privilege. The court found that the litigation involved intelligence that, if disclosed, would significantly compromise national security. Because the
risk of disclosure could not be averted through protective orders or other restrictions, the court dismissed all
but one of the claims.
On appeal, a panel of this court reversed. The panel
first held that FISA abrogated the state secrets privilege. It thought that § 1806(f ) “speaks directly” to the
same concerns as the state secrets privilege and, thus,
displaced it—despite recognizing that the privilege
“may” have a “constitutional core” or “constitutional
overtones.” Am. Op. at 58-59. Next, the court held that
§ 1806(f )’s review procedures were triggered in this
case. As a result, the court instructed the district court
to use those procedures to review any evidence relating
to the alleged electronic surveillance—even the evidence
that the government asserted constituted state secrets.
Because each of these holdings is erroneous, we
should have reviewed this case en banc.
II.

Abrogation of ordinary common law is rooted in due
respect for Congress. “Federal courts, unlike state
courts, are not general common-law courts and do not
possess a general power to develop and apply their own
rules of decision.” City of Milwaukee v. Illinois, 451
U.S. 304, 312 (1981). Accordingly, once “the field has
been made the subject of comprehensive legislation,”
federal common law must yield to the legislative enactment. Id. at 314. In the ordinary case, Congress

113a
need not affirmatively proscribe the use of federal common law, but it must “speak directly” to the questions
previously addressed by common law. Id. at 315.
Yet this is no ordinary case. Here, the court didn’t
abrogate run-of-the-mill, judicially created common law
—it displaced an executive privilege. And it did so while
summarily dismissing the constitutional and separationof-powers implications of its holding. Before supplanting a privilege held by a co-equal branch of government,
courts would be wise to consider the Constitution and
the history of the privilege at issue. As Justice Scalia
recognized, “a governmental practice [that] has been
open, widespread, and unchallenged since the early days
of the Republic” deserves special deference. NLRB v.
Noel Canning, 573 U.S. 513, 572 (2014) (Scalia, J., concurring) (citations omitted).
This approach should
guide our analysis here.
A.

Article II of the Constitution commands that “[t]he
executive Power shall be vested in a President of the
United States of America.” U.S. Const. art. II, § 1. And
the President is also designated as the “Commander in
Chief of the Army and Navy of the United States.”
U.S. Const. art. II, § 2.
By these terms, the Constitution was originally understood to vest the President with broad authority to
protect our national security. See Hamdi v. Rumsfeld,
542 U.S. 507, 580 (2004) (Thomas, J., dissenting) (“The
Founders intended that the President have primary
responsibility—along with the necessary power—to
protect the national security and to conduct the Nation’s
foreign relations.”). As Hamilton observed, a single

114a
Executive could better act with “[d]ecision, activity, secrecy, and d[i]spatch” as would be required to respond
to the national security crises of the day. The Federalist No. 70 (Alexander Hamilton).
Secrecy, at least at times, is a necessary concomitant
of the executive power and command of the Nation’s military. As commander of the Continental Army, George
Washington explained to Patrick Henry that “naturally
. . . there are some Secrets, on the keeping of which
so, depends, oftentimes, the salvation of an Army: Secrets which cannot, at least ought not to, be [e]ntrusted
to paper; nay, which none but the Commander in Chief
at the time, should be acquainted with.” 3
Given the Executive’s inherent need for secrecy, it
comes as no surprise that early presidents regularly asserted a privilege over the disclosure of sensitive information. 4 In 1792, when President Washington found
himself faced with the first-ever congressional request
for presidential materials, he recognized an executive
privilege to avoid disclosure of secret material. See
Abraham D. Sofaer, Executive Power and the Control of
3
Letter from George Washington to Patrick Henry (Feb. 24,
1777), Library of Congress, https://www.loc.gov/resource/mgw3h.
001/?sp=26&st=text.
4
Although this history recounts executive privileges in general,
the state secrets privilege has been described as a “branch of the
executive privilege.” Marriott Int’l Resorts, L.P. v. United States,
437 F.3d 1302, 1307 (Fed. Cir. 2006). To the extent there are distinctions among executive privileges, the state secrets privilege is
more inviolable. See United States v. Nixon, 418 U.S. 683, 706
(1974) (distinguishing between privileges based “solely on the broad,
undifferentiated claim of public interest in the confidentiality of such
conversations” with those asserted from the “need to protect military, diplomatic, or sensitive national security secrets”).

115a
Information: Practice Under the Framers, 1977 Duke
L.J. 1, 5-6. Washington’s Cabinet, including Hamilton
and Jefferson, agreed “that the executive ought to communicate such papers as the public good would permit,
and ought to refuse those, the disclosure of which would
injure the public.” Id. at 6 (quoting The Complete Jefferson 1222 (S. Padover ed. 1943)); see also Mark J.
Rozell, Restoring Balance to the Debate over Executive
Privilege: A Response to Berger, 8 Wm. & Mary Bill
Rts. J. 541, 556 (2000).
President Jefferson, even as a prominent critic of an
overly strong executive branch, held the same view on
the need for secrecy. As he put it in 1807, “[a]ll nations
have found it necessary, that for the advantageous conduct of their affairs, some of these proceedings, at least,
should remain known to their executive functionary
only. He, of course, from the nature of the case, must
be the sole judge of which of them the public interests
will permit publication.” 5 Similarly, Jefferson wrote to
the prosecutor of the Aaron Burr case to explain that it
was “the necessary right of the President . . . to decide, independently of all other authority, what papers,
coming to him as President, the public interests permit
to be communicated, & to whom.” 6
Founding-era Presidents were not alone in their
view. Members of Congress also respected some degree of executive privilege. When Washington refused
Letter from Thomas Jefferson to George Hay (June 17, 1807),
Library of Congress, https://www.loc.gov/resource/mtj1.038_0446_
0446/?st=text.
6
Letter from Thomas Jefferson to George Hay (June 12, 1807),
Library of Congress, https://www.loc.gov/resource/mtj1.038_0446_
0446/?st=text.
5

116a
a congressional request for materials, then-Representative
James Madison disagreed with Washington’s refusal,
but also recognized that “the Executive had a right, under a due responsibility, also, to withhold information,
when of a nature that did not permit a disclosure of it at
the time.” 5 Annals of Cong. 773 (1796); Sofaer, supra
at 12. Others went further, asserting, for example,
that the President “had an undoubted Constitutional
right, and it would be his duty to exercise his discretion
on this subject, and withhold any papers, the disclosure
of which would, in his judgment, be injurious to the
United States.” 5 Annals of Cong. 675 (1796) (remarks
of Rep. Hillhouse).
Congress’s early actions also reflected a deference to
the Executive’s authority to limit disclosures. When
seeking information from the President, Congress narrowed its requests to such presidential papers “of a public nature,” 3 Annals of Cong. 536 (1792), or “as he may
think proper,” 4 Annals of Cong. 250-51 (1794), and excluded “such [papers] as he may deem the public welfare
to require not to be disclosed.” 16 Annals of Cong. 336
(1807). Thus, early Congresses “practically always”
qualified their requests for foreign-affairs information
to those documents that “in [the President’s] judgment
[were] not incompatible with the public interest.”
Henry M. Wriston, Executive Agents in American Foreign Relations 121-22 (1929).
Like the Executive and Congress, the Judiciary has
long recognized an executive privilege over sensitive information. Chief Justice Marshall suggested that if the
Attorney General “thought that any thing was communicated to him in confidence he was not bound to disclose
it” in the litigation. Marbury v. Madison, 5 U.S. 137,

117a
144 (1803); see also Robert M. Chesney, State Secrets
and the Limits of National Security Litigation, 75 Geo.
Wash. L. Rev. 1249, 1271 (2007). And in response to
President Jefferson’s objection to producing a letter in
the Burr trial, Chief Justice Marshall explained that
there was “nothing before the court which shows that
the letter in question contains any matter the disclosure
of which would endanger the public safety,” but “[t]hat
there may be matter, the production of which the court
would not require, is certain.” United States v. Burr,
25 F. Cas. 30, 37 (C.C.D. Va. 1807); see also Chesney,
supra at 1272-73 (arguing that the Burr trial is significant for Marshall’s introduction of the idea that “risk to
public safety might impact discoverability of information held by the government”). Perhaps anticipating the modern-day state secrets privilege, Marshall
made clear “that the remedy he contemplated for executive withholding would be dismissal of the prosecution,
rather than an order directing the President to appear or
punishing any executive officer.” Sofaer, supra at 17.
The Supreme Court also recognized that President
Lincoln “was undoubtedly authorized during the war, as
commander-in-chief of the armies of the United States,
to employ secret agents to enter the rebel lines and obtain information respecting the strength, resources, and
movements of the enemy[.]” Totten v. United States,
92 U.S. 105, 106 (1875). In Totten, the Court dismissed
a contract claim where the very existence of the alleged
contract needed to be concealed. Id. Such concealment was a reality “in all secret employments of the government in time of war, or upon matters affecting our
foreign relations, where a disclosure of the service
might compromise or embarrass our government in its

118a
public duties, or endanger the person or injure the character of the agent.” Id.
Consistent with early historical practice and Foundingera understandings, modern courts have recognized the
Article II dimension of executive privileges.
See
Nixon, 418 U.S. at 711 (explaining that when a privilege
against disclosure relates to the “effective discharge of
a President’s powers, it is constitutionally based”);
Franchise Tax Bd. of California v. Hyatt, 139 S. Ct.
1485, 1498-99 (2019) (identifying the “executive privilege” as one of the “constitutional doctrines” that are
“implicit in the [Constitution’s] structure and supported
by historical practice”); see also Dep’t of Navy v. Egan,
484 U.S. 518, 527 (1988) (“The authority to protect
[national-security] information falls on the President as
head of the Executive Branch and as Commander in
Chief.”). 7 As Justice Jackson succinctly put it: “The
President, both as Commander-in-Chief and as the Nation’s organ for foreign affairs, has available intelligence
services whose reports neither are nor ought to be published to the world.” Chicago & S. Air Lines v. Waterman S. S. Corp., 333 U.S. 103, 111 (1948).
This brings us to the modern state secrets doctrine,
articulated in United States v. Reynolds, 345 U.S. 1
(1953). In Reynolds, the Court recognized the Executive’s “well established” privilege against revealing military and state secrets. Id. at 7-8. The Court held

None of this is to say that the Executive has an absolute privilege
to prevent the disclosure of material under any circumstance. I explore this history only insofar as it bears on the particular issue in
this case—the proper standard to apply before abrogating the state
secrets privilege.
7

119a
that “even the most compelling necessity cannot overcome the claim of privilege” if state secrets are at stake.
Id. at 11; see also El-Masri v. United States, 479 F.3d
296, 303 (4th Cir. 2007) (“Although the state secrets
privilege was developed at common law, it performs a
function of constitutional significance, because it allows
the executive branch to protect information whose secrecy is necessary to its military and foreign-affairs responsibilities.”). As an en banc court, we’ve respected
the ability of the government to seek to “completely remove[]” state secrets from litigation or even seek “dismissal of the action.” Jeppesen, 614 F.3d at 1082-83.
And in evaluating the assertion of the privilege, we “defer to the Executive on matters of foreign policy and national security.” Id.
B.

Given this constitutional and historical background,
courts ought to tread carefully before jettisoning the
state secrets privilege. Here, we should have done so
by requiring a clear congressional statement before displacing the privilege. By waiting for a clear statement,
we would have avoided assuming that Congress has “by
broad or general language, legislate[d] on a sensitive
topic inadvertently or without due deliberation.” Spector v. Norwegian Cruise Line Ltd., 545 U.S. 119, 139
(2005) (plurality opinion). Instead, the court today undermines a longstanding executive privilege by finding
abrogation lurking in FISA’s murky text.
Unlike abrogation of ordinary common law, which
shows our deference to Congress, the displacement of
the state secrets privilege creates a tension between
Congress and the Executive because we elevate a statute over a constitutionally based privilege. As the

120a
Court advises, we should be “reluctant to intrude upon
the authority of the Executive in military and national
security affairs” until “Congress specifically has provided otherwise.” Egan, 484 U.S. at 530. Thus, whether FISA merely “speaks directly” to the same concerns
as the privilege should not be sufficient to deprive the
Executive of a constitutionally derived right. Instead,
we should have constrained ourselves to respecting the
privilege unless and until a statute unmistakably and
unquestionably dictates otherwise.
This is not a novel idea. When a matter implicates
constitutional concerns, the Court has regularly required a clear statement. See, e.g., Will v. Michigan
Dep’t of State Police, 491 U.S. 58, 65 (1989) (requiring
Congress to be “unmistakably clear” before altering the
“usual constitutional balance between the States and the
Federal Government”); Franklin v. Massachusetts, 505
U.S. 788, 800-01 (1992) (requiring an express statement
before subjecting presidential action to APA review
“[o]ut of respect for the separation of powers and the
unique constitutional position of the President”). The
Court has likewise required a clear statement before abrogating Indian treaty rights, out of a respect for tribal
sovereignty. See United States v. Dion, 476 U.S. 734,
739 (1986) (explaining the reluctance to find abrogation
absent “explicit statutory language”).
Applying such a standard is also consistent with the
constitutional-avoidance canon. See United States ex
rel. Attorney Gen. v. Delaware & Hudson Co., 213 U.S.
366, 408 (1909) (“[W]here a statute is susceptible of two
constructions, by one of which grave and doubtful constitutional questions arise and by the other of which

121a
such questions are avoided, our duty is to adopt the latter.”). Thus, when “a particular interpretation of a
statute invokes the outer limits of Congress’ power,” as
is the case here, we should “expect a clear indication that
Congress intended that result.” I.N.S. v. St. Cyr, 533
U.S. 289, 299 (2001).
All in all, we should be “loath to conclude that Congress intended to press ahead into dangerous constitutional thickets in the absence of firm evidence that it
courted those perils.” Pub. Citizen v. U.S. Dep’t of
Justice, 491 U.S. 440, 466 (1989). But the court here is
undeterred. It reads FISA as abrogating the privilege
despite the lack of any firm evidence that Congress
sought to do so. And rather than consulting the Constitution or the history of the state secrets privilege, the
court simply waves off the privilege as something that
“may” have a “constitutional core” or “constitutional
overtones.” Am. Op. at 58-59. Respectfully, when we
suspect that an executive privilege “may” have a “constitutional core,” we should do more before tossing it
aside. Had we done so here, perhaps we would’ve recognized that the Article II roots of the privilege and its
long history require that Congress be unmistakably
clear before we simply replace it with a congressional
enactment. And because FISA makes no mention of
the state secrets privilege, the statute would fall pitifully
short of this standard.
C.

Even if we should stick with the run-of-the-mill,
“speaks directly” standard for displacement, FISA still
falls short. Demonstrating that a statute speaks directly to the same questions as the common law is no low
bar. See, e.g., United States v. Texas, 507 U.S. 529, 535

122a
(1993) (holding that silence in a statute “falls far short
of an expression of legislative intent to supplant the existing common law in that area”). The court’s analysis
does not clear this bar.
At the outset, the court’s opinion critically fails to
recognize the circumscribed purpose of § 1806(f )—to
provide a mechanism to review the admissibility of electronic surveillance evidence. See infra section III.
Determining the admissibility of evidence is an everyday function of courts. Section 1806(f ) merely adds extra precautions in the case of electronic surveillance evidence. Nothing more. The statute’s design is in stark
contrast to the constitutional purpose of the state secrets privilege—to ensure our “defer[ence] to the Executive on matters of foreign policy and national security”
and to prevent courts from “second guessing the Executive in this arena.” Jeppesen, 614 F.3d at 1081-82.
Contrary to the court’s interpretation, § 1806(f ) and the
state secrets privilege stand side by side, maintaining
the Judiciary’s control over the admissibility of evidence
on one hand while deferring to the Executive’s authority
to protect national security information on the other.
Relatedly, the court also overlooks a significant limitation on § 1806(f )’s scope of review. Section 1806(f )
authorizes the review of only a limited set of documents:
the FISA “application, order, and such other materials.”
The court’s decision treats this language as allowing review of “any” materials tangentially related to electronic
surveillance. Am. Op. at 102-103. But the phrase “such
other materials” cannot be read so boundlessly. See
Circuit City Stores, Inc. v. Adams, 532 U.S. 105, 114-15
(2001) (“[W]here general words follow specific words in

123a
a statutory enumeration, the general words are construed to embrace only objects similar in nature to those
objects enumerated by the preceding specific words.”).
Even without this canon, ordinary users of the English
language understand the word “such” to mean “something similar,” “of the same class, type, or sort,” or “of
the character, quality, or extent previously indicated or
implied.” Such, Webster’s Ninth New Collegiate Dictionary (1986). 8
Thus, the phrase “such other material” refers to documentary evidence like the “application” and “order”; in
other words, materials containing information necessary to authorize the surveillance. See, e.g., § 1804(c)
(“The judge may require the applicant to furnish such
other information as may be necessary to make the determinations required [to authorize the surveillance under § 1804].”) (emphasis added). It does not broadly
reach any evidence related to electronic surveillance as
the court’s decision assumes. It certainly does not
reach the evidence over which the government asserted
the privilege—which goes far beyond FISA documents.
See supra note 2.
Furthermore, § 1806(f ) didn’t create anything novel
to suggest displacement of the state secrets privilege.
The court’s opinion treats § 1806(f ) as enacting “an alternative mechanism” of ex parte, in camera review,
which shows Congress’s intent to “eliminate[] the need
to dismiss the case entirely” under the state secrets
Continuing to ignore this longstanding canon of interpretation,
the concurrence to the denial of rehearing en banc doubles down on
a boundless reading of this phrase. But this reading treats the
word “such” as if it meant “any.” We should apply the statute as
Congress wrote it, not as we might wish it to be.
8

124a
privilege. Am. Op. at 61-62. Not so. Pre-FISA courts
already conducted in camera and ex parte review with
regularity. See United States v. Belfield, 692 F.2d 141,
149 (D.C. Cir. 1982) (recognizing that prior to FISA
courts had “constantly” and “uniformly” held that “the
legality of electronic, foreign intelligence surveillance
may, even should, be determined on an in camera, ex
parte basis”). Given that ex parte, in camera review
procedures coexisted with the state secrets privilege before FISA, there’s no reason to construe Congress’s
codification of such procedures as an intent to eliminate
the privilege.
Nor does § 1806(f )’s triggering process—the filing of
an affidavit under oath by the Attorney General—support
abrogation. The court views the superficial similarity
between the assertion of the state secrets privilege by
the head of a department, see Jeppesen, 614 F.3d at
1080, and § 1806(f )’s affidavit requirement as evidence
that Congress intended abrogation. Such evidence actually cuts the other way. Under FISA, the definition
of “Attorney General” permits a number of lowerranked Department of Justice officials to invoke FISA’s
judicial review procedures, see § 1801(g), which makes
sense given its main use in criminal prosecutions. By
contrast, the head of any department has the non-delegable authority to assert the state secrets privilege.
Jeppesen, 614 F.3d at 1080. Nothing in FISA’s text
suggests that Congress sought to remove the privilege
from the hands of the Secretary of State, the Director of
National Intelligence, and other cabinet heads, and
simply transfer it to the Attorney General and his subordinates. Contrary to the court’s assessment, the difference between who can assert the privilege and who

125a
can invoke § 1806(f ) reaffirms that FISA coexists with,
rather than displaces, the state secrets privilege.
Finally, the court’s view of FISA as a replacement for
the state secrets privilege ignores that the provision not
only authorizes but mandates disclosure. See § 1806(g)
(requiring the court to disclose evidence “to the extent
that due process requires discovery or disclosure”); see
also § 1806(f ) (authorizing the court to disclose evidence
to the aggrieved person when “necessary to make an accurate determination of the legality of the surveillance”). And under the court’s broad reading, FISA
may very well authorize disclosure of state secrets to the
very subjects of the surveillance. See Am. Op. 68 (holding that plaintiffs’ request for electronic surveillance evidence triggers § 1806(f ) review). 9

For the first time, Judge Berzon announces that the panel’s opinion is actually limited to the state secrets privilege’s dismissal remedy and that the government is free to reassert the privilege if the
district court orders disclosure. See Concurrence at 110 n.1. This
is news to anyone reading the panel opinion, which explicitly authorizes the district court to “disclose” state secrets evidence to the
“plaintiffs.” See Am. Op. at 103. The opinion goes so far to warn
that “not” disclosing such evidence could constitute an abuse of discretion. Id. at 103 n.49 (emphasis added).
Nevertheless, that the panel needs to amend its opinion through
a nonbinding concurrence is reason enough for us to have reheard
this case en banc. We owe the district courts and litigants a clear
statement of the law—especially in a case implicating national security concerns. More fundamentally, this newly crafted limitation of
the court’s holding doesn’t alter any of the concerns raised in this
dissent and in many ways exacerbates them. The court’s holding,
even as purportedly limited, impinges on a constitutionally based
privilege based on a misreading of FISA. And if raising concerns
9

126a
But the state secrets privilege does not tolerate any
disclosure—not even in camera and ex parte—if it can
be avoided. See Reynolds, 345 U.S. at 10 (“[T]he court
should not jeopardize the security which the privilege is
meant to protect by insisting upon an examination of the
evidence, even by the judge alone, in chambers.”). Such
disclosures, when involving national security secrets,
are inimical to the secrecy afforded to the Executive under Article II. Thus, FISA fails to speak directly to the
paramount concern for the secrecy at the heart of the
state secrets privilege.
Given the silence of the statutory text, it’s unsurprising that the court’s opinion resorts to legislative history
to support abrogation. But “legislative history is not
the law.” Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612,
1631 (2018). We “have no authority to enforce a principle gleaned solely from legislative history that has no
statutory reference point.” Shannon v. United States,
512 U.S. 573, 584 (1994) (cleaned up). Even so, from
hundreds of pages of legislative history, the court excavates only vague quotes describing FISA as a “fundamental reform” aimed at curbing unchecked executive
surveillance. See Am. Op. at 63-64. The court can’t
even muster up a single floor statement mentioning the
state secrets privilege. Even for those who would rely
on legislative history, this alone should end the inquiry.
Nevertheless, the legislative history shows that—
contrary to the court’s view—the state secrets privilege
coexists with FISA. For example, a committee report
notes that preexisting “defenses against disclosure,”
about the court’s degradation of separation of powers and our constitutional design makes me a “veritable Russian doll” maker, see
Concurrence at 108, then bring on the dolls.

127a
which would include the state secrets privilege, were intended to be undisturbed by FISA. See H.R. Rep. No.
95-1283, at 93 (1978). Another report explained that
even when § 1806(f ) applied, the government could still
“prevent[]” the court’s “adjudication of legality” simply
by “forgo[ing] the use of the surveillance-based evidence” where disclosure of such evidence “would damage the national security.” S. Rep. No. 95-701, at 65
(1978). And another explains that § 1806(f ) was crafted
“to prevent these carefully drawn procedures from being bypassed by the inventive litigant.” H.R. Rep. No.
95-1283, at 91.
Ultimately, despite the lengthy excursion into FISA’s
legislative history, the court simply ignores material
that undermines its interpretation. We’re instead offered only generic, cherry-picked quotes about FISA —
proving yet again that relying on legislative history is
“an exercise in looking over a crowd and picking out your
friends.” Exxon Mobil Corp. v. Allapattah Servs., Inc.,
545 U.S. 546, 568 (2005) (cleaned up). But if § 1806(f )
was not meant for “inventive litigants,” it was equally
not meant for inventive courts.
III.

Most frustrating about our court’s decision here is
that § 1806(f ) doesn’t even apply to plaintiffs’ case.
Section 1806(f ) isn’t a freestanding vehicle to litigate the
merits of any case involving electronic surveillance.
FISA’s review procedures are triggered only to determine the admissibility of the government’s electronic
surveillance evidence. In this case, the government
never sought to admit and plaintiffs never sought to suppress any such evidence. Accordingly, § 1806(f ) wasn’t
invoked.
Yet the court creatively interprets two

128a
clauses of the statute to foist FISA’s review mechanism
into this case. We should have corrected this misinterpretation through en banc review.
A.

Section 1806(f )’s review procedures are triggered if
the government gives notice that it “intends to enter
into evidence or otherwise use or disclose in any trial,
hearing, or other proceeding . . . , against an aggrieved person, any information obtained or derived
from an electronic surveillance of that aggrieved person[.]” § 1806(c), (f ). The court held that when the
government asserted the state secrets privilege it effectively gave notice that it intended to “use” the evidence
against plaintiffs. This is wrong for two separate reasons.
1.

First, § 1806(c) doesn’t apply because the government isn’t seeking to use the state secrets as evidence.
By asserting the privilege, the government is not using
evidence in any reasonable sense of the word. Quite
the opposite: the government seeks to remove this evidence to avoid disclosing state secrets. See Jeppesen,
614 F.3d at 1079 (“A successful assertion of privilege under Reynolds will remove the privileged evidence from
the litigation.”). The court suggests that it “is precisely because the Government would like to use this information to defend itself that it has asserted the state
secrets privilege.” Am. Op. at 67. But this is precisely backwards. It transforms the government’s expressed inability to use evidence into an expressed intent to use it. Such upside-down logic should not stand.

129a
And no matter what tortured conception of “use” the
court conjures up here, to “use” something means to do
so for its intended purpose. Smith v. United States,
508 U.S. 223, 242 (1993) (Scalia, J., dissenting). “When
someone asks, ‘Do you use a cane?,’ he is not inquiring
whether you have your grandfather’s silver-handled
walking stick on display in the hall; he wants to know
whether you walk with a cane.” Id. So too here: the
government is not “using” the evidence merely by asserting the privilege over it. Evidence is “used” when
it is being offered for admission or disclosed for some
other evidentiary purpose.
2.

Second, it’s doubtful that § 1806(c) could apply here
since there was no proceeding against “an aggrieved
person.” By its terms, this provision applies only to a
“trial, hearing, or other proceeding” “against an aggrieved
person.” § 1806(c). This interpretation flows from the
nearest-reasonable-referent canon. See Antonin Scalia
& Bryan A. Garner, Reading Law: The Interpretation
of Legal Texts 140-41 (2012) (“When the syntax involves
something other than a parallel series of nouns or verbs,
a prepositive or postpositive modifier normally applies
only to the nearest reasonable referent.”). It’s also
consistent with ordinary usage. Although the court now
proclaims the opposite, see Am. Op. at 70, we commonly
refer to trials, hearings, and proceedings as being
“against” a party. 10 Instead, the court curiously views
See, e.g., Paine v. City of Lompoc, 265 F.3d 975, 986 (9th Cir.
2001) (“trial against these two defendants”); United States v.
Branch, 368 F. App’x 842, 844 (9th Cir. 2010) (“misconduct hearing
against the government”); Lopez-Aguilar v. Barr, 948 F.3d 1143,
1146 (9th Cir. 2020) (“removal proceedings against Lopez-Aguilar”).
10

130a
“against an aggrieved person” as modifying the phrase
“information obtained or derived.” But under that odd
interpretation, this phrase would be modified twice by
“aggrieved person.” The statute would be triggered
by the government’s use of “any information obtained or
derived [against the aggrieved person] from an electronic surveillance of that aggrieved person.” § 1806(c).
That is not a sensical reading. 11
B.

Perhaps sensing the weakness of its § 1806(c) reasoning, the court serves an alternative explanation for how
FISA’s review procedures were triggered. Section
1806(f ) also provides that its procedures are invoked:
whenever any motion or request is made by an aggrieved person pursuant to any other statute or rule
. . . to discover or obtain applications or orders or
other materials relating to electronic surveillance or

The phrase “against an aggrieved person” also doesn’t modify
“enter into evidence or otherwise use or disclose.” For adherents
to the familiar surplusage canon, this reading would render the phrase
completely superfluous. After all, who else is the government going to use the evidence against but the aggrieved person? Additionally, in ordinary English, we don’t often speak about “disclos[ing]”
information “against” someone. And if this construction was intended, we would have expected Congress to make this point clear
by placing the phrase closer to the verbs it modifies. See United
States v. Nader, 542 F.3d 713, 717-18 (9th Cir. 2008) (“A prepositional phrase with an adverbial or adjectival function should be as
close as possible to the word it modifies to avoid awkwardness, ambiguity, or unintended meanings.”) (quoting The Chicago Manual of
Style ¶ 5.167 (15th ed. 2003)).
11

131a
to discover, obtain, or suppress evidence or information obtained or derived from electronic surveillance under this chapter[.]
§ 1806(f ).
By its context, this clause is designed to funnel an aggrieved person’s evidentiary motions and requests—
which could be brought under a myriad of preexisting
statutes or rules—into § 1806(f )’s admissibility review
procedures. It is not an independent grant of authority to force government disclosure under § 1806(f ) anytime, for any reason, for any evidence, as long as a party
has some claim relating to electronic surveillance.
But the court holds that the clause was triggered because the plaintiffs’ complaint requested injunctive relief ordering the government to destroy or return any
unlawfully obtained materials. According to the court,
by asking for the “return” of electronic surveillance,
the complaint’s prayer for relief serves as a “request[]”
to “obtain” that information within the meaning of
§ 1806(f ). Am. Op. 68.
Contrary to the court’s expansive interpretation, this
clause is limited to procedural motions pertaining to the
admissibility of evidence, like the familiar “motion[s]” to
“discover, obtain, or suppress.” § 1806(f ). The clause’s
use of the word “request” does not change this analysis
since it must be read alike with “motion.” See Freeman v. Quicken Loans, Inc., 566 U.S. 624, 634-35 (2012)
(applying the “commonsense canon” that “a word is given
more precise content by the neighboring words with
which it is associated”). In this context, these two
terms refer to procedural actions such as a “production

132a
request” or a “motion to discover evidence,” not substantive requests for relief. 12
We’re also not to read “motion or request” in a vacuum. The provision refers to motions and requests
“[made] pursuant to any other statute or rule . . . to
discover, obtain, or suppress evidence or information.”
§ 1806(f ). This context makes clear that that the provision covers only procedural motions or requests, not
plaintiffs’ substantive claims for relief. It likewise confirms that the clause is not an independent grant of authority, but relies on other statutes and rules—which
would remain subject to evidentiary privileges.
In treating plaintiffs’ complaint as a request sufficient to trigger § 1806(f ), the court reads too much into
the word “obtain,” which must be read in the context of
“the company it keeps.” Gustafson v. Alloyd Co., 513
U.S. 561, 575 (1995). Here, “obtain” is spliced between
“discover” and “suppress,” both of which are procedural, evidentiary actions having nothing to do with substantive claims or injunctive relief. Accordingly, “obtain” is similarly limited to pretrial actions aimed at
evaluating the admissibility of evidence. See, e.g., Fed.
R. Civ. P. 26(b)(1) (“Parties may obtain discovery regarding any nonprivileged matter that is relevant to any
party’s claim or defense and proportional to the needs
of the case[.]”).
Seemingly whenever the phrase “motion or request” appears it
refers to a procedural action. See, e.g., 17 U.S.C. § 803(b)(6)(C)(v)
(“motion or request to compel production”); Fed. R. Crim. P. 29, Advisory Comm. Notes to 2005 amendments (“motion or request” for
an extension of time); Charles A. Wright et al., Federal Practice and
Procedure: Criminal § 261 (4th ed. 2020 Update) (Rule 12(c) authorizes time for “making of pre-trial motions or requests”).
12

133a
FISA’s structure also confirms the clause’s limitation
to pretrial motions relating to the admissibility of evidence. All of the other triggering mechanisms of
§ 1806(f )—subsections (c), (d), and (e)—are pretrial,
procedural actions to secure a ruling on the admissibility of evidence. This clause must be read in a similar
light to avoid “giving unintended breadth to the Acts of
Congress.” Yates v. United States, 135 S. Ct. 1074,
1085 (2015). It would be odd for Congress to ambiguously bury a substantive right for plaintiffs to “obtain”
national security secrets in the muddled language of
§ 1806(f ). We know that this can’t be the case because
Congress does not “hide elephants in mouseholes.”
Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 468
(2001).
Additionally, FISA does not recognize injunctive relief. ACLU Found. of S. California v. Barr, 952 F.2d
457, 470 (D.C. Cir. 1991) (“Not only does § 1806(f ) not
create or recognize a cause of action for an injunction or
for a declaratory judgment, but the scheme it sets up
makes clear that nothing in FISA can be read to create
such a cause of action.”). It can’t be the case that
§ 1806(f ) is triggered by a request for substantive relief
that FISA itself does not contemplate. 13
The concurrence makes much ado over § 1810, which authorizes
a cause of action for FISA violations. But the fact that the privilege
“could” lead to a dismissal of a § 1810 suit, Concurrence at 113-114,
is largely irrelevant. The same is true of any other cause of action.
And just because claims could be dismissed after a valid privilege
assertion doesn’t mean all of them will be. Look no further than
this very case: the government did not move to dismiss Plaintiffs’
§ 1810 claim based on the privilege and the claim is going forward
(and would’ve gone forward even without the panel’s abrogation of
the privilege).
13

134a
Finally, this clause must be read in context of FISA’s
single remedy after § 1806(f ) review—the “suppress[ion
of] the evidence” or “otherwise grant[ing] the motion of
the aggrieved person.” § 1806(g) (emphasis added).
Thus, these motions and requests, however styled, all
lead down the same road—suppression of evidence, or
relief in aid of that remedy. Cf. James v. United
States, 550 U.S. 192, 218 (2007) (Scalia, J., dissenting)
(recognizing that “ ‘otherwise’ is defined as ‘[i]n a different manner’ or ‘in another way,’ ” so the use of the word
signals other ways of doing something of the same character as what preceded it). As the heading of this provision confirms, the district court’s review can result in
either “[s]uppression of evidence” or “denial of motion.”
§ 1806(g) (heading). Thus, whether they’re to “discover, obtain, or suppress,” these motions and requests
only relate to the ultimate determination of the admissibility of evidence. Here, plaintiffs have neither a “motion to suppress,” nor any other motion to “otherwise
grant,” should the district court rule in their favor after
the § 1806(f ) review. Accordingly, try as it might, the
court can’t jam a square peg into a round hole. Section
1806(f ) doesn’t apply here.
IV.

The court’s decision today seriously degrades the Executive’s ability to protect our Nation’s secrets and I
fear it is only a stepping stone to further erosions. By
abrogating the state secrets privilege, we not only upset
the balance of power among co-equal branches of government, but we also do damage to a right inherent in
the constitutional design and acknowledged since our
Nation’s founding. And we do so without clear evidence

135a
that this is the result Congress sought. For these reasons, I respectfully dissent from the denial of rehearing
en banc.

136a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
SOURTHERN DIVISION

Case No. 8:11-cv-00301-CJC(VBKx)
YASSIR FAZAGA, ALI UDDIN MALIK,
YASSER ABDELRAHIM, PLAINTIFFS
v.
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
DEFENDANTS

Aug. 14, 2012
ORDER GRANTING DEFENDANTS’ MOTIONS TO
DISMISS BASED ON THE STATE SECRETS
PRIVILEGE

CORMAC J. CARNEY, District Judge.
I.

INTRODUCTION

The present case involves a group of counterterrorism investigations by the Federal Bureau of Investigation (‘‘FBI’’), dubbed ‘‘Operation Flex,’’ in which the
FBI engaged a covert informant to help gather information on certain, unidentified individuals from 2006 to
2007. Although some of the general facts about Operation Flex, including the identity of one informant,
Craig Monteilh, have been disclosed to the public, much

137a
of the essential details of the operation remain classified. After disclosure of Monteilh’s identity, Plaintiffs,
three Muslim residents of Southern California, filed a
putative class action against the FBI, the United States
of America, and two FBI officers sued in their official
capacities (together, the ‘‘Government’’) as well as five
FBI agents sued in their individual capacities (collectively, ‘‘Defendants’’). Plaintiffs allege that Defendants conducted an indiscriminate ‘‘dragnet’’ investigation and gathered personal information about them and
other innocent Muslim Americans in Southern California based on their religion. In doing so, Plaintiffs allege that Defendants violated their constitutional and
civil rights under the First Amendment Free Exercise
Clause and Establishment Clause, the Religious Freedom Restoration Act (‘‘RFRA’’), the Fifth Amendment
Equal Protection Clause, the Privacy Act, the Fourth
Amendment, the Foreign Intelligence Surveillance Act
(‘‘FISA’’), and the Federal Tort Claims Act (‘‘FTCA’’).
Defendants currently move to dismiss Plaintiffs’ claims
and for summary judgment pursuant to Federal Rules
of Civil Procedure 12 and 56 on various grounds, including the state secrets privilege. Defendants argue that
all of Plaintiffs’ claims, aside from their FISA and
Fourth Amendment claims, must be dismissed because
litigation of those claims would risk or require disclosure of certain evidence properly protected by the Attorney General’s assertion of the state secrets privilege.
The Attorney General’s privilege claim in this action
requires the Court to wrestle with the difficult balance
that the state secrets doctrine strikes between the fundamental principles of liberty, including judicial transparency, and national security. Although, as the Ninth
Circuit aptly opined, ‘‘as judges we strive to honor all of

138a
these principles, there are times when exceptional circumstances create an irreconcilable conflict between
them.’’ Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d
1070, 1073 (9th Cir. 2010), cert. denied, — U.S. —, 131
S. Ct. 2442, 179 L. Ed. 2d 1235 (2011). ‘‘On those rare
occasions, we are bound to follow the Supreme Court’s
admonition that ‘even the most compelling necessity
cannot overcome the claim of privilege if the court is ultimately satisfied that [state] secrets are at stake.’ ”
Id. (quoting United States v. Reynolds, 345 U.S. 1, 11,
73 S. Ct. 528, 97 L. Ed. 727 (1953)). Such is the case
here. After careful deliberation and skeptical scrutiny
of the public and classified filings, the Court concludes
that Plaintiffs’ claims against Defendants, aside from
their FISA claim, must be dismissed under the state secrets privilege.1 Further litigation of those claims
would require or unjustifiably risk disclosure of secret
and classified information regarding the nature and
scope of the FBI’s counterterrorism investigations, the
specific individuals under investigation and their associates, and the tactics and sources of information used in
combating possible terrorist attacks on the United
States and its allies. The state secrets privilege is specifically designed to protect against disclosure of such

Defendants’ motions to dismiss Plaintiffs’ FISA claim are discussed in the Court’s separate, concurrently-issued Order. The
Court finds that dismissal of Plaintiffs’ FISA claim against the Government is warranted because sovereign immunity has not been
waived. The Court, however, finds that Plaintiffs have alleged sufficient facts to state a FISA claim against the individual-capacity
Agent Defendants, who are not entitled to qualified immunity at this
stage of the proceeding based on the allegations pled in the First
Amended Complaint.
1

139a
information that is so vital to our country’s national security.
II.

BACKGROUND

The central subject matter of this case is a group of
counterterrorism investigations by the FBI, known as
‘‘Operation Flex,’’ which focused on fewer than 25 individuals and ‘‘was directed at detecting and preventing
possible terrorist attacks.’’ (Pub. Giuliano Decl. ¶ 11.)
During the investigations, the FBI utilized Craig Monteilh as a confidential informant from 2006 to 2007. (Id.
¶¶ 6, 11.) ‘‘The goal of Operation Flex was to determine whether particular individuals were involved in the
recruitment and training of individuals in the United
States or overseas for possible terrorist activity.’’ (Id.
¶ 11.) Plaintiffs allege that as part of Operation Flex,
Defendants directed Monteilh to infiltrate mosques and
indiscriminately collect information about Plaintiffs and
other members of the Los Angeles and Orange County
Muslim community because of their adherence to and
practice of the religion of Islam from July 2006 to October 2007. (First Amended Complaint (‘‘FAC’’) ¶¶ 1-3,
86, 167.)
The FBI has only acknowledged that Monteilh engaged in confidential source work and disclosed limited
information concerning Monteilh’s actions. (Pub. Giuliano Decl. ¶ 6.) For example, in an unrelated criminal
proceeding in this district, United States v. Niazi, Case
No. 8:09-cr-28-CJC(ANx), the FBI disclosed to the defendant Ahmadullah Niazi the content of the audio and
video recordings containing conversations between him
and Monteilh and others. (Id. ¶ 12.) The FBI also acknowledged in the Niazi case that Monteilh provided

140a
handwritten notes to the FBI and that it produced certain notes provided by Monteilh concerning Niazi.
(Id.) 2 However, essential details regarding Operation
Flex and Monteilh’s activities have not been disclosed,
and the Government asserts that this information ‘‘remains highly sensitive information concerning counterterrorism matters that if disclosed reasonably could be
expected to cause significant harm to national security.’’
(Id. ¶ 6.) The allegedly privileged information includes
(i) the identities of the specific individuals who have or
have not been the subject of counterterrorism investigations, (ii) the reasons why individuals were subject to investigation, including in Operation Flex, and their status and results, and (iii) the particular sources and
methods used in obtaining information for counterterrorism investigations, including in Operation Flex.
(Holder Decl. ¶ 4; Pub. Giuliano Decl. ¶ 6.) The Government provides a more fulsome discussion of the nondisclosed matters in its ex parte, in camera materials
that include two classified declarations and a classified
supplemental memorandum. (Dkt. Nos. 35, 36, 56.)
A.

The Parties

Plaintiffs, Sheikh Yassir Fazaga, Ali Uddin Malik,
and Yasser AbdelRahim (collectively, ‘‘Plaintiffs’’), are
resident members of the Muslim community in Southern
California. (FAC ¶¶ 12-14.) Fazaga, a U.S. citizen
born in Eritrea, has served as an ‘‘imam’’ or religious
With regard to these materials obtained by Monteilh, the FBI
states that is it ‘‘presently assessing whether additional audio, video,
or notes can be disclosed without risking disclosure of the privileged
information . . . and [risking] significant harm to national security interests in protecting counterterrorism investigations.’’ (Pub.
Giuliano Decl. ¶ 12.)
2

141a
leader of the Orange County Islamic Foundation
(‘‘OCIF’’), a mosque in Mission Viejo, California, and
has lectured widely on topics of Islam and American
Muslims. (Id. ¶¶ 12, 55-56.) Malik, a U.S. citizen born
in Southern California, is a resident of Orange County
and has regularly attended religious services at the Islamic Center of Irvine (‘‘ICOI’’), a mosque in Irvine, California. (Id. ¶¶ 13, 68-69.) AbdelRahim, a U.S. permanent resident from Egypt, has regularly attended religious services at the ICOI. (Id. ¶¶ 14, 80.)
The Government Defendants consist of the FBI and
the United States of America as well as Robert Mueller,
Director of the FBI, and Steven M. Martinez, Assistant
Director in Charge of the FBI Los Angeles Field Office,
sued in their official capacities. (Id. ¶¶ 15-17, 255.)
Defendants also include five FBI agents, Kevin Armstrong, Paul Allen, J. Stephen Tidwell, Barbara Walls,
and Pat Rose (collectively, ‘‘Agent Defendants’’), who
are sued in their individual capacities. (Id. ¶¶ 18-22.)
Defendants Armstrong and Allen, who were both assigned to the Orange County area, were handlers for
Monteilh and allegedly directed Monteilh to gather information on the Muslim community in Orange County
and also supervised his purported surveillance activities. (Id. ¶¶ 18-19, 87.) Defendant Rose, who was assigned to the FBI’s Santa Ana branch office, supervised
the FBI’s Orange County national security investigations and directly supervised Allen and Armstrong.
(Id. ¶ 22.) Defendant Walls, the head of the FBI’s
Santa Ana branch office, directly supervised Allen,
Armstrong, and Rose. (Id. ¶ 21.) Defendant Tidwell
served as the Assistant Director in Charge of the FBI’s
Los Angeles Field Office from August 2005 to December
2007, and in that capacity, supervised operations in the

142a
Central District of California. (Id. ¶ 20.) Plaintiffs allege Tidwell authorized the selection of Monteilh as an
informant and directed the actions of Armstrong, Allen,
Rose, Walls, and other agents in the handling of Monteilh. (Id.)
B.

Operation Flex 3

Plaintiffs allege many disturbing facts about Operation Flex and wrongdoing by Defendants. Sometime
prior to July 2006, Plaintiffs allege that the FBI hired
Monteilh to be a paid informant to covertly gather information about Muslims in the Irvine area. (FAC ¶ 48.)
Monteilh became a Muslim convert, began to attend
the ICOI and five of the other largest mosques in Orange County, and assumed the name Farouk al-Aziz.
(Id. ¶¶ 49-50, 92.) Monteilh interacted with many
members of the Muslim community in Southern California during the relevant time period, including Plaintiffs,
as part of a ‘‘broader pattern of dragnet surveillance
program that Monteilh engaged in at the behest of his
FBI handlers,’’ known as ‘‘Operation Flex,’’ which referenced Monteilh’s cover as a fitness instructor. (Id.
¶¶ 54-85, 86, 88.) Armstrong and Allen, who supervised all of Monteilh’s work, informed Monteilh that Operation Flex was part of a broader surveillance program
that went beyond his work. (Id. ¶ 88.) Defendants
did not limit Monteilh to specific targets on which they
wanted information, but ‘‘repeatedly made clear that
they were interested simply in Muslims’’ and that he
The Court emphasizes that the facts regarding Operation Flex
are only allegations from the FAC and do not constitute established
facts or disclosures by Defendants. The FBI has neither confirmed
nor denied that Monteilh collected information specifically in connection with any of the Plaintiffs or the putative class members.
3

143a
should gather ‘‘as much information on as many people
in the Muslim community as possible,’’ with heightened
attention to particularly religious members and those
who attracted Muslim youths. (Id. ¶¶ 89, 90, 98.) Plaintiffs allege that ‘‘[t]he central feature of the FBI agents’
instructions to Monteilh was their directive that he gather
information on Muslims, without any further specification,’’ and indiscriminately gather information about
them under the maximum that ‘‘everybody knows somebody’’ who may have some connection with the Taliban,
Hezbollah, and Hamas. (Id. ¶¶ 89, 117.)
Over the course of Operation Flex, Plaintiffs allege
that Armstrong and Allen sent Monteilh to conduct surveillance and audio recording in approximately ten
mosques in Los Angeles and Orange County. (Id. ¶ 92.)
Defendants provided Monteilh with surveillance tools,
including sophisticated audio and video recording devices, such as key fobs with audio recording capability
and a hidden camera outfitted to his shirt, to conduct an
‘‘indiscriminate surveillance’’ of Muslims, who were
targeted ‘‘solely due to their religion.’’ (Id. ¶¶ 86, 122,
124, 128.)
Defendants gathered information about
Plaintiffs and other members of the Muslim community
through these devices and from extensive review of
Monteilh’s handwritten notes about all aspects of his
daily interactions with Muslims. (Id. ¶ 122.) Plaintiffs allege that Armstrong and Allen were well aware
that many of the surveillance tools they had given Monteilh were being used illegally without warrants. (Id.
¶ 136.)
Plaintiffs allege that the FBI Agents instructed Monteilh to utilize surveillance strategies aimed at gathering
information on Muslims in an indiscriminate manner.

144a
(Id. ¶ 99.) The Agents’ key directive was that Monteilh
gather information from ‘‘anyone from any mosque
without any specific target, for the purpose of collecting
as much information as possible about Muslims in the
community.’’ (Id. ¶ 114.) Armstrong and Allen instructed Monteilh to obtain information through various
methods, including seizing every opportunity to meet
people, obtain their contact information, and learn about
their background and religious and political views. (Id.
¶ 101.) Monteilh did not limit surveillance to any particular group of people but instead socialized widely with
different groups and individuals regardless of their ethnic origin or language. (Id. ¶¶ 102-103.) Armstrong
and Allen further instructed Monteilh to gather information on Muslims’ charitable givings, attend Muslim
fundraising events, collect information on travel plans of
Muslims in the community, attend lectures by Muslim
scholars and other guest speakers, attend classes and
dawn prayers at mosques, track followers of extremist
jihadist websites, elicit people’s views on extremist
scholars and thinkers, work out with Muslims he met at
a local gym, and gather any compromising information
about Muslims that Defendants could use against them
to persuade them to become informants. (Id. ¶¶ 10516.) Plaintiffs allege that the consistent theme throughout these different surveillance gathering strategies was
in Armstrong’s and Allen’s ‘‘expressed interest in gathering information only on Muslims,’’ and their setting
aside any non-Muslims who were identified through surveillance Monteilh performed. (Id. ¶ 120.)
Plaintiffs allege that through Monteilh, Defendants
gathered information on Muslims and their associates
consisting of hundreds of phone numbers and thousands

145a
of email addresses; background information on hundreds of individuals; hundreds of hours of video recordings that captured the interiors of mosques, homes, businesses, and the associations of Muslims; and thousands
of hours of audio recordings of conversations as well as
recordings of religious lectures, discussion groups, classes, and other Muslim religious and cultural events occurring in mosques. (Id. ¶¶ 2, 137.) Plaintiffs allege
that the FBI’s ‘‘dragnet investigation did not result in
even a single conviction related to counterterrorism’’ because, unsurprisingly, ‘‘the FBI did not gather the information based on suspicion of criminal activity, but instead gathered the information simply because the targets were Muslim.’’ (Id. ¶ 3.) Plaintiffs allege Monteilh discontinued working for Defendants as an informant around September 2007. (Id. ¶ 151.)
C.

Disclosure of Monteilh’s Identity

In February 2009, the FBI acknowledged that it had
utilized Monteilh as a confidential informant during a
criminal proceeding in the Niazi case. (Pub. Giuliano
Decl. ¶ 11; FAC ¶¶ 155-59.) 4 Subsequent to this disclosure, Monteilh has provided numerous statements to the
media discussing his purported activities on behalf of
the FBI. (Pub. Giuliano Decl. ¶ 14; FAC ¶ 162.) 5 In
January 2010, Monteilh also filed a civil lawsuit under 42
U.S.C. §§ 1983 and 1985 in this district against the FBI,
its agents, and the City of Irvine in Monteilh v. FBI,

This Court dismissed the Niazi indictment without prejudice on
September 30, 2010. (Case No. 8:09-cr-28-CJC (ANx), Ct. Order,
Dkt. No. 40, Sept. 30, 2010.)
5
See, e.g., Jerry Markon, Tension Grows between Calif. Muslims,
FBI after Informant Infiltrates Mosque, WASH. POST (Dec. 5, 2010).
4

146a
Case No. 8:10-cv-102-JVS(RNBx). In that case, Monteilh made allegations related to his work as an FBI
source in Operation Flex. (Pub. Giuliano Decl. ¶ 14;
FAC ¶ 164.) The FBI has neither confirmed nor denied any of Monteilh’s public allegations concerning his
work for the agency, and the FBI maintains that Monteilh’s allegations do not constitute a disclosure or confirmation by the FBI of any information concerning his
activities as an informant. (Pub. Giuliano Decl. ¶ 14;
FAC ¶ 164.) In this case, Monteilh has submitted a
declaration, dated April 23, 2010, in support of Plaintiffs’
opposition to Defendants’ motions to dismiss in which he
makes allegations regarding his work for the FBI in Operation Flex similar to those asserted in the FAC.
(Dkt. No. 66; FAC ¶ 167.)
D.

The Lawsuit

On February 22, 2011, Plaintiffs filed the instant suit
against the FBI and its officers and agents. (Dkt. No.
1.) On August 1, 2011, the FBI, Mueller, and Martinez
moved to dismiss the Complaint and for summary judgment on the grounds, inter alia, that certain evidence
needed to litigate Plaintiffs’ claims is properly protected
by the Attorney General’s assertion of the state secrets
privilege. (Dkt. No. 32.) In support of their privilege
claim, they submitted for ex parte, in camera review by
the Court (i) a classified declaration of Mark F. Giuliano,
FBI Assistant Director, Counterterrorism Division and
(ii) a classified supplemental memorandum. (Dkt. Nos.
35, 36.) The Agent Defendants also separately moved
to dismiss the Complaint. (Dkt. Nos. 41-42.) Shortly
thereafter, Plaintiffs moved ex parte to stay the Court’s
review of the classified filings until after its consideration of whether the state secrets argument would apply

147a
in this case as a matter of law. (Dkt. No. 39.) Plaintiffs argued that such a ruling would prevent the Court
from unnecessarily reviewing information that could be
highly prejudicial to Plaintiffs and not properly subject
to consideration by the Court. (Pls. Ex Parte App., at
8.) The Court denied Plaintiffs’ ex parte application
because the Court determined that there was no legal
bar to its review of the classified submissions and because it was confident that its independent evaluation
would not be compromised by the contents of those submissions. (Ct. Order, Dkt. No. 46, Aug. 11, 2011.)
On September 13, 2011, Plaintiffs filed the operative
FAC, adding a claim under the FTCA against the
United States. (Dkt. No. 49.) Plaintiffs assert a total
of eleven causes of action against Defendants: (1) violation of the First Amendment Establishment Clause
under Bivens and 28 U.S.C. § 1331 (against all Defendants except the FBI and United States); (2) violation of
the First Amendment Establishment Clause under 42
U.S.C. § 1985(3) and 28 U.S.C. § 1343 (against Agent Defendants); (3) violation of the First Amendment Free
Exercise Clause under Bivens and 28 U.S.C. § 1331
(against all Defendants except the FBI and United
States); (4) violation of the First Amendment Free Exercise Clause under 42 U.S.C. § 1985(3) and 28 U.S.C.
§ 1343 (against Agent Defendants); (5) violation of RFRA,
42 U.S.C. § 2000bb-1 (against all Defendants); (6) violation of the Fifth Amendment Equal Protection Clause
under Bivens and 28 U.S.C. § 1331 (against all Defendants except the FBI and United States); (7) violation of
the Equal Protection Clause under 42 U.S.C. § 1985(3)
and 28 U.S.C. § 1343 (against Agent Defendants); (8) violation of the Privacy Act, 5 U.S.C. § 552a(a)-(l) (against
the FBI); (9) violation of the Fourth Amendment under

148a
Bivens and 28 U.S.C. § 1331 (against the FBI and
United States); (10) violation of FISA, 50 U.S.C. § 1810
(against all Defendants); and (11) invasion of privacy, violation of Cal. Civ. Code § 52.1, and intentional infliction
of emotion distress under the FTCA, 28 U.S.C. §§ 1346(b),
2671, et seq. (against the United States). 6 Plaintiffs request damages as well as injunctive relief in the form of
the destruction or return of any information gathered
through Operation Flex. Plaintiffs further seek certification of ‘‘[a]ll individuals targeted by Defendants for
surveillance or information-gathering through Monteilh
and Operation Flex, on account of their religion, and
about whom the FBI thereby gathered personally identifiable information.’’ (FAC ¶ 219.)
On November 4, 2011, the Government moved to dismiss the FAC and for summary judgment pursuant to
Federal Rules of Civil Procedure 12(b)(1), 12(b)(6), and
56. (Dkt. No. 55.) The Government moves to dismiss
all of Plaintiffs’ claims, aside from the FISA and Fourth
Amendment claims, on the grounds that, inter alia, litigation of these claims would risk or require the disclosure of certain evidence properly protected by the Attorney General’s assertion of the state secrets privilege.
In support of their privilege claim, the Government relies on its previously-filed public declaration from the
Attorney General, Eric H. Holder, dated July 29, 2011,
(Dkt. No. 32-3), and a public declaration from Mark Giuliano, dated July 25, 2011, (Dkt. No. 33). The Government also relies on its previously-lodged, August 1, 2011
For claims 1, 3, 6, and 9, Plaintiffs assert claims for damages under Bivens against individual-capacity Agent Defendants and assert
claims for injunctive relief under Section 1331 against the officialcapacity Defendants. (See FAC ¶ 226 n.37.)
6

149a
in camera filings, the classified declaration of Giuliano
and the classified supplemental memorandum, (Dkt.
Nos. 35, 36). In addition, the Government lodged a classified supplemental declaration of Giuliano on November 4, 2011, which provided a status update on certain
investigations discussed in the classified Giuliano Declaration. (Dkt. No. 56.)
Defendants Tidwell and Walls separately moved to
dismiss claims against them under Federal Rule of Civil
Procedure 12(b)(6). (Dkt. No. 58.) Tidwell and Walls
argue, in part, that the Government’s assertion of the
state secrets privilege mandates dismissal of Counts 1
through 7. (Tidwell/Walls Br., at 9-12.) Defendants
Rose, Armstrong, and Allen also moved to dismiss the
FAC under Rule 12(b)(6) and joined in the motions to
dismiss filed by the Government and Defendants Tidwell and Walls. (Dkt. No. 57.) On December 23, 2011,
Plaintiffs opposed the Government’s motion and filed a
combined opposition to the Agent Defendants’ motions
to dismiss. (Dkt. Nos. 63, 64.) Defendants filed replies in support of their respective motions to dismiss on
January 20, 2012. (Dkt. Nos. 69-71.) After granting
the parties’ requests for continuances of the hearing on
Defendants’ motions to dismiss, the Court heard extended oral arguments on the motions from the parties’
counsel on August 14, 2012.
III. LEGAL STANDARD
A.

The State Secrets Doctrine

‘‘The Supreme Court has long recognized that in exceptional circumstances courts must act in the interest
of the country’s national security to prevent disclosure
of state secrets, even to the point of dismissing a case

150a
entirely.’’ Jeppesen Dataplan, 614 F.3d at 1077 (citing
Totten v. United States, 92 U.S. 105, 107, 23 L. Ed. 605
(1875)). Created by federal common law, the state secrets doctrine bars litigation of an action entirely or excludes certain evidence because the case or evidence
risks disclosure of ‘‘state secrets’’—that is, ‘‘matters
which, in the interest of national security, should not be
divulged.’’ Reynolds, 345 U.S. at 10, 73 S. Ct. 528.
Although developed at common law, the state secrets
doctrine also ‘‘performs a function of constitutional significance, because it allows the executive branch to protect information whose secrecy is necessary to its military and foreign-affairs responsibilities.’’ El-Masri v.
United States, 479 F.3d 296, 303 (4th Cir. 2007). At the
same time, the state secrets doctrine does not represent
an abdication of judicial control over access to the
courts, as the judiciary is ultimately tasked with deciding whether the doctrine properly applies to a particular
case. Id. at 312. The state secrets doctrine thus attempts to strike a difficult balance between the Executive’s duty to protect national security information and
the judiciary’s obligation to preserve judicial transparency in its search for the truth. Id. at 303-305.
There are two modern applications of the state secrets doctrine: (1) a justiciability bar that forecloses
litigation altogether because the very subject matter of
the case is a state secret (the ‘‘Totten bar’’) and (2) an
evidentiary privilege that excludes certain evidence because it implicates secret information and may result in
dismissal of claims (the ‘‘Reynolds privilege’’). Jeppesen
Dataplan, 614 F.3d at 1077-80. While distinct, the Totten bar and the Reynolds privilege converge in situations where the government invokes the privilege—as it

151a
may properly do—before waiting for an evidentiary dispute to arise during discovery or trial. Id. at 1080
(‘‘The privilege may be asserted at any time, even at the
pleading stage.’’). The privilege indisputably may be
raised with respect to discovery requests seeking allegedly privileged information or to prevent disclosure of
such information in a responsive pleading. Id. at 1081.
Alternatively, ‘‘the government may assert a Reynolds
privilege claim prospectively, even at the pleading
stage, rather than waiting for an evidentiary dispute to
arise during discovery or trial.’’ Id. In such circumstances, the Totten bar necessarily informs the Reynolds
privilege in a ‘‘continuum of analysis.’’ Al-Haramain
Islamic Found., Inc. v. Bush, 507 F.3d 1190, 1201 (9th
Cir. 2007).
1.

The Totten Bar

The Supreme Court in Totten v. United States articulated the general principle that ‘‘public policy forbids
the maintenance of any suit in a court of justice, the trial
of which would inevitably lead to the disclosure of matters which the law itself regards as confidential.’’ 92
U.S. at 107. The Totten bar is a categorical bar ‘‘where
the very subject matter of the action . . . [is] a matter of state secret,’’ such that the action is ‘‘dismissed on
the pleadings without ever reaching the question of evidence since it [is] so obvious that the action should never
prevail over the privilege.’’ Reynolds, 345 U.S. at 11
n.26, 73 S. Ct. 528; accord Jeppesen Dataplan, 614 F.3d
at 1077-78; see also Al-Haramain, 507 F.3d at 1197
(‘‘[W]here the very subject matter of a lawsuit is a matter of state secret, the action must be dismissed without
reaching the question of evidence.’’). The purpose of
the Totten bar is not merely to defeat the asserted

152a
claims, but to foreclose judicial inquiry altogether. Tenet
v. Doe, 544 U.S. 1, 6 n.4, 125 S. Ct. 1230, 161 L. Ed. 2d 82
(2005); Jeppesen Dataplan, 614 F.3d at 1078.
The Supreme Court has very sparingly applied this
bar to preclude judicial review of an action entirely.
See Totten, 92 U.S. at 106-107 (barring suit by Civil War
spy against the United States for alleged failure to pay
for espionage services because the case was predicated
on the existence of an undisclosed contract for secret
services with the government); Weinberger v. Catholic
Action of Hawaii/Peace Educ. Project, 454 U.S. 139,
146-47, 102 S. Ct. 197, 70 L. Ed. 2d 298 (1981) (holding
action against the United States Navy exceeded judicial
scrutiny based on state secrets because it implicated information regarding nuclear weapons storage that the
Navy could not admit or deny); Tenet, 544 U.S. at 8-10,
125 S. Ct. 1230 (precluding judicial review of action by
former Cold War spies against the Central Intelligence
Agency for allegedly reneging on promise to pay for espionage services because plaintiffs’ relationship with the
government was state secrets). Beyond these three
cases, the Supreme Court has not provided further guidance on what subject matters would constitute state secrets. The Ninth Circuit in Jeppesen, however, declined to interpret the Totten bar as only applying to
certain types of cases, such as those involving covert espionage agreements, but emphasized that ‘‘the Totten
bar rests on a general principle that extends beyond that
specific context’’ and applies “ ‘where the very subject
matter of the action’ is ‘a matter of state secret.’ ” 614
F.3d at 1078-79 (quoting Reynolds, 345 U.S. at 11 n.26,
73 S. Ct. 528). The El-Masri court further clarified
that ‘‘[t]he controlling inquiry is not whether the general

153a
subject matter of an action can be described without resort to state secrets’’; rather, it must be ascertained
‘‘whether an action can be litigated without threatening
the disclosure of such state secrets.’’ El-Masri, 479
F.3d at 308. ‘‘Thus, for purposes of the state secrets
analysis, the ‘central facts’ and ‘very subject matter’ of
an action are those facts that are essential to prosecuting the action or defending against it.’’ Id.
2.

The Reynolds Privilege

The second application of the state secrets doctrine
is an evidentiary privilege against revealing state secrets. Jeppesen Dataplan, 614 F.3d at 1079. Derived
from United States v. Reynolds, this privilege applies
when the court is satisfied ‘‘from all the circumstances
of the case, that there is a reasonable danger that compulsion of the evidence will expose . . . matters
which, in the interest of national security, should not be
divulged.’’ Reynolds, 345 U.S. at 10, 73 S. Ct. 528; see
also id. at 10-11, 73 S. Ct. 528 (finding that the government made a sufficient showing of privilege, ‘‘under circumstances indicating a reasonable possibility that military secrets were involved,’’ to cut off demand for an
accident investigation report of an aircraft testing secret electronic equipment). A successful assertion of
the Reynolds privilege will remove the privileged evidence from the case. Jeppesen Dataplan, 614 F.3d at
1079. In some instances, however, ‘‘the assertion of the
privilege will require dismissal because it will become
apparent during the Reynolds analysis that the case
cannot proceed without privileged evidence, or that litigating the case to a judgment on the merits would present an unacceptable risk of disclosing state secrets.’’
Id. The Ninth Circuit in Jeppesen Dataplan applied

154a
the Reynolds privilege to dismiss an action brought by
foreign nationals who were allegedly transported in secret to other countries where they were detained and interrogated under the Central Intelligence Agency’s
(‘‘CIA’’) extraordinary rendition program. 614 F.3d at
1085-90. The Ninth Circuit held that dismissal under
the state secrets privilege was required under Reynolds
because there was no feasible way to litigate the defendant’s liability without creating ‘‘an unjustifiable risk of
divulging state secrets’’ related to the CIA’s secret intelligence activities. Id. at 1087. When such dismissal is required, the Reynolds privilege converges with
the Totten bar. Id. at 1083.
An analysis of claims under the Reynolds privilege
involves three steps. First, the court must ascertain
whether the procedural requirements for invoking the
privilege, consisting of a formal claim by the government, have been satisfied. Id. at 1080. Second, the
court must independently determine whether the information is privileged. Id. Third, the court must determine how the case should proceed in light of the successful privilege claim. Id. Once the privilege is properly
invoked, and the court is satisfied as to the danger of
disclosing state secrets, the privilege is absolute. Kasza
v. Browner, 133 F.3d 1159, 1166 (9th Cir. 1998); see also
Reynolds, 345 U.S. at 11, 73 S. Ct. 528 (‘‘[E]ven the most
compelling necessity cannot overcome the claim of privilege if the court is ultimately satisfied that [state] secrets are at stake.’’); In re United States, 872 F.2d 472,
476 (D.C. Cir. 1989) (‘‘No competing public or private interest can be advanced to compel disclosure [of privileged information].’’ (citation and quotes omitted)).
This is because, in determining whether the privilege
applies to a particular case, ‘‘the balance has already

155a
been struck in favor of protecting secrets of state over
the interest of a particular litigant.’’ In re United States,
872 F.2d at 476 (citation and quotes omitted). The Supreme Court has therefore cautioned that the privilege
‘‘is not to be lightly invoked,’’ and must be applied no
more often or extensively than necessary. Reynolds, 345
U.S. at 7-8, 73 S. Ct. 528; see also Jeppesen Dataplan, 614
F.3d at 1080.
B.

Threshold Considerations

Plaintiffs raise two threshold issues with regard to
whether the state secrets doctrine may apply in this
case, neither of which are persuasive. First, Plaintiffs
argue that FISA preempts the state secrets privilege.
Plaintiffs insist that because most, if not all, of the conduct at issue in this case involves electronic surveillance
in the name of foreign intelligence gathering in the domestic context, the Court should adhere to the procedures that Congress has set for the treatment of secret
evidence in FISA. 7 (Pls. Opp’n to Gov’t, at 20-21, 2631.) The Court disagrees. As a preliminary matter,
the question of whether FISA preempts the state secrets privilege is not at issue because Defendants have
not moved to dismiss the FISA claim on privilege grounds.
Moreover, even if FISA preempts the state secrets privilege with respect to a FISA claim, as ruled by the
Northern District of California in In re Nat’l Sec.
Agency Telecomms. Records Litig., 564 F. Supp. 2d
1109, 1120 (N.D. Cal. 2008), 8 Plaintiffs cite no authority
See the Court’s concurrently-filed Order, which discusses the
FISA claim in detail.
8
The Court in In re National Security determined that ‘‘FISA
should displace federal common law rules such as the state secrets
privilege with regard to matters within FISA’s purview.’’ 564
7

156a
for the proposition that FISA also preempts non-FISA
claims. Nor has the Court found any statute, including
the language of FISA, or case law supporting an expansive application of FISA to Plaintiffs’ non-FISA claims
in this case. Plaintiffs rely on In re National Security
Agency, 564 F. Supp. 2d at 1118, for the proposition that
FISA preempts the state secrets privilege in cases, as
here, which involve electronic surveillance undertaken
in the name of national security. (Pls. Opp’n to Gov’t,
at 26, 29). However, the court in that case clarified that
‘‘FISA does not preempt the state secrets privilege as
to matters that are not within FISA’s purview,’’—that
is, ‘‘activities [that] include foreign intelligence surveillance.’’ In re National Security Agency, 564 F. Supp.
2d at 1118. In the present action, however, the central
subject matter is Operation Flex, a group of counterterrorism investigations that extend well beyond the purview of electronic surveillance as discussed in the Government’s public and classified filings. Plaintiffs’ nonFISA claims also rely upon allegations far broader in
scope than allegations upon which the FISA claim is
predicated, and litigating those non-FISA claims will require information, including privileged evidence, beyond that contemplated by FISA. (See infra Part
IV.C.)
Second, Plaintiffs argue that the Constitution prohibits dismissal of this case on state secret grounds because
they seek injunctive relief from on-going constitutional

F. Supp. 2d at 1120. As the Government does not move to dismiss
the FISA claim on the basis of state secrets, the Court need not and
does not decide at this time whether FISA preempts the state secrets privilege with respect to a FISA claim.

157a
violations. (Pls. Opp’n to Gov’t, at 20, 40-51.) This argument, likewise, is unsupported by any authority, let
alone Ninth Circuit or Supreme Court precedent. The
principles of the state secrets doctrine make clear that
it is analyzed and applied to cases irrespective of the
types of claims or relief sought. See Tenet, 544 U.S. at
8, 125 S. Ct. 1230 (‘‘[P]ublic policy forbids the maintenance of any suit in a court of justice, the trial of which
would inevitably lead to the disclosure of matters which
the law itself regards as confidential.’’ (quoting Totten, 92 U.S. at 107)); Kasza, 133 F.3d at 1166 (‘‘Once the
privilege is properly invoked and the court is satisfied
as to the danger of divulging state secrets, the privilege
is absolute . . . ’’); Jeppesen Dataplan, 614 F.3d at
1081 (‘‘If this standard [for privilege] is met, the evidence
is absolutely privileged, irrespective of the plaintiffs’ countervailing need for it.’’). In fact, in Al-Haramain, the
Ninth Circuit found that the state secrets privilege applied to and warranted dismissal of constitutional claims
involving requests for injunctive relief. 507 F.3d at
1205. In that case, Al-Haramain Islamic Foundation, a
designated terrorist organization, and two of its attorneys brought suit against the government in connection
with the government’s Terrorist Surveillance Program.
507 F.3d at 1193. The plaintiffs in that case alleged
that they were subject to warrantless electronic surveillance in violation of FISA and various provisions of the
Constitution. Id. In addition to a request to enjoin
further warrantless surveillance, the plaintiffs sought
the same injunctive relief as Plaintiffs here do—disclosure
and/or destruction of information and records acquired
from allegedly unlawful surveillance—and also similarly
alleged violations under the First and Fourth Amendments. Al-Haramain Islamic Found., Inc. v. Bush,

158a
451 F. Supp. 2d 1215, 1218 (D. Or. 2006), rev’d and remanded by Al-Haramain, 507 F.3d 1190. The Ninth
Circuit in Al-Haramain found dismissal of the action
appropriate under the Reynolds privilege because the
defendant could not establish standing without the privileged information. 507 F.3d at 1205. 9 Accordingly,
the Court finds that the state secrets doctrine may
properly be considered in this case.
IV. APPLICATION
DOCTRINE

OF

THE

STATE

SECRETS

The Government requests dismissal of all of Plaintiffs’ claims against Defendants, aside from the FISA
and Fourth Amendment claims, under the Reynolds
privilege. The Government argues that dismissal of
these claims under the state secrets privilege is appropriate because it has satisfied the procedural requirements for invoking the privilege and further litigation of
the action would risk or require the disclosure of state
secrets related to Operation Flex. More specifically,
the Government contends that because Plaintiffs’ claims
are premised on their core allegation that Defendants
conducted an indiscriminate religion-based investigation, any rebuttal against this allegation would risk or
require disclosure of privileged information—whom and
what the FBI was investigating under Operation Flex
and why—in order to establish that the investigation
was properly predicated and focused. (Gov’t Br., at 56, 45-53.) The Court agrees. As discussed more fully

Plaintiffs’ argument is additionally misplaced because, even assuming that their argument regarding constitutional claims for injunctive relief had merit, it would be inapplicable as to their claims
for damages against Defendants.
9

159a
below, because further litigation of this action would require or, at the very least, create an unjustifiable risk of
disclosure of state secrets, the Court finds that dismissal of Plaintiffs’ claims, aside from their FISA claim, is
required under the Reynolds privilege.
A.

Procedural Requirements

The Reynolds privilege may only be asserted by the
government, and a private party can neither claim nor
waive the privilege. Jeppesen Dataplan, 614 F.3d at
1080; Reynolds, 345 U.S. at 7, 73 S. Ct. 528. The government cannot invoke the privilege lightly, especially
where it seeks not merely to preclude the production of
certain evidence, but to obtain dismissal of the action entirely. Jeppesen Dataplan, 614 F.3d at 1080. There
are several mechanisms to ensure that the Reynolds
privilege is invoked no more than is necessary. Id.
First, ‘‘[t]here must be a formal claim of privilege,
lodged by the head of the department which has control
over the matter, after actual personal consideration by
that officer.’’ Reynolds, 345 U.S. at 7-8, 73 S. Ct. 528.
‘‘This certification is fundamental to the government’s
claim of privilege,’’ as the decision to invoke the privilege must ‘‘ ‘be a serious, considered judgment, not
simply an administrative formality.’ ’’ Jeppesen Dataplan, 614 F.3d at 1080 (quoting United States v. W.R.
Grace, 526 F.3d 499, 507-508 (9th Cir. 2008) (en banc)).
The formal claim must ‘‘reflect the certifying official’s
personal judgment,’’ and be presented in ‘‘sufficient detail’’ to permit the court ‘‘to make an independent determination of the validity of the claim of privilege and the
scope of the evidence subject to the privilege.’’ Id. at
1080.

160a
Second, even before invoking the privilege in court,
the government must adhere to its own State Secrets
Policy, promulgated by the Obama administration in a
memorandum by the Attorney General in September
2009, effective October 1, 2009. (Holder Decl. ¶ 12 &
Exh. 1 [State Secrets Policy] ); see also Jeppesen Dataplan, 614 F.3d at 1077. The Policy outlines the legal
standard for invoking the privilege: the government
will assert and defend an assertion of the state secrets
privilege in litigation ‘‘when a government department
or agency seeking to assert the privilege makes a sufficient showing that assertion of the privilege is necessary
to protect information the unauthorized disclosure of
which reasonably could be expected to cause significant
harm to the national defense or foreign relations (‘‘national security’’) of the United States.’’ (Holder Decl.,
Exh. 1 ¶ 1(A).) The privilege must also be ‘‘narrowly
tailored,’’ such that the ‘‘privilege should be invoked
only to the extent necessary to protect against the risk
of significant harm to national security.’’ (Id. ¶ 1(B).)
The Policy further sets limitations for invoking the privilege, including not defending an invocation of the privilege to ‘‘conceal violations of the law, inefficiency, or administrative error’’; to ‘‘prevent embarrassment to a
person, organization, or agency of the United States
government’’; or to ‘‘prevent or delay the release of information the release of which would not reasonably be
expected to cause significant harm to national security.’’
(Id. ¶ 1(C).) The Policy further outlines the initial procedure for invoking the privilege, which includes sufficient evidentiary support and recommendation from the
Assistant Attorney General; evaluation, consultation,
and recommendation by a state secrets review committee; and approval by the Attorney General. (Id. ¶¶ 2-4.)

161a
The Government has properly invoked the state secrets privilege. The Government has submitted a public declaration from Eric Holder in his capacity as the
Attorney General and head of the Department of Justice. The Attorney General has made a formal assertion of the state secrets privilege after personal consideration of the public and classified materials at the request of the director of the FBI: ‘‘After careful and actual personal consideration of the matter, I have concluded that disclosure of the three categories of information described below and in more detail in the classified Giuliano Declaration could reasonably be expected
to cause significant harm to the national security, and I
therefore formally assert the state secrets privilege
over this information.’’ (Holder Decl. ¶ 3.) The Attorney General also avers that the requirements for an
assertion and defense of the state secrets privilege have
been satisfied in accordance with the State Secrets Policy. (Id. ¶ 12.) 10

The Court cannot and does not comment on whether the Government has properly adhered to its State Secrets Policy, as this is
internal to the Executive branch, and the Policy does not create a
substantive or procedural right enforceable at law or in equity
against the Government. (See Holder Decl., Exh. 1 ¶ 7.) However,
the Court does observe that the Government has narrowly tailored
its assertion of the privilege by moving on other grounds before invoking the privilege and has done so with restraint. (See Gov’t Br.,
at 3-7.) While the Court has considered Defendants’ initial grounds
for dismissal before analyzing the state secrets privilege, the Court
believes they are limited and do not entirely warrant dismissal of
Plaintiffs’ claims. In contrast, the Court finds that all of Plaintiffs’
claims, aside from their FISA claim, should be dismissed under the
Reynolds privilege. For this reason and for the sake of judicial
economy, the Court limits its discussion to the state secrets doctrine
10

162a
B.

Independent Evaluation of the Privilege Claim

After a court determines that the privilege has been
properly invoked, it then ‘‘ ‘must make an independent
determination whether the information is privileged.’ ’’
Jeppesen Dataplan, 614 F.3d at 1080, 1081 (quoting AlHaramain, 507 F.3d at 1202). ‘‘The court must sustain
a claim of privilege when it is satisfied, ‘from all the circumstances of the case, that there is a reasonable danger that compulsion of the evidence will expose . . .
matters which, in the interest of national security, should
not be divulged.’ ’’ Id. at 1081 (quoting Reynolds, 345
U.S. at 10, 73 S. Ct. 528). ‘‘The Executive bears the
burden of satisfying a reviewing court that the Reynolds
reasonable-danger standard is met.’’ El-Masri, 479
F.3d at 305. The government cannot satisfy this burden by the mere conclusory assertion that the standard
has been met. El-Masri, 479 F.3d at 312. ‘‘Simply
saying ‘military secret,’ ‘national security’ or ‘terrorist
threat’ or invoking an ethereal fear that disclosure will
threaten our nation is insufficient to support the privilege.’’ Al-Haramain, 507 F.3d at 1203. Rather, the
government must provide ‘‘[s]ufficient detail’’ to enable
the court to conduct a meaningful examination. Id.
In some instances, a formal privilege claim asserted in a
declaration may suffice, while in others, the court may
conduct an in camera examination of the allegedly privileged information. El-Masri, 479 F.3d at 305. ‘‘The
degree to which such a reviewing court should probe depends in part on the importance of the assertedly privileged information to the position of the party seeking
it.’’ Id.; see also Reynolds, 345 U.S. at 11, 73 S. Ct. 528
in this Order and the FISA claim in the Court’s concurrently-issued
Order.

163a
(‘‘In each case, the showing of necessity which is made
will determine how far the court should probe in satisfying itself that the occasion for invoking the privilege is
appropriate.’’) At the same time, the Court must make
this determination ‘‘without forcing a disclosure of the
very thing the privilege is designed to protect.’’ Reynolds, 345 U.S. at 8, 73 S. Ct. 528. ‘‘If this standard is
met, the evidence is absolutely privileged, irrespective
of the plaintiffs’ countervailing need for it.’’ Jeppesen
Dataplan, 614 F.3d at 1081.
Here, the Government asserts the privilege over
three categories of information related to Operation
Flex as described in their public and classified filings:
(i) subject identification, (ii) reasons for counterterrorism, and (iii) sources and methods. First, the FBI seeks
to protect ‘‘[i]nformation that could tend to confirm or
deny whether a particular individual was or was not the
subject of an FBI counterterrorism investigation, including in Operation Flex.’’ (Holder Decl. ¶ 4; Pub.
Giuliano Decl. ¶ 15.) Second, the FBI seeks to protect
‘‘[i]nformation that could tend to reveal the initial reasons (i.e., predicate) for an FBI counterterrorism investigation of a particular person (including in Operation
Flex), any information obtained during the course of
such an investigation, and the status and results of the
investigation. This category includes any information
obtained from the U.S. Intelligence Community related
to the reasons for an investigation.’’ (Holder Decl. ¶ 4;
Pub. Giuliano Decl. ¶ 15.) Third, the FBI seeks to protect ‘‘[i]nformation that could tend to reveal whether
particular sources and methods were used in a counterterrorism investigation of a particular subject, including
in Operation Flex,’’ and ‘‘previously undisclosed information related to whether court-ordered searches or

164a
surveillance, confidential human sources, and other investigative sources and methods were used in a counterterrorism investigation of a particular person, the reasons such methods were used, the status of the use of
such sources and methods, and any results derived from
such methods.’’ (Holder Decl. ¶ 4; Pub. Giuliano Decl.
¶ 15.)
Beyond the Government’s descriptions of these categories of information in its public declarations, the
Court heavily relies upon the classified declarations and
supplemental memorandum to determine whether disclosure of the information described above could reasonably be expected to cause significant harm to national
security. In making this determination, the Court assumes the ‘‘ ‘special burden to assure itself that an appropriate balance is struck between protecting national
security matters and preserving an open court system.’ ’’
Jeppesen Dataplan, 614 F.3d at 1081 (quoting AlHaramain, 507 F.3d at 1203); see also El-Masri, 479
F.3d at 304 (‘‘This inquiry is a difficult one, for it pits the
judiciary’s search for truth against the Executive’s duty
to maintain the nation’s security.’’). On the one hand,
the Court ‘‘acknowledge[s] the need to defer to the Executive on matters of foreign policy and national security and surely cannot legitimately find [itself ] second
guessing the Executive in this arena.’’ Jeppesen Dataplan, 614 F.3d at 1081-82; see also El-Masri, 479 F.3d at
305 (‘‘In assessing the risk that such a disclosure [of
state secrets] might pose to national security, a court is
obliged to accord the ‘utmost deference’ to the responsibilities of the executive branch.’’) (quoting United States
v. Nixon, 418 U.S. 683, 710, 94 S. Ct. 3090, 41 L. Ed. 2d
1039 (1974)). On the other hand, “ ‘the state secrets

165a
doctrine does not represent a surrender of judicial control over access to the courts.’ ’’ Jeppesen Dataplan,
614 F.3d at 1082 (quoting El-Masri, 479 F.3d at 312); see
also Reynolds, 345 U.S. at 9-10, 73 S. Ct. 528 (‘‘Judicial
control over the evidence in a case cannot be abdicated
to the caprice of executive officers.’’) Rather, the
Court has the obligation ‘‘to ensure that the state secrets privilege is asserted no more frequently and
sweepingly than necessary,’’ by critically examining the
instances of its invocation, Ellsberg v. Mitchell, 709 F.2d
51, 58 (D.C. Cir. 1983), with ‘‘a very careful, indeed a
skeptical, eye, and not to accept at face value the government’s claim or justification of privilege,’’ AlHaramain, 507 F.3d at 1203. See also Jeppesen Dataplan, 614 F.3d at 1082. But the Court cannot delve so
deeply that it discloses the very information the privilege is meant to protect. Reynolds, 345 U.S. at 8, 73 S.
Ct. 528 (‘‘Too much judicial inquiry into the claim of
privilege would force disclosure of the thing the privilege is meant to protect, while a complete abandonment
of judicial control would lead to intolerable abuses.’’)
The Court has thoroughly and skeptically examined
the Government’s public and classified submissions.
In particular, the Court has critically scrutinized the Attorney General’s classified declarations and the classified memorandum—which are comprehensive and
detailed—since they were submitted for the Court’s ex
parte, in camera review in August and November 2011.
The Court is convinced that the subject matter of this
action, Operation Flex, involves intelligence that, if disclosed, would significantly compromise national security. The Court is further convinced that litigation of
this action would certainly require or, at the very least,
greatly risk disclosure of secret information, such that

166a
dismissal at this stage of the proceeding is required.
This is because, as described more fully below, the Government will inevitably need the privileged information
to defend against Plaintiffs’ core allegation that Defendants conducted an indiscriminate ‘‘dragnet’’ investigation and gathered information on Plaintiffs and Muslims
in Southern California based on their religion. (See infra Part IV.C.)
In their Opposition, Plaintiffs argue that the Government’s first category of information is not privileged because everyone who had contact with Monteilh already
knows that they were targeted for investigation. (Pls.
Opp’n to Gov’t, at 31-32.) However, aside from the general information about Operation Flex and the identity
of Monteilh as an informant, the Government has not
confirmed or denied the identities of the fewer than 25
individuals who were under investigation. Plaintiffs
further argue that because the Government has not explicitly invoked the Totten bar, it has effectively conceded that the very subject matter of this action is not a
state secret. (Id. at 23.) But while some of the general facts of Operation Flex are public knowledge, the
facts required to litigate the action—e.g., to defend
against Plaintiffs’ claims of indiscriminate targeting of
Muslims—requires disclosure of information that is
classified and privileged. El Masri, 479 F.3d at 308
(‘‘[F]or purposes of the state secrets analysis, the ‘central facts’ and ‘very subject matter’ of an action are
those facts that are essential to prosecuting the action
or defending against it.’’) Plaintiffs’ position to the contrary implies an overly rigid understanding of the difference between the Totten bar and Reynolds privilege
that is inconsistent with the Ninth Circuit’s application

167a
of the state secrets doctrine. As the Jeppesen court indicated, the state secrets analysis under the Totten bar
converges with its progeny when, as here, the Government requests dismissal at the pleading stage because defense against plaintiff ’s claims requires privileged evidence or further litigation of the case would present an
unacceptable risk of disclosing state secrets. Jeppesen
Dataplan, 614 F.3d at 1083. (See infra Part IV.C.)
While the Court cannot describe the specific contents
of the classified materials—as this would thwart the
very purpose of the privilege claim—the Court can make
the following observations. In the context of a counterterrorism investigation, subject identification may include information about persons residing in the United
States or abroad, such as Afghanistan, Lebanon, the
Palestinian Territories, Yemen, and other regions in the
Middle East, whom law enforcement has and has not decided to investigate depending on their nexus to terrorist organizations, such as al Qaeda, the Taliban, Hezbollah, and Hamas. Subjects and their associates may
also be investigated because they are suspected of or involved in the recruitment, training, indoctrination, or
radicalization of individuals for terrorist activities or
fundraising for terrorist organizations. More directly,
individuals subjected to counterterrorism investigations
may be involved in plotting terrorist attacks. In the
nearly eleven years that have passed since September
11, 2001, Islamic extremists have continued to plot and
attempt to carry out numerous terrorist attacks both on
U.S. soil and abroad against U.S. targets and allies.
Such attacks are not abstract events born out of fear,
but are real and insidious. The Daily Beast reported
that as of September 8, 2011, ‘‘there have been at least
45 jihadist terrorist-attack plots against Americans

168a
since 9/11—each of them thwarted by a combination of
intelligence work, policing and citizen participation.’’
John Avlon, Forty-Five Foiled Terror Plots Since 9/11,
Daily Beast (Sept. 8, 2011), http://www.thedailybeast.
com/articles/2011/09/08/9-11-anniversary-45-terror-plotsfoiled-in-last-10-years.html.
The article notes that
‘‘these are just the plotted attacks that we know about
through public documentation’’ and that ‘‘the real number of credible plots is no doubt much higher.’’ Id.
Examples of recent, known terrorist attempts include
the September 2009 scheme by Najibullah Zazi, who was
arrested for plotting to attack the New York City subway system, as well as the December 2009 failed attempt
by Umar Farouk Abdulmutallab to bomb Northwest
Flight 253 to Chicago and the May 2010 failed attempt
of Faisal Shazad to detonate a car bomb in Times
Square. (See Pub. Giuliano Decl. ¶¶ 8-9.) Subjects and
their associates may be further investigated because
they have ties to homegrown violent extremists who do
not necessarily receive guidance from terrorist groups
overseas but may be inspired by the global jihadist
movement to commit violent acts inside the United States.
Such was the case for a group of armed men who were
arrested before they could execute their plot to kill people inside a military recruiting center in Santa Monica,
California, on September 11, 2005, and then later open
fire on families outside of temple during Yom Kippur in
West Los Angeles. (See id. ¶ 10.)
Disclosure of subjects under investigation would undoubtedly jeopardize national security. This is because persons under investigation would be alerted to
the FBI’s interest in them and cause them to flee, destroy evidence, or alter their conduct so as to avoid de-

169a
tection, which would seriously impede law enforcement’s and intelligence officers’ ability to determine
their location or gain further intelligence on their activities. (Holder Decl. ¶ 6; Pub. Giuliano Decl. ¶ 23.) Disclosure of those not under investigation by the FBI is,
likewise, dangerous because individuals who desire to
commit terrorist acts may then be motivated to do so
upon discovering that they are not being monitored.
Information about who is being investigated while the
status of others are unconfirmed may be manipulated by
individuals and terrorist groups to discover whether
they or any of their members are being investigated.
(Holder Decl. ¶ 7; Pub. Giuliano Decl. ¶ 24.)
The second and third categories of information necessarily overlap with the first. The reasons and results
of counterterrorism investigations may include the identities of human sources, such as confidential informants
or undercover agents and officers (other than Monteilh);
existent or suspected links between individuals and terrorist organizations; the results of surveillance efforts;
and information shared among law enforcement and
other government agencies. This category of evidence
will also likely involve information about the status of
the investigation—whether a particular investigation is
open or closed—or the substantive details of the investigations themselves. With regard to the third category, this is likely to include information similar to the
first and second categories, such as what, if any, confidential human sources besides Monteilh were used;
whether court-authorized searches or surveillance occurred, such as wire taps and monitoring of electronic
communication; whether the investigations involved undercover activity or physical surveillance; and whether

170a
interviews with suspects and their associates were conducted. The disclosure of the reasons and results of
counterterrorism investigations would unquestionably
compromise national security because it would reveal to
those involved in plotting terrorist activities what the
FBI knows and does not know about their plans and
thereby enable them to evade detection. (Holder Decl.
¶ 9; Pub. Giuliano Decl. ¶ 29.) The disclosure of the
methods and sources would endanger national security
because it could reveal the identities of particular subjects and the steps taken by the FBI in counterterrorism matters, thereby effectively disclosing a road map
to adversaries on how the FBI detects and prevents terrorist activities. (Holder Decl. ¶ 10; Pub. Giuliano Decl.
¶ 31.)
Aside from these explanations, the Court cannot and
need not give any further details with regard to the contents of the classified materials. See Kasza, 133 F.3d at
1169 (concluding that in camera review of classified declarations ‘‘was an appropriate means to resolve the applicability and scope of the state secrets privilege,’’ and
‘‘[n]o further disclosure or explanation is required’’).
The Court, however, is thoroughly convinced that the
Government has described, in sufficient detail, the nature of the privileged information and reasons why its
disclosure would compromise national security in its
classified filings. Plaintiffs no doubt are frustrated
that the Court is precluded from giving any more specifics. But ‘‘[a]n inherent feature of the state secrets
privilege . . . is that the party against whom it is asserted will often not be privy to the information that the
Executive seeks to protect.’’ El-Masri, 479 F.3d at
312. While the Government must persuade the Court

171a
with ‘‘[s]ufficient detail’’ that their assertion of the privilege is warranted, Al-Haramain, 507 F.3d at 1203, it
has no obligation to divulge any details of the privileged
matter to Plaintiffs. (See Pls. Opp’n to Gov’t, at 31
n.17 (criticizing the Government’s public declarations for
not describing the alleged privileged information with
sufficient specificity). Nevertheless, Plaintiffs’ unfamiliarity with the classified materials’ explanation for
the privilege does not imply that ‘‘no such explanation
was required,’’ or that the Court’s ‘‘ruling was simply an
unthinking ratification of a conclusory demand by the
executive branch.’’ El-Masri, 479 F.3d at 312.
C.

Consequences of the Privilege Claim

If the court sustains a claim of privilege, then ‘‘ ‘the
ultimate question to be resolved is how the matter should
proceed in light of the successful privilege claim.’ ’’
Jeppesen Dataplan, 614 F.3d at 1080, 1082 (quoting AlHaramain, 507 F.3d at 1202). Ordinarily, a successful
claim of the privilege may simply entail excluding or
walling off the secret evidence. Id. at 1082. But in
some instances, as here, application of the privilege may
require dismissal of the case. Id. at 1083. Dismissal
is appropriate in cases where ‘‘the court may be able to
determine with certainty from the nature of the allegations and the other government’s declarations in support of its claim of secrecy that litigation must be limited
or cut off in order to protect state secrets, even before
any discovery or evidentiary requests have been made.’’
Id. at 1081. There are three circumstances when the
Reynolds privilege warrants terminating a case entirely, rather than removing the evidence at issue: (1)
‘‘if the plaintiff cannot prove the prima facie elements
of her claim with nonprivileged evidence,’’ (2) ‘‘if the

172a
privilege deprives the defendant of information that
would otherwise give the defendant a valid defense to
the claim, then the court may grant summary judgment
to the defendant,’’ and (3) ‘‘even if the claims and defenses might theoretically be established without relying on privileged evidence, it may be impossible to proceed with the litigation because—privileged evidence
being inseparable from nonprivileged information that
will be necessary to the claims or defenses—litigating
the case to a judgment on the merits would present an
unacceptable risk of disclosing state secrets.’’ Id. (citations and quotes omitted). The second and third circumstances are applicable here.
1.

Privileged Information Needed for Defense

Dismissal of all of Plaintiffs’ claims, aside from their
FISA claim, is required because the privileged information gives Defendants a valid defense. Jeppesen
Dataplan, 614 F.3d at 1083. This analysis of the Reynolds privilege necessarily coincides with the Totten bar,
which permits dismissal of an action at the outset if the
very subject matter of the action is a state secret.
Reynolds, 345 U.S. at 11 n.26, 73 S. Ct. 528. The key
test is not whether the general subject matter of Operation Flex is a state secret, but whether this case can be
‘‘litigated without threatening the disclosure of such
state secrets.’’ El-Masri, 479 F.3d at 308. ‘‘Subject
matter’’ of an action means ‘‘those facts that are essential to prosecuting the action or defending against it.’’
Id. (emphasis added); see also id. at 309-11 (affirming
dismissal of action under the Reynolds privilege because defendants needed privileged information related
to CIA intelligence operations to defend itself against
plaintiff ’s claims); Kasza, 133 F.3d at 1166 (stating that

173a
dismissal is proper ‘‘if the privilege deprives the defendant of information that would otherwise give the defendant a valid defense to the claim’’ (citation and quotes
omitted)).
Here, Plaintiffs’ claims are predicated on their core
allegation that Defendants engaged in an indiscriminate
investigation, surveillance, and collection of information
of Plaintiffs and the putative class because they are
Muslim. (FAC ¶¶ 1-3, 86, 167.) Based on this allegation, Plaintiffs assert that Defendants’ scheme discriminated against Plaintiffs because of their religion in violation of the Establishment Clause (claims 1, 2); substantially burdened the exercise of their religion without
a legitimate government interest in violation of the Free
Exercise Clause (claims 3, 4) and the RFRA (claim 5);
and violates the Equal Protection Clause (claims 6, 7).
Plaintiffs also assert that Defendants’ alleged scheme
violates the Privacy Act, the Fourth Amendment prohibition against unreasonable searches, and FISA (claims
8, 9, 10). Finally, Plaintiffs assert that the United States
is liable to Plaintiffs for the Agent Defendants’ invasion
of their privacy, violation of Cal. Civ. Code § 52.1, and
for intentional infliction of emotional distress under California law pursuant to the FTCA (claim 11).
Plaintiffs contend that they do not need privileged information to prove their discrimination claims against
Defendants. (Pls. Opp’n to Gov’t, at 37.) The Court
does not speculate on what Plaintiffs already have in
their possession and whether that is enough to prove
their claims at this stage of the proceeding. But even
assuming that Plaintiffs do not require privileged information to establish their claims, the Court is persuaded
that privileged information provides essential evidence

174a
for Defendants’ full and effective defense against Plaintiffs’ claims—namely, showing that Defendants’ purported ‘‘dragnet’’ investigations were not indiscriminate
schemes to target Muslims, but were properly predicated and focused. Doing so would require Defendants
to summon privileged evidence related to Operation Flex,
including the subjects who may or may not have been
under investigation, the reasons and results of those investigations, and their methods and sources. Additionally, even if Plaintiffs can successfully show that Defendants’ actions substantially burdened their exercise
of religion with nonprivileged information, defense
against Plaintiffs’ First Amendment claims entails analysis of whether the Government had a ‘‘compelling state
interest’’ and its actions were ‘‘narrowly tailored’’ to
achieve that interest. Church of the Lukumi Babalu
Aye, Inc. v. City of Hialeah, 508 U.S. 520, 546, 113 S. Ct.
2217, 124 L. Ed. 2d 472 (1993); see also Navajo Nation
v. United States Forest Serv., 535 F.3d 1058, 1068 (9th
Cir. 2008) (‘‘[S]hould the plaintiff establish a substantial
burden on his exercise of religion [for a RFRA claim],
the burden of persuasion shifts to the government to
prove that the challenged government action is in furtherance of a ‘compelling governmental interest’ and is
implemented by ‘the least restrictive means.’ ’’). These
are fact-intensive questions that necessitate a detailed
inquiry into the nature, scope, and reasons for the investigations under Operation Flex. Moreover, with regard to Plaintiffs’ FTCA claim, the United States may
have a valid defense under the discretionary function exception, Sabow v. United States, 93 F.3d 1445, 1451 (9th
Cir. 1996), which requires the Court to determine
‘‘whether the challenged acts . . . are of the nature
and quality that Congress intended to shield from tort

175a
liability.’’ United States v. Varig Airlines, 467 U.S.
797, 813, 104 S. Ct. 2755, 81 L. Ed. 2d 660 (1984); see also
Dichter-Mad Family Partners, LLP v. United States,
707 F. Supp. 2d 1016, 1018-19 (C.D. Cal. 2010). To establish that this defense applies to the Government’s
counterterrorism investigations that purportedly violated Plaintiffs’ constitutional rights, the Government
must marshal facts that fall within the three privileged
categories of information related to Operation Flex.11
2.

Inseparable from Privileged Information

Dismissal of Plaintiffs’ claims is also required because, even if the claim or defense may be theoretically
established without relying on privileged information,
the Court is convinced that the privileged and nonprivileged information are inextricably intertwined, such
Plaintiffs further argue that the Government misunderstands
the nature of their religious discrimination claim, which they assert
does not require proof that religion is the ‘‘sole’’ reason for their having been targeted for surveillance, but rather that religion was ‘‘a’’
reason that they were targeted. Plaintiffs argue that their essential claim is that religion should be treated like race for the purposes
of anti-discrimination law in that its use should always be justified
by strict scrutiny. (Pls. Opp’n to Gov’t, at 21.) As a preliminary
matter, Plaintiffs’ characterization of their own allegation contradicts the express language in their FAC. (See FAC ¶ 86 (alleging
that the FBI Agents’ instructions to Monteilh ensured that ‘‘Plaintiffs and numerous other people were surveilled solely due to their
religion’’) (emphasis added)).) Regardless of the semantics used,
however, for the purpose of the state secrets analysis, there is little
difference between alleging that Plaintiffs were targeted because of
their religion or solely based on their religion. Defense against the
claim that Defendants targeted Plaintiffs because of their religion
requires the Government to draw on privileged information to show
that the investigations were proper and narrowly targeted for a legitimate purpose.
11

176a
that litigating the instant case to judgment on the merits
would present an unacceptable risk of disclosing state
secrets. Jeppesen Dataplan, 614 F.3d at 1083. ‘‘‘[W]henever possible, sensitive information must be disentangled from nonsensitive information to allow for the release of the latter.’ ’’ Kasza, 133 F.3d at 1166 (quoting
Ellsberg, 709 F.2d at 57). But ‘‘when, as a practical
matter, secret and nonsecret information cannot be separated,’’ the Court may ‘‘restrict the parties’ access not
only to evidence which itself risks the disclosure of a
state secret, but also those pieces of evidence or areas of
questioning which press so closely upon highly sensitive
material that they create a high risk of inadvertent or
indirect disclosures.’’ Jeppesen Dataplan, 614 F.3d at
1082 (citation and quotes omitted); see also Kasza, 133
F.3d at 1166 (‘‘[I]f seemingly innocuous information is
part of a classified mosaic, the state secrets privilege
may be invoked to bar its disclosure and the court cannot order the government to disentangle this information from other classified information.’’); id. at 116970 (affirming dismissal under the state secrets privilege
of action involving allegations that the United States Air
Force had unlawfully handled hazardous waste in classified operating locations because litigation of plaintiff ’s
claims required and risked, under the ‘‘classified mosaic’’ theory, disclosure of privileged information).
Here, as in Jeppesen Dataplan and Kasza, the subject matter of this case, Operation Flex, involves both
privileged and nonprivileged information, which cannot
be separated as a practical matter. Indeed, Operation
Flex comprises only a small part of the classified mosaic
in the FBI’s larger counterterrorism investigations,
which predate and go beyond Monteilh’s source work.
The effort to separate privileged from nonprivileged

177a
information—even with the protective procedures available to the Court—presents an unjustifiable risk of disclosing state secrets. As the Ninth Circuit observed,
‘‘[a]dversarial litigation, including pretrial discovery of
documents and witnesses and the presentation of documents and testimony at trial, is inherently complex and
unpredictable.’’ Jeppesen Dataplan, 614 F.3d at 1089.
‘‘Although district courts are well equipped to wall off
isolated secrets from disclosure, the challenge is exponentially greater in exceptional cases like this one,
where the relevant secrets are difficult or impossible to
isolate and even efforts to define a boundary between
privileged and unprivileged evidence would risk disclosure by implication.’’ Id. In such rare circumstances,
as here, the risk of disclosure that further litigation
would engender cannot be averted through protective
orders or restrictions on testimony. Id. This is true
even as to Plaintiffs’ Fourth Amendment claim because
it is impossible to excise the facts directly related to this
claim from the factual context of Operation Flex as a
whole, and that context forms an important background
for a finder of fact to consider in her analysis. While
this case is only at the pleading stage and Plaintiffs have
not yet propounded any discovery requests, (Arulanantham Decl. ¶ 2), Defendants need not wait before discovery or evidentiary disputes are at issue to assert the
privilege for dismissal. Jeppesen Dataplan, 614 F.3d
at 1081 (‘‘Courts are not required to play with fire and
chance further disclosure—inadvertent, mistaken, or
even intentional—that would defeat the very purpose
for which the privilege exists.’’) (quoting Sterling v.
Tenet, 416 F.3d 338, 344 (4th Cir. 2005)). Accordingly,
because further litigation of this action would create ‘‘an
unjustifiable risk of revealing state secrets’’ related to

178a
the FBI’s counterterrorism investigations, dismissal of
Plaintiffs’ claims is warranted. Id. at 614 F.3d at 1088.
V.

CONCLUSION

The state secrets privilege strives to achieve a difficult compromise between the principles of national security and constitutional freedoms. The state secrets
privilege can only be invoked and applied with restraint,
in narrow circumstances, and infused with judicial skepticism. Yet, when properly invoked, it is absolute—the
interest of protecting state secrets cannot give way to
any other need or interest. Navigating through the
narrow straits of the state secrets privilege has not been
an easy or enviable task for the Court. In the context
of the Executive’s counterterrorism efforts engendered
by 9/11, the Court has been confronted with the difficult
task of balancing its obligation to defer to the Executive
in matters of national security with its duty to promote
open judicial inquiry. Too much deference would shortcircuit constitutional liberties while too much judicial inquiry would risk disclosure of information that would
jeopardize national security. In struggling with this
conflict, the Court is reminded of the classic dilemma of
Odysseus, who faced the challenge of navigating his ship
through a dangerous passage, flanked by a voracious
six-headed monster, on the one side, and a deadly whirlpool, on the other. Odysseus opted to pass by the monster and risk a few of his individual sailors, rather than
hazard the loss of his entire ship to the sucking whirlpool. Similarly, the proper application of the state secrets privilege may unfortunately mean the sacrifice of
individual liberties for the sake of national security.
El-Masri, 479 F.3d at 313 (‘‘[A] plaintiff suffers this reversal not through any fault of his own, but because his

179a
personal interest in pursuing his civil claim is subordinated to the collective interest in national security.’’);
Sterling, 416 F.3d at 348 (‘‘[T]here can be no doubt that,
in limited circumstances . . . the fundamental principle of access to court must bow to the fact that a nation
without sound intelligence is a nation at risk.’’); Fitzgerald v. Penthouse Int’l, Ltd., 776 F.2d 1236, 1238 n.3 (4th
Cir. 1985) (‘‘When the state secrets privilege is validly
asserted, the result is unfairness to individual litigants
—through the loss of important evidence or dismissal of
a case—in order to protect a greater public value.’’)
The Court recognizes the weight of its conclusion
that Plaintiffs must be denied a judicial forum for their
claims. The Court does not reach its decision today
lightly, but does so only reluctantly, after months of
careful review of the parties’ submissions and arguments, particularly the Government’s in camera materials upon which the Court heavily relies. Plaintiffs
raise the specter of Korematsu v. United States, 323
U.S. 214, 65 S. Ct. 193, 89 L. Ed. 194 (1944), and protest
that dismissing their claims based upon the state secrets
privilege would permit a ‘‘remarkable assertion of power’’
by the Executive, and that any practice, no matter how
abusive, may be immunized from legal challenge by being labeled as ‘‘counterterrorism’’ and ‘‘state secrets.’’
(Pls. Opp’n to Gov’t, at 20, 41-42.) But such a claim assumes that courts simply rubber stamp the Executive’s
assertion of the state secrets privilege. That is not the
case here. The Court has engaged in rigorous judicial
scrutiny of the Government’s assertion of privilege and
thoroughly reviewed the public and classified filings
with a skeptical eye. The Court firmly believes that after careful examination of all the parties’ submissions,
the present action falls squarely within the narrow class

180a
of cases that require dismissal of claims at the outset of
the proceeding on state secret grounds. Accordingly,
all of Plaintiffs’ causes of action against Defendants,
aside from their FISA claim, are DISMISSED.

181a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
SOUTHERN DIVISION

Case No. 8:11-cv-00301-CJC (VBKx)
YASSIR FAZAGA, ALI UDDIN MALIK, YASSER
ABDELRAHIM, PLAINTIFFS
v.
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
DEFENDANTS

Aug. 14, 2012
ORDER GRANTING IN PART DEFENDANTS’
MOTIONS TO DISMISS PLAINTIFFS’ FISA CLAIM

CORMAC J. CARNEY, District Judge.
I.

INTRODUCTION & BACKGROUND

On February 22, 2011, Plaintiffs, three Muslim residents in Southern California, filed a putative class action
suit against the Federal Bureau of Investigation (‘‘FBI’’),
the United States of America, and seven FBI officers
and agents (collectively, ‘‘Defendants’’) for claims arising from a group of counterterrorism investigations,
known as ‘‘Operation Flex,’’ conducted in Plaintiffs’ com-

182a
munity with the help of a civilian informant, Craig Monteilh, from 2006 to 2007.1 Plaintiffs allege that, as part
of Operation Flex, the FBI employed Monteilh to gather
information in various Islamic community centers in Orange County by presenting himself as a Muslim convert.
Plaintiffs allege that Monteilh was paid by the FBI to
collect information on Muslims under an assumed identity and ‘‘infiltrate[ ] several mainstream mosques in
Southern California.’’
(First Amended Complaint
(‘‘FAC’’) ¶ 1.) They further allege that the FBI conducted a ‘‘dragnet investigation’’ using Monteilh to ‘‘indiscriminately collect personal information on hundreds
and perhaps thousands of innocent Muslim Americans
in Southern California’’ over a fourteen-month period.
(Id. ¶ 2.) Through these actions, Plaintiffs assert that
the FBI gathered hundreds of hours of video and thousands of hours of audio recordings from ‘‘the inside of
mosques, homes, businesses, and associations of hundreds of Muslims,’’ including at times where Monteilh
was not present with the recording device. (Id.) Plaintiffs also assert that Defendants collected hundreds of
phone numbers and thousands of email addresses.
(Id.) Based on these factual allegations, Plaintiffs as-

Plaintiffs are Yassir Fazaga, Ali Uddin Malik, and Yasser AbdelRahim. The FBI officers are Robert Mueller, Director of the
FBI, and Steven M. Martinez, Assistant Director in Charge of the
FBI Los Angeles Division, sued in their official capacities. FBI
agents are J. Stephen Tidwell, Barbara Walls, Pat Rose, Kevin Armstrong, and Paul Allen, sued in their individual capacities. The
Court will hereinafter refer to the FBI, the United States, Director
Mueller, and Assistant Director Martinez as the ‘‘Government.’’
The Court will hereinafter refer to Agents Tidwell, Walls, Rose,
Armstrong, and Allen as the ‘‘Agent Defendants.’’
1

183a
sert claims for violations of the First Amendment’s Establishment and Free Exercise Clauses, the Religious
Freedom Restoration Act, the Fifth Amendment’s Equal
Protection Clause, the Privacy Act, the Fourth Amendment, the Foreign Intelligence Surveillance Act (‘‘FISA’’),
50 U.S.C. § 1810, and the Federal Tort Claims Act.
The FBI denies any wrongdoing, asserting that it did
not engage in unconstitutional and unlawful practices.
Instead, the FBI asserts that it undertook reasonablymeasured investigatory actions in response to credible
evidence of potential terrorist activity. Defendants
now move to dismiss Plaintiffs’ claims. This Order addresses Defendants’ motions as to Plaintiffs’ FISA claim
As to that claim, Defendants’ motions are
only. 2
GRANTED with respect to the Government, but DENIED as to the Agent Defendants.
II.

ANALYSIS
A.

FISA

Plaintiffs bring their FISA claim pursuant to Section
1810 of Title 50 of the United States Code. Section
1810 provides:
An aggrieved person, other than a foreign power or
an agent of a foreign power, as defined in section
1801(a) or (b)(1)(A) of this title, respectively, who has
been subjected to an electronic surveillance or about
whom information obtained by electronic surveil-

Defendants’ motions to dismiss Plaintiffs’ other claims based on
the state secrets privilege are addressed in the Court’s separate,
concurrently—issued Order. The factual background and procedural history of this case are discussed in greater detail in that Order.
2

184a
lance of such person has been disclosed or used in violation of section 1809 of this title shall have a cause
of action against any person who committed such violation and shall be entitled to recover—
(a) actual damages, but not less than liquidated
damages of $1,000 or $100 per day for each day of violation, whichever is greater;
(b) punitive damages; and
(c) reasonable attorney’s fees and other investigation and litigation costs reasonably incurred.
50 U.S.C. § 1810. An aggrieved person means ‘‘a person who is the target of an electronic surveillance or any
other person whose communications or activities were
subject to electronic surveillance.’’ Id. § 1801(k). A person is defined as ‘‘any individual, including any officer or
employee of the Federal Government, or any group,
entity, association, corporation, or foreign power.’’ Id.
§ 1801(m). FISA defines electronic surveillance as:
(1) the acquisition by an electronic, mechanical, or
other surveillance device of the contents of any wire
or radio communication sent by or intended to be received by a particular, known United States person
who is in the United States, if the contents are acquired by intentionally targeting that United States
person, under circumstances in which a person has a
reasonable expectation of privacy and a warrant would
be required for law enforcement purposes;
(2) the acquisition by an electronic, mechanical, or
other surveillance device of the contents of any wire
communication to or from a person in the United
States, without the consent of any party thereto, if

185a
such acquisition occurs in the United States, but does
not include the acquisition of those communications
of computer trespassers that would be permissible
under section 2511(2)(i) of Title 18;
(3) the intentional acquisition by an electronic, mechanical, or other surveillance device of the contents
of any radio communication, under circumstances in
which a person has a reasonable expectation of privacy
and a warrant would be required for law enforcement
purposes, and if both the sender and all intended recipients are located within the United States; or
(4) the installation or use of an electronic, mechanical, or other surveillance device in the United States
for monitoring to acquire information, other than from
a wire or radio communication, under circumstances
in which a person has a reasonable expectation of privacy and a warrant would be required for law enforcement purposes.
Id. § 1801(f ).
conduct:

Section 1809 criminalizes two types of

A person is guilty of an offense if he intentionally—
(1) engages in electronic surveillance under color of
law except as authorized by this chapter, chapter 119,
121, or 206 of Title 18 or any express statutory authorization that is an additional exclusive means for
conducting electronic surveillance under section 1812
of this title; or
(2) discloses or uses information obtained under color
of law by electronic surveillance, knowing or having
reason to know that the information was obtained
through electronic surveillance not authorized by this

186a
chapter, chapter 119, 121, or 206 of Title 18, or any
express statutory authorization that is an additional
exclusive means for conducting electronic surveillance under section 1812 of this title.
Id. § 1809(a). A person may assert, as a defense to
prosecution under this section, that he ‘‘was a law enforcement or investigative officer engaged in the course
of his official duties and the electronic surveillance was
authorized by and conducted pursuant to a search warrant or court order of a court of competent jurisdiction.’’
Id. § 1809(b).
B.

Sovereign Immunity

The Government moves to dismiss Plaintiffs’ FISA
claim pursuant to Federal Rule of Civil Procedure Rule
12(b)(1) on the ground that the claim is barred by sovereign immunity. ‘‘The United States, including its agencies and employees, can be sued only to the extent that
it has expressly waived its sovereign immunity.’’ Kaiser v. Blue Cross of Cal., 347 F.3d 1107, 1117 (9th Cir.
2003) (citing United States v. Testan, 424 U.S. 392, 399,
96 S. Ct. 948, 47 L. Ed. 2d 114 (1976)). ‘‘[A]ny lawsuit
against an agency of the United States or against an officer of the United States in his or her official capacity
is considered an action against the United States.’’
Balser v. Dep’t of Justice, Office of the U.S. Tr., 327 F.3d
903, 907 (9th Cir. 2003) (citing Sierra Club v. Whitman,
268 F.3d 898, 901 (9th Cir. 2001)). ‘‘[S]uits against officials of the United States . . . in their official capacity are barred if there has been no waiver’’ of sovereign immunity. Sierra Club, 268 F.3d at 901. Absent
a waiver of sovereign immunity, courts have no subject
matter jurisdiction over cases against the government.
United States v. Mitchell, 463 U.S. 206, 212, 103 S. Ct.

187a
2961, 77 L. Ed. 2d 580 (1983). ‘‘A waiver of the Federal
Government’s sovereign immunity must be unequivocally expressed in statutory text . . . and will not be
implied.’’ Lane v. Pena, 518 U.S. 187, 192, 116 S. Ct.
2092, 135 L. Ed. 2d 486 (1996). Waiver of sovereign immunity is to be strictly construed in favor of the sovereign. Id.; United States v. Nordic Village, Inc., 503
U.S. 30, 33-34, 112 S. Ct. 1011, 117 L. Ed. 2d 181 (1992).
On August 7, 2012, the Ninth Circuit held that Congress ‘‘deliberately did not waive [sovereign] immunity
with respect to § 1810’’ and thus a plaintiff may not bring
a suit for damages against the government under that
provision.
Al-Haramain Islamic Found., Inc. v.
Obama, 690 F.3d 1089, 1099-1100 (9th Cir. 2012). The
Ninth Circuit reversed the district court’s decision that
Congress implicitly waived sovereign immunity for Section 1810. Id. at 1093-1100. The Ninth Circuit held that
the district court’s finding was erroneous for three reasons.
First, the Ninth Circuit concluded that the district
court erred in finding an implicit waiver because the Supreme Court has held that sovereign immunity cannot
be waived by implication. Id. at 1093-94 (quoting
United States v. Mitchell, 445 U.S. 535, 538, 100 S. Ct.
1349, 63 L. Ed. 2d 607 (1980)). The waiver must be
Id. (quoting Mitchell,
‘‘ ‘unequivocally expressed.’ ’’
445 U.S. at 538, 100 S. Ct. 1349).
Second, the Ninth Circuit found that a conclusion
that Congress intended to implicitly waive sovereign immunity was unwarranted given that Congress had expressly waived sovereign immunity, and permitted civil
actions for damages against the United States, for other
sections of FISA. Id. at 1094-98 (citing 18 U.S.C. § 2712).

188a
Section 2712 of Title 18 of the United States Code, enacted as part of the Patriot Act, permits actions against
the United States to recover money damages for violations of Sections 1806(a), 1825(a), and 1845(a) of FISA.
A person may, therefore, bring a suit against the government if the government (1) uses or discloses information obtained from electronic surveillance conducted
pursuant to the FISA subchapter on electronic surveillance without consent and without following FISA’s
minimization procedures or without a lawful purpose, 50
U.S.C. § 1806(a); (2) uses or discloses information from
a physical search conducted pursuant to the FISA subchapter on physical searches without consent and without following the minimization procedures or without a
lawful purpose, id. § 1825(a); or (3) uses or discloses information obtained from a pen register or trap and trace
device installed pursuant to the FISA subchapter on
such devices without following the requirements of Section 1845, id. § 1845(a). Congress clearly knew how to
waive sovereign immunity for certain violations of
FISA. It decided, in its wisdom, not to do so for violations of Section 1810.
Third, the Ninth Circuit explained that ‘‘the relationship between [Section] 1809 and [Section] 1810’’ further
demonstrates that Congress did not intend to permit an
action against the government for violations of Section
1810. Specifically, the Ninth Circuit explained that because of this relationship, to impose official capacity liability under Section 1810, it ‘‘must also suppose that a
criminal prosecution may be maintained against an office, rather than an individual, under [Section] 1809.’’
Id. at 1098. The Ninth Circuit found that imposing
such ‘‘unprecedented’’ official capacity liability for criminal violations, in essence ‘‘imposing criminal penalties

189a
against an office for the actions of the officeholder,’’
would be “ ‘patently absurd.’ ” Id. at 1099 (citing United
States v. Singleton, 165 F.3d 1297, 1299-1300 (10th Cir.
1999)).’ ”
The Ninth Circuit’s decision in Al-Haramain is dispositive here. Sovereign immunity is not waived for violations of Section 1810. Consequently, Plaintiffs’ Section 1810 claim against the Government is DISMISSED
WITH PREJUDICE.
C.

Qualified Immunity

The Agent Defendants move under Federal Rule of
Civil Procedure 12(b)(6) for dismissal of Plaintiffs’ FISA
claim arguing that they are entitled to qualified immunity. A motion to dismiss under Rule 12(b)(6) tests the
legal sufficiency of the claims asserted in the complaint.
The issue on a motion to dismiss for failure to state a
claim is not whether the claimant will ultimately prevail,
but whether the claimant is entitled to offer evidence to
support the claims asserted. Gilligan v. Jamco Dev.
Corp., 108 F.3d 246, 249 (9th Cir. 1997). When evaluating a Rule 12(b)(6) motion, the district court must accept all material allegations in the complaint as true and
construe them in the light most favorable to the nonmoving party. Moyo v. Gomez, 32 F.3d 1382, 1384 (9th
Cir. 1994). Rule 12(b)(6) is read in conjunction with
Rule 8(a), which requires only a short and plain statement of the claim showing that the pleader is entitled to
relief. Fed. R. Civ. P. 8(a)(2). Dismissal of a complaint
for failure to state a claim is not proper where a plaintiff
has alleged ‘‘enough facts to state a claim to relief that
is plausible on its face.’’ Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929
(2007). In keeping with this liberal pleading standard,

190a
the district court should grant the plaintiff leave to
amend if the complaint can possibly be cured by additional factual allegations. Doe v. United States, 58
F.3d 494, 497 (9th Cir. 1995).
‘‘Qualified immunity shields federal and state officials from money damages unless a plaintiff pleads facts
showing (1) that the official violated a statutory or constitutional right, and (2) that the right was ‘clearly established’ at the time of the challenged conduct.’’ Ashcroft v. al-Kidd, — U.S. —, 131 S. Ct. 2074, 2080, 179
L. Ed. 2d 1149 (2011) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818, 102 S. Ct. 2727, 73 L. Ed. 2d 396 (1982)).
The district court may address the two prongs in
any order. Pearson v. Callahan, 555 U.S. 223, 231, 129
S. Ct. 808, 172 L. Ed. 2d 565 (2009).
The doctrine of qualified immunity was established
to protect government officials ‘‘from liability for civil
damages insofar as their conduct does not violate any
clearly established statutory or constitutional rights of
which a reasonable person would have known.’’ Harlow, 457 U.S. at 818, 102 S. Ct. 2727. A right is clearly
established if ‘‘it would be clear to a reasonable officer
that his conduct was unlawful in the situation he confronted.’’ Saucier v. Katz, 533 U.S. 194, 202, 121 S. Ct.
2151, 150 L. Ed. 2d 272 (2001), overruled on other
grounds by Pearson, 555 U.S. at 236-37, 129 S. Ct. 808.
Law may be clearly established ‘‘notwithstanding the
absence of direct precedent. . . . Otherwise, officers
would escape responsibility for the most egregious
forms of conduct simply because there was no case on all
fours prohibiting that particular manifestation of unconstitutional [or unlawful] conduct.’’ Deorle v. Rutherford, 272 F.3d 1272, 1285-86 (9th Cir. 2001). ‘‘Rather,

191a
what is required is that government officials have ‘fair
and clear warning’ that their conduct is unlawful.’’
Devereaux v. Abbey, 263 F.3d 1070, 1075 (9th Cir. 2001)
(quoting United States v. Lanier, 520 U.S. 259, 271, 117
S. Ct. 1219, 137 L. Ed. 2d 432 (1997)).
The Agent Defendants are not entitled to dismissal
of Plaintiffs’ FISA claim based on qualified immunity.
Plaintiffs have pleaded sufficient facts to demonstrate
that, taken in the light most favorable to them, they are
‘‘aggrieved persons’’ and that the Agent Defendants violated a clearly established statutory right created by
FISA. FISA constitutes clearly established law governing electronic surveillance, including that of the kind
engaged in by the Agent Defendants. Sections 1809
and 1810 clearly prohibit ‘‘the installation or use of an
electronic, mechanical, or other surveillance device in
the United States for monitoring to acquire information,
other than from a wire or radio communication, under
circumstances in which a person has a reasonable expectation of privacy and a warrant would be required for
law enforcement purposes,’’ 50 U.S.C. § 1801(f ), ‘‘under
color of law except as authorized by [FISA], chapter 119,
121, or 206 of Title 18 or any express statutory authorization that is an additional exclusive means for conducting electronic surveillance under section 1812 [of FISA].’’
50 U.S.C. § 1809(a)(1).
The Agent Defendants argue that they are entitled to
qualified immunity because it was not clearly established that Plaintiffs were ‘‘aggrieved persons.’’ Specifically, the Agent Defendants argue that Plaintiffs did
not have a clearly established reasonable expectation of
privacy with respect to the situations in which they were
electronically surveilled. The Court disagrees. FISA’s

192a
‘‘aggrieved person’’ status is coextensive with standing
under the Fourth Amendment for claims involving electronic surveillance. See ACLU v. Nat’l Sec. Agency,
493 F.3d 644, 658 n.16 (6th Cir. 2007) (citing H.R. Rep.
No. 95-1283, at 66 (1978)). Thus, the law regarding the
reasonable expectation of privacy in the Fourth Amendment context governs here and is clearly established.
A person has a reasonable expectation of privacy where
he ‘‘has shown that ‘he seeks to preserve [something] as
private’ ” and his ‘‘subjective expectation of privacy is
‘one that society is prepared to recognize as ‘reasonable.’ ” Smith v. Maryland, 442 U.S. 735, 740, 99 S. Ct.
2577, 61 L. Ed. 2d 220 (1979) (citing Katz v. United
States, 389 U.S. 347, 351, 361, 88 S. Ct. 507, 19 L. Ed. 2d
576 (1967)). Notably, ‘‘[p]rivacy does not require solitude,’’ United States v. Taketa, 923 F.2d 665, 673 (9th
Cir. 1991), and even open areas may be private places so
long as they are not ‘‘so open to [others] or the public
that no expectation of privacy is reasonable,’’ O’Connor
v. Ortega, 480 U.S. 709, 718, 107 S. Ct. 1492, 94 L. Ed. 2d
714 (1987).
As noted by Plaintiffs in their opposition:
The complaint sets forth detailed allegations that Defendants planted electronic listening devices in one
Plaintiff ’s home and another’s office, that their informant left recording devices to capture intimate religious discussion at the mosque, that the informant
routinely took video in mosques and in private homes,
and that the informant acted pursuant to broad instructions to gather as much information on Muslims
as possible.
(Pls. Combined Opp’n, at 64; see also FAC ¶¶ 95, 209,
127, 137, 192, 193, 202, 211.) The FAC alleges that this

193a
surveillance often took place outside the presence of the
informant and was all conducted without a warrant.
(FAC ¶¶ 86-137.) A reasonable officer knows that there
is a reasonable expectation of privacy in one’s home, office, and in certain discrete areas of a mosque as described in the FAC, (id.). See Kyllo v. United States,
533 U.S. 27, 121 S. Ct. 2038, 150 L. Ed. 2d 94 (2001) (finding a reasonable expectation of privacy exists in one’s
home); O’Connor v. Ortega, 480 U.S. 709, 107 S. Ct. 1492
(finding that a reasonable expectation of privacy can exist in a person’s work place and office); Mockaitis v.
Harcleroad, 104 F.3d 1522 (9th Cir. 1997) (finding a reasonable expectation of privacy arising out of religious
customs of confidentiality such as confession), overruled
on other grounds by United States v. Antoine, 318 F.3d
919 (9th Cir. 2003). 3
Agent Rose argues that she is entitled to qualified
immunity because Plaintiffs have failed to plausibly allege that she violated FISA based on Ashcroft v. Iqbal.
Again, the Court disagrees. In Iqbal, the Supreme
Court held that a supervisor may not be held liable for a
constitutional violation on the basis of respondeat superior or vicarious liability, but instead, a plaintiff must
Agent Defendants also argue that they are entitled to qualified
immunity because it was not clearly established that they could be
liable under Section 1810 in their individual capacity, based upon the
Northern District’s ruling that Section 1810 imposed only official capacity liability that was reversed by Al-Haramain. The Court disagrees. Regardless of the nature of the remedy permitted by Section 1810, both that section and Section 1809 clearly establish that
the conduct allegedly engaged in by the individual defendants was
unlawful. The qualified immunity analysis focuses on the legality
of the conduct, not the remedy available to a plaintiff or the procedure for seeking that remedy.
3

194a
allege sufficient facts to plausibly allege liability based
upon the supervisor’s individual conduct. Ashcroft v.
Iqbal, 556 U.S. 662, 675-76, 129 S. Ct. 1937, 173 L. Ed.
2d 868 (2009). Contrary to Agent Rose’s assertion,
Plaintiffs do allege intentional and wrongful conduct on
her part. The FAC alleges:
Upon information and belief, Defendant Pat Rose
was, at all times relevant to this action, employed by
the FBI and acting in the scope of her employment
as a Special Agent. Upon information and belief,
Agent Rose was assigned to the FBI’s Santa Ana
branch office, where she supervised the FBI’s Orange County national security investigations and was
one of the direct supervisors of Agents Allen and
Armstrong. Upon information and belief, Defendant Rose was regularly apprised of the information
Agents Armstrong and Allen collected through Monteilh; directed the action of the FBI agents on various
occasions based on that information; and actively
monitored, directed, and authorized the actions of
Agents Armstrong and Allen and other agents at all
times relevant in this action, for the purpose of surveilling Plaintiffs and other putative class members
because they were Muslim. Agent Rose also sought
additional authorization to expand the scope of the
surveillance program described [in the FAC], in an
effort to create a Muslim gym that the FBI would use
to gather yet more information about the class.
(FAC ¶ 22.) The FAC further alleges that all of the
Agent Defendants, including Agent Rose, ‘‘maintained
extremely close oversight and supervision of Monteilh’’
and ‘‘because they made extensive use of the results of
his surveillance, they knew in great detail the nature

195a
and scope of the operation, including the methods of surveillance Monteilh used and the criteria used to decide
his targets, and continually authorized their ongoing
use.’’ (Id. ¶ 138.) These allegations amount to intentional, individual conduct on the part of Agent Rose that,
taken in the light most favorable to Plaintiffs, demonstrates a violation of Section 1810 that satisfies the
pleading requirements of Iqbal.
Finally, Agents Tidwell and Walls assert that Plaintiffs’ FISA claim should be dismissed because it fails to
allege that they engaged in the alleged surveillance activity with the intent to violate the law. Dismissal on
this basis is unsupported by the plain language of FISA
or judicial precedent interpreting Section 1809. Section 1809 imposes liability for those who ‘‘intentionally
engage in electronic surveillance under color of law except as authorized.’’ 50 U.S.C. § 1809. The statute requires that Agents Tidwell and Walls intended to conduct unauthorized electronic surveillance. The FAC
makes clear that the Agents did intentionally engage in
such surveillance without authorization. More is not
required. 4
III. CONCLUSION

For the foregoing reasons, with respect to Plaintiffs’
FISA Section 1810 claim, the Government’s motion to
dismiss is GRANTED and the Agent Defendants’ motions to dismiss are DENIED.

The Court, however, declines at this time to rule on the issue of
whether Plaintiffs’ FISA claim should be dismissed under the state
secrets privilege, as that issue was not before the Court.
4

196a
APPENDIX D

1.

50 U.S.C. 1801 provides:

Definitions

As used in this subchapter:
(a)

“Foreign power” means—

(1) a foreign government or any component
thereof, whether or not recognized by the United
States;
(2) a faction of a foreign nation or nations, not
substantially composed of United States persons;
(3) an entity that is openly acknowledged by
a foreign government or governments to be directed and controlled by such foreign government
or governments;
(4) a group engaged in international terrorism or activities in preparation therefor;
(5) a foreign-based political organization, not
substantially composed of United States persons;
(6) an entity that is directed and controlled
by a foreign government or governments; or
(7) an entity not substantially composed of
United States persons that is engaged in the international proliferation of weapons of mass destruction.
(b)

“Agent of a foreign power” means—

(1) any person other than a United States
person, who—

197a
(A) acts in the United States as an officer
or employee of a foreign power, or as a member
of a foreign power as defined in subsection
(a)(4), irrespective of whether the person is inside the United States;
(B) acts for or on behalf of a foreign power
which engages in clandestine intelligence activities in the United States contrary to the interests of the United States, when the circumstances indicate that such person may engage
in such activities, or when such person knowingly aids or abets any person in the conduct of
such activities or knowingly conspires with any
person to engage in such activities;
(C) engages in international terrorism or
activities in preparation therefore;
(D) engages in the international proliferation of weapons of mass destruction, or activities in preparation therefor; or
(E) engages in the international proliferation of weapons of mass destruction, or activities in preparation therefor, for or on behalf of
a foreign power, or knowingly aids or abets any
person in the conduct of such proliferation or
activities in preparation therefor, or knowingly
conspires with any person to engage in such
proliferation or activities in preparation therefor; or
(2)

any person who—

(A) knowingly engages in clandestine intelligence gathering activities for or on behalf

198a
of a foreign power, which activities involve or
may involve a violation of the criminal statutes
of the United States;
(B) pursuant to the direction of an intelligence service or network of a foreign power,
knowingly engages in any other clandestine intelligence activities for or on behalf of such foreign power, which activities involve or are
about to involve a violation of the criminal statutes of the United States;
(C) knowingly engages in sabotage or international terrorism, or activities that are in
preparation therefor, for or on behalf of a foreign power;
(D) knowingly enters the United States
under a false or fraudulent identity for or on
behalf of a foreign power or, while in the United
States, knowingly assumes a false or fraudulent identity for or on behalf of a foreign power;
or
(E) knowingly aids or abets any person in
the conduct of activities described in subparagraph (A), (B), or (C) or knowingly conspires
with any person to engage in activities described in subparagraph (A), (B), or (C).
(c) “International terrorism” means activities
that—
(1) involve violent acts or acts dangerous to
human life that are a violation of the criminal laws
of the United States or of any State, or that would

199a
be a criminal violation if committed within the jurisdiction of the United States or any State;
(2)

appear to be intended—

(A)
lation;

to intimidate or coerce a civilian popu-

(B) to influence the policy of a government by intimidation or coercion; or
(C) to affect the conduct of a government
by assassination or kidnapping; and
(3) occur totally outside the United States, or
transcend national boundaries in terms of the means
by which they are accomplished, the persons they
appear intended to coerce or intimidate, or the locale in which their perpetrators operate or seek
asylum.
(d) “Sabotage” means activities that involve a violation of chapter 105 of title 18, or that would involve
such a violation if committed against the United
States.
(e)

“Foreign intelligence information” means—

(1) information that relates to, and if concerning a United States person is necessary to, the ability of the United States to protect against—
(A) actual or potential attack or other grave
hostile acts of a foreign power or an agent of a
foreign power;
(B) sabotage, international terrorism, or
the international proliferation of weapons of
mass destruction by a foreign power or an agent
of a foreign power; or

200a
(C) clandestine intelligence activities by
an intelligence service or network of a foreign
power or by an agent of a foreign power; or
(2) information with respect to a foreign power
or foreign territory that relates to, and if concerning a United States person is necessary to—
(A) the national defense or the security of
the United States; or
(B) the conduct of the foreign affairs of
the United States.
(f )

“Electronic surveillance” means—

(1) the acquisition by an electronic, mechanical, or other surveillance device of the contents of
any wire or radio communication sent by or intended to be received by a particular, known United
States person who is in the United States, if the
contents are acquired by intentionally targeting
that United States person, under circumstances in
which a person has a reasonable expectation of
privacy and a warrant would be required for law
enforcement purposes;
(2) the acquisition by an electronic, mechanical, or other surveillance device of the contents of
any wire communication to or from a person in the
United States, without the consent of any party
thereto, if such acquisition occurs in the United
States, but does not include the acquisition of those
communications of computer trespassers that would
be permissible under section 2511(2)(i) of title 18;
(3) the intentional acquisition by an electronic,
mechanical, or other surveillance device of the

201a
contents of any radio communication, under circumstances in which a person has a reasonable expectation of privacy and a warrant would be required for law enforcement purposes, and if both
the sender and all intended recipients are located
within the United States; or
(4) the installation or use of an electronic,
mechanical, or other surveillance device in the
United States for monitoring to acquire information, other than from a wire or radio communication, under circumstances in which a person has
a reasonable expectation of privacy and a warrant
would be required for law enforcement purposes.
(g) “Attorney General” means the Attorney General of the United States (or Acting Attorney General), the Deputy Attorney General, or, upon the designation of the Attorney General, the Assistant Attorney General designated as the Assistant Attorney
General for National Security under section 507A of
title 28.
(h) “Minimization procedures”, with respect to
electronic surveillance, means—
(1) specific procedures, which shall be
adopted by the Attorney General, that are reasonably designed in light of the purpose and technique of the particular surveillance, to minimize
the acquisition and retention, and prohibit the dissemination, of nonpublicly available information
concerning unconsenting United States persons
consistent with the need of the United States to
obtain, produce, and disseminate foreign intelligence information;

202a
(2) procedures that require that nonpublicly
available information, which is not foreign intelligence information, as defined in subsection (e)(1),
shall not be disseminated in a manner that identifies any United States person, without such person’s consent, unless such person’s identity is necessary to understand foreign intelligence information or assess its importance;
(3) notwithstanding paragraphs (1) and (2),
procedures that allow for the retention and dissemination of information that is evidence of a
crime which has been, is being, or is about to be
committed and that is to be retained or disseminated for law enforcement purposes; and
(4) notwithstanding paragraphs (1), (2), and
(3), with respect to any electronic surveillance approved pursuant to section 1802(a) of this title,
procedures that require that no contents of any
communication to which a United States person is
a party shall be disclosed, disseminated, or used
for any purpose or retained for longer than 72
hours unless a court order under section 1805 of
this title is obtained or unless the Attorney General determines that the information indicates a
threat of death or serious bodily harm to any person.
(i) “United States person” means a citizen of the
United States, an alien lawfully admitted for permanent residence (as defined in section 1101(a)(20) of title 8), an unincorporated association a substantial
number of members of which are citizens of the United
States or aliens lawfully admitted for permanent residence, or a corporation which is incorporated in the

203a
United States, but does not include a corporation or
an association which is a foreign power, as defined in
subsection (a)(1), (2), or (3).
( j) “United States”, when used in a geographic
sense, means all areas under the territorial sovereignty of the United States and the Trust Territory
of the Pacific Islands.
(k) “Aggrieved person” means a person who is
the target of an electronic surveillance or any other
person whose communications or activities were subject to electronic surveillance.
(l) “Wire communication” means any communication while it is being carried by a wire, cable, or
other like connection furnished or operated by any
person engaged as a common carrier in providing or
operating such facilities for the transmission of interstate or foreign communications.
(m) “Person” means any individual, including any
officer or employee of the Federal Government, or
any group, entity, association, corporation, or foreign
power.
(n) “Contents”, when used with respect to a communication, includes any information concerning the
identity of the parties to such communication or the
existence, substance, purport, or meaning of that
communication.
(o) “State” means any State of the United
States, the District of Columbia, the Commonwealth
of Puerto Rico, the Trust Territory of the Pacific Islands, and any territory or possession of the United
States.

204a
(p)

“Weapon of mass destruction” means—

(1) any explosive, incendiary, or poison gas
device that is designed, intended, or has the capability to cause a mass casualty incident;
(2) any weapon that is designed, intended, or
has the capability to cause death or serious bodily
injury to a significant number of persons through
the release, dissemination, or impact of toxic or
poisonous chemicals or their precursors;
(3) any weapon involving a biological agent,
toxin, or vector (as such terms are defined in section 178 of title 18) that is designed, intended, or
has the capability to cause death, illness, or serious bodily injury to a significant number of persons; or
(4) any weapon that is designed, intended, or
has the capability to release radiation or radioactivity causing death, illness, or serious bodily injury to a significant number of persons.
2.

50 U.S.C. 1806 provides:

Use of information
(a)

Compliance with minimization procedures; privileged communications; lawful purposes

Information acquired from an electronic surveillance
conducted pursuant to this subchapter concerning any
United States person may be used and disclosed by Federal officers and employees without the consent of the
United States person only in accordance with the minimization procedures required by this subchapter. No

205a
otherwise privileged communication obtained in accordance with, or in violation of, the provisions of this subchapter shall lose its privileged character. No information acquired from an electronic surveillance pursuant to this subchapter may be used or disclosed by Federal officers or employees except for lawful purposes.
(b)

Statement for disclosure

No information acquired pursuant to this subchapter
shall be disclosed for law enforcement purposes unless
such disclosure is accompanied by a statement that such
information, or any information derived therefrom, may
only be used in a criminal proceeding with the advance
authorization of the Attorney General.
(c)

Notification by United States

Whenever the Government intends to enter into evidence or otherwise use or disclose in any trial, hearing,
or other proceeding in or before any court, department,
officer, agency, regulatory body, or other authority of
the United States, against an aggrieved person, any information obtained or derived from an electronic surveillance of that aggrieved person pursuant to the authority of this subchapter, the Government shall, prior
to the trial, hearing, or other proceeding or at a reasonable time prior to an effort to so disclose or so use that
information or submit it in evidence, notify the aggrieved
person and the court or other authority in which the information is to be disclosed or used that the Government
intends to so disclose or so use such information.

206a
(d)

Notification by States or political subdivisions

Whenever any State or political subdivision thereof
intends to enter into evidence or otherwise use or disclose in any trial, hearing, or other proceeding in or before any court, department, officer, agency, regulatory
body, or other authority of a State or a political subdivision thereof, against an aggrieved person any information obtained or derived from an electronic surveillance of that aggrieved person pursuant to the authority
of this subchapter, the State or political subdivision
thereof shall notify the aggrieved person, the court or
other authority in which the information is to be disclosed or used, and the Attorney General that the State
or political subdivision thereof intends to so disclose or
so use such information.
(e)

Motion to suppress

Any person against whom evidence obtained or derived from an electronic surveillance to which he is an
aggrieved person is to be, or has been, introduced or otherwise used or disclosed in any trial, hearing, or other
proceeding in or before any court, department, officer,
agency, regulatory body, or other authority of the United
States, a State, or a political subdivision thereof, may
move to suppress the evidence obtained or derived from
such electronic surveillance on the grounds that—
(1)

the information was unlawfully acquired; or

(2) the surveillance was not made in conformity
with an order of authorization or approval.
Such a motion shall be made before the trial, hearing,
or other proceeding unless there was no opportunity to
make such a motion or the person was not aware of the
grounds of the motion.

207a
(f )

In camera and ex parte review by district court

Whenever a court or other authority is notified pursuant to subsection (c) or (d) of this section, or whenever
a motion is made pursuant to subsection (e) of this section, or whenever any motion or request is made by an
aggrieved person pursuant to any other statute or rule
of the United States or any State before any court or
other authority of the United States or any State to discover or obtain applications or orders or other materials
relating to electronic surveillance or to discover, obtain,
or suppress evidence or information obtained or derived
from electronic surveillance under this chapter, the
United States district court or, where the motion is made
before another authority, the United States district
court in the same district as the authority, shall, notwithstanding any other law, if the Attorney General files
an affidavit under oath that disclosure or an adversary
hearing would harm the national security of the United
States, review in camera and ex parte the application,
order, and such other materials relating to the surveillance as may be necessary to determine whether the
surveillance of the aggrieved person was lawfully authorized and conducted. In making this determination, the
court may disclose to the aggrieved person, under appropriate security procedures and protective orders,
portions of the application, order, or other materials relating to the surveillance only where such disclosure is
necessary to make an accurate determination of the legality of the surveillance.
(g)

Suppression of evidence; denial of motion

If the United States district court pursuant to subsection (f ) determines that the surveillance was not lawfully authorized or conducted, it shall, in accordance with

208a
the requirements of law, suppress the evidence which
was unlawfully obtained or derived from electronic surveillance of the aggrieved person or otherwise grant the
motion of the aggrieved person. If the court determines that the surveillance was lawfully authorized and
conducted, it shall deny the motion of the aggrieved person except to the extent that due process requires discovery or disclosure.
(h)

Finality of orders

Orders granting motions or requests under subsection (g), decisions under this section that electronic surveillance was not lawfully authorized or conducted, and
orders of the United States district court requiring review or granting disclosure of applications, orders, or
other materials relating to a surveillance shall be final
orders and binding upon all courts of the United States
and the several States except a United States court of
appeals and the Supreme Court.
(i)

Destruction of unintentionally acquired information

In circumstances involving the unintentional acquisition by an electronic, mechanical, or other surveillance
device of the contents of any communication, under circumstances in which a person has a reasonable expectation of privacy and a warrant would be required for law
enforcement purposes, and if both the sender and all intended recipients are located within the United States,
such contents shall be destroyed upon recognition, unless the Attorney General determines that the contents
indicate a threat of death or serious bodily harm to any
person.

209a
( j)

Notification of emergency employment of electronic surveillance; contents; postponement, suspension or elimination

If an emergency employment of electronic surveillance is authorized under subsection (e) or (f ) of section
1805 of this title and a subsequent order approving the
surveillance is not obtained, the judge shall cause to be
served on any United States person named in the application and on such other United States persons subject
to electronic surveillance as the judge may determine in
his discretion it is in the interest of justice to serve, notice of—
(1)

the fact of the application;

(2)

the period of the surveillance; and

(3) the fact that during the period information
was or was not obtained.
On an ex parte showing of good cause to the judge the
serving of the notice required by this subsection may be
postponed or suspended for a period not to exceed
ninety days. Thereafter, on a further ex parte showing
of good cause, the court shall forego ordering the serving of the notice required under this subsection.
(k)

Coordination with law enforcement on national security matters

(1) Federal officers who conduct electronic surveillance to acquire foreign intelligence information under
this subchapter may consult with Federal law enforcement officers or law enforcement personnel of a State or
political subdivision of a State (including the chief executive officer of that State or political subdivision who has

210a
the authority to appoint or direct the chief law enforcement officer of that State or political subdivision) to coordinate efforts to investigate or protect against—
(A) actual or potential attack or other grave hostile acts of a foreign power or an agent of a foreign
power;
(B) sabotage, international terrorism, or the international proliferation of weapons of mass destruction by a foreign power or an agent of a foreign power;
or
(C) clandestine intelligence activities by an intelligence service or network of a foreign power or by
an agent of a foreign power.
(2) Coordination authorized under paragraph (1)
shall not preclude the certification required by section
1804(a)(7)(B)1 of this title or the entry of an order under
section 1805 of this title.
3.

50 U.S.C. 1809 provides:

Criminal sanctions
(a)

Prohibited activities

A person is guilty of an offense if he intentionally—
(1) engages in electronic surveillance under color
of law except as authorized by this chapter, chapter
119, 121, or 206 of title 18, or any express statutory
authorization that is an additional exclusive means

1

See References in Text note below.

211a
for conducting electronic surveillance under section
1812 of this title;
(2) discloses or uses information obtained under
color of law by electronic surveillance, knowing or
having reason to know that the information was obtained through electronic surveillance not authorized
by this chapter, chapter 119, 121, or 206 of title 18, or
any express statutory authorization that is an additional exclusive means for conducting electronic surveillance under section 1812 of this title.
(b)

Defense

It is a defense to a prosecution under subsection (a)
that the defendant was a law enforcement or investigative officer engaged in the course of his official duties
and the electronic surveillance was authorized by and
conducted pursuant to a search warrant or court order
of a court of competent jurisdiction.
(c)

Penalties

An offense described in this section is punishable by
a fine of not more than $10,000 or imprisonment for not
more than five years, or both.
(d)

Federal jurisdiction

There is Federal jurisdiction over an offense under
this section if the person committing the offense was an
officer or employee of the United States at the time the
offense was committed.

212a
4.

50 U.S.C. 1810 provides:

Civil liability

An aggrieved person, other than a foreign power or
an agent of a foreign power, as defined in section 1801(a)
or (b)(1)(A) of this title, respectively, who has been subjected to an electronic surveillance or about whom information obtained by electronic surveillance of such person has been disclosed or used in violation of section
1809 of this title shall have a cause of action against any
person who committed such violation and shall be entitled to recover—
(a) actual damages, but not less than liquidated
damages of $1,000 or $100 per day for each day of violation, whichever is greater;
(b)

punitive damages; and

(c) reasonable attorney’s fees and other investigation and litigation costs reasonably incurred.

